<html>
<title> - IMPROVING HIGH SCHOOL GRADUATION RATES AND POSTSECONDARY SUCCESS IN ALASKA AND NATIONWIDE: WHAT CAN THE FEDERAL GOVERNMENT DO?</title>
<body><pre>[Senate Hearing 110-883]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-883
 
  IMPROVING HIGH SCHOOL GRADUATION RATES AND POSTSECONDARY SUCCESS IN 
       ALASKA AND NATIONWIDE: WHAT CAN THE FEDERAL GOVERNMENT DO? 

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING IMPROVING HIGH SCHOOL GRADUATION RATES AND POSTSECONDARY 
 SUCCESS IN ALASKA AND NATIONWIDE FOCUSING ON WHAT CAN THE GOVERNMENT 
                                  DO?

                               __________

                   NOVEMBER 15, 2008 (ANCHORAGE, AK)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-589 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

        Ilyse Schuman, Minority Staff Director and Chief Counsel

                                  (ii)

  


















                            C O N T E N T S

                               __________

                               STATEMENTS

                      SATURDAY, NOVEMBER 15, 2008

                                                                   Page
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska, 
  opening statement..............................................     1
Smink, Jay, Ed.D., Executive Director, National Dropout 
  Prevention Center, Clemson, SC,................................     5
    Prepared statement...........................................     9
LeDoux, Larry, Commissioner, Alaska Department of Education and 
  Early Development, Juneau, AK..................................    14
    Prepared statement...........................................    15
Hamilton, Mark, President, University of Alaska, Fairbanks, AK...    22
    Prepared statement...........................................    23
Holloway, Shirley, President/CEO, Avant-Garde Learning 
  Foundation, Anchorage, AK......................................    26
    Prepared statement...........................................    28
Rose, Carl, Executive Director, Association of Alaska School 
  Boards, Juneau, AK.............................................    33
    Prepared statement...........................................    37
Winkler, Elizabeth, Finance Assistant, Nine Star Education and 
  Employment Services, Anchorage, AK.............................    42
    Prepared statement...........................................    44
Cashen, Greg, Executive Director, Alaska Workforce Investment 
  Board, Anchorage, AK...........................................    45
    Prepared statement...........................................    47
Andrews, Michael, Director, Alaska Works Partnership, Inc., 
  Anchorage, AK..................................................    49
    Prepared statement...........................................    51
Michels-Hansen, Tina, Elementary and Middle School Programs 
  Manager, Cook Inlet Tribal Council, Anchorage, AK..............    53
    Prepared statement...........................................    55
Morgan, Tom, State Director, Communities in Schools of Alaska, 
  Inc., Anchorage, AK............................................    57
    Prepared statement...........................................    59

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Albertson, LaMont, Executive Director, Yuut Elitnaurviat--
      People's Learning Center, Bethel, AK.......................    80
    Atwater, Steve, Ph.D., President, Alaska Association of 
      School Administrators, Juneau, AK..........................    80
    Barrans, Diane, Executive Director, Alaska Commission on 
      Post-Secondary Education, Anchorage, AK....................    82
    Bogart, Debbie, Executive Director, Anchorage's Promise, 
      Anchorage, AK..............................................    83
    Cook Inlet Tribal Council (CITC), Inc., Anchorage, AK........    87
    Grinage, Beverly Patkotak, President, Ilisagvik College, 
      Barrow, AK.................................................    93
    Greene-Wilkinson, Denise, Board Member, National Association 
      of Secondary School Principals, Anchorage, AK..............    95
    Letters:
        Alaska Pacific University (APU), Anchorage, AK...........    98
        Best Beginnings, Anchorage, AK...........................    99

                                 (iii)

  


  IMPROVING HIGH SCHOOL GRADUATION RATES AND POSTSECONDARY SUCCESS IN 
       ALASKA AND NATIONWIDE: WHAT CAN THE FEDERAL GOVERNMENT DO?

                              ----------                              


                      SATURDAY, NOVEMBER 15, 2008

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                     Anchorage, AK.
    The committee met, pursuant to notice, at 10:00 a.m. in the 
School Board Meeting Room, Anchorage School District Education 
Center, 5530 East Northern Lights Boulevard, Anchorage, AK, 
Hon. Lisa Murkowski, presiding.
    Present: Senator Murkowski.

                 Opening Statement of Senator Murkowski

    Senator Murkowski. Good morning. I want to thank our panel 
of witnesses who have joined us. I appreciate it a great deal. 
I want to thank Carol Comeau. I know Carol is right over here. 
Carol is our host this morning here at the Anchorage School 
District. Superintendent Comeau, I want to thank you for your 
leadership on so many issues. We appreciate the opportunity to 
be here in the room and setting up the video conference for us 
here today.
    I want to introduce Karen McCarthy, on my staff. Many of 
you may have known her when she was in Juneau, working as a 
legislative aide on education issues. She's now in my office in 
Washington, DC. I know that she has a great network, and I 
think you're probably all on her e-mail list. If you are not, 
you're probably one of a very few in this State, as far as 
educators, so you need to get on Karen's list. I appreciate all 
of Karen's work in helping us this morning.
    The title of the hearing this morning is ``Improving High 
School Graduation Rates and Postsecondary Success in Alaska and 
Nationwide: What Can the Federal Government Do? '' This is an 
ambitious hearing. Those of you who have looked at the agenda, 
the list of speakers, I think you will agree that this is 
ambitious. I think we also recognize that if we are going to 
work effectively together to address a very, very complex 
problem facing Alaska and the Nation, it needs to be ambitious, 
it needs to be aggressive, and that's what we are doing here 
this morning.
    We had an opportunity, just a few moments ago, to have a 
press conference with some of the members of the panel here and 
talk just a little bit about the statistics. We know the 
statistics. Those of you that are here in the room this 
morning, whether it's to speak as witnesses or to listen, we 
know the statistics that we are facing here. Those who have a 
college degree clearly will earn more than those who have a 
high school diploma. Those with a diploma earn far more than 
high school dropouts. High school dropouts are more likely to 
live in poverty, need public assistance, go to prison, get 
divorced, be unhealthy, even die earlier than their peers that 
are in school. We also know that Alaska needs more healthcare 
workers, teachers, engineers, welders, electricians, a host of 
other high-skill jobs. But, when we look at Alaska, Alaska is 
really the Nation's poster-child, if you will, for not getting 
9th graders the education that they need to get the good-paying 
jobs in a 21st-century competitive and global economy.
    I don't like to talk about statistics, when we're speaking 
with children, because I think that that gets us away from the 
focus of the human side. I think we need to appreciate our 
statistics, just briefly.
    In Alaska, only 6 percent--6 percent--will earn a 
postsecondary credential within 10 years--those who start in 
9th grade. This is a report from the Alaska Commission of 
Postsecondary Education. In pretty simple terms, ``Of 100 
Alaskan 9th-graders, only six will earn a college degree within 
6 years.'' So, 38 of these 100 will drop out of high school, 34 
will finish high school, but not enroll in college, and then, 
of the 66 who enroll in college, 10 drop out of the first year 
and never return, another 12 will remain in college, but not 
complete a degree after 6 years. Only 6 will earn a degree 
within 6 years. The bottom line is that 38 percent of today's 
9th graders will have no high school diploma, and 56 percent of 
them will have no college degree 6 years later. Now, think 
about that, a hundred.
    The statistic--and I mentioned this in the press conference 
today--a report by the Education Trust states that the United 
States is the only industrialized Nation in the world in which 
today's young people are less likely to have completed high 
school than their parents.
    It takes you back to an appreciation of how huge this 
problem is for us, not only here in the State of Alaska, where 
our graduation rate is 65.57 percent, as opposed to the U.S. 
average, which is 76 percent. But, put it in the bigger picture 
of what this means for us as a nation in a competitive world. 
If we don't have educated, skilled young people going into the 
workplace, how can we possibly be competitive?
    Back in Washington, DC, right now, we're really keyed in to 
the economic issues that are facing our Nation and how we're 
going to provide for a level of stability within our economy. 
But, if we can't educate--if we can't make sure that we have 
young people that are prepared for that workforce, for those 
job opportunities, how can we be competitive in a global 
marketplace?
    There was a comment that was made in an article out of the 
Wall Street Journal a couple of weeks ago, and it's a pretty 
tough statement. But, they're talking about the economic impact 
of what the graduation rate really means. A statement made by 
the president and CEO of America's Promise, and the need to 
depend on our workers to fuel our economy and our future 
growth, the next generation of workers is not prepared for the 
21st-century global economy. She calls the dropouts ``our next 
class of nonperforming assets.'' This is what we're facing, and 
this is what we're doing here this morning.
    We know that there are so many different reasons why our 
students drop out of school. It's not an event, as somebody has 
said in their testimony, it's a process. It starts so very 
early, in many cases. Toddlers, whose brains develop without 
ever seeing a book. We've got 4th-graders who can't read, 8th-
graders who can't do basic math, 11th-graders who are so far 
behind in school that they don't see the relevance of what 
they're supposed to be doing and how education connects with 
their everyday lives. Kids who dream of being carpenters, but 
aren't getting the classes that they need or the 
apprenticeships that they need. We've got students who dream of 
being scientists, but they can't access advanced math or 
science classes. Then, we know of so many stories where our 
young people are dealing with emotional troubles, violence in 
their communities and in their homes, pregnancy, alcoholism, 
drugs, all these barriers to education.
    Today what we're going to be doing is discussing what the 
State and the Federal Government and the districts and labor 
and the community and the school boards can do for our kids, 
from birth all the way on up, to make sure that they've got 
access to age-
appropriate books, mentors, rigorous curriculum, tutoring, the 
early apprenticeship training, and the services to help youth 
cope with the challenges.
    I have asked 10 very distinguished folks to focus on how we 
can move forward, how the Federal Government can help. I 
appreciate the time that they have taken, on a Saturday 
morning, to join us.
    I would ask that, as I make the introductions of you all--
and I'm going to abbreviate them, but please know that in the 
comments that are submitted for the records, your background 
statements are magnificent--and I don't say that, tongue in 
cheek; I appreciate what you bring to the discussion and to the 
table here this morning.
    We're joined this morning by Dr. Jay Smink. Dr. Smink is 
joining us by video conference. He's been the executive 
director of the National Dropout Prevention Center at Clemson 
University since 1998. He's a professor of education at the 
College of Health, Education, and Human Development, and he is 
recognized as a national leader and authority on dropout 
prevention. He's provided counsel to State education agencies 
and local school districts, including some of our districts 
here in Alaska, to develop and implement dropout prevention 
programs. I appreciate the fact that he's taking time today to 
be with us. He's attending the National Dropout Prevention 
Network Conference, and so, the wonders of video conference 
allow him to join us.
    We are also joined by Mr. Larry LeDoux. Larry is the 
commissioner of the Department of Education and Early 
Development. He came on in July of this year, and, before that, 
was superintendent out at Kodiak.
    General Hamilton, Mark Hamilton, is the president of the 
university. A pleasure to have him here this morning. He was 
appointed the 12th president of the university back in 1998, 
has an incredible background, not only in education, but in the 
military, and I so appreciate his leadership on education 
issues.
    Dr. Shirley Holloway is testifying today as president and 
CEO of the Avant-Garde Learning Foundation. She founded this in 
2005 to help the communities and the schools prepare our youth 
better for a successful future. She's been an educator since 
1971, and she is a true leader in so many, many areas.
    Carl Rose is with us this morning as the highly respected 
executive director of the Association of Alaska School Boards. 
I think most of your adult life has been spent on educating--or 
advocating for education for our youth in our public schools, 
and we so appreciate your leadership.
    We're also joined by Elizabeth Winkler. She is a finance 
assistant at Nine Star Education and Employment Services here 
in Anchorage. This is a nonprofit that is dedicated to 
developing Alaska's workforce through literacy training and job 
readiness.
    I want to acknowledge and especially thank Elizabeth for 
agreeing to testify before the committee today and to give us 
the benefit of her experience. Elizabeth is one of those whom 
we're talking about today. She dropped out of high school 
before the end of the 10th grade, got her GED at Nine Star, and 
is now a working parent of, I understand, a 1-year-old 
daughter. She was enrolled in classes at both UAA and the 
University of Phoenix, and she is intending to re-enroll later 
at UAA. I appreciate your willingness to provide some real good 
background, and thank you for being here.
    Greg Cashen is the executive director of the Alaska 
Workforce Investment Board. He's testifying today on behalf of 
the Alaska Department of Labor and Workforce Department 
commissioner. We appreciate your leadership in so many 
different areas, Greg, and what you can help us with on the 
efforts related to job training.
    Mr. Mike Andrews is the director of Alaska Works 
Partnership. This is a nonprofit organization established by 
Alaska's construction unions to increase the numbers of 
Alaskans who are employed in the construction industry, working 
with apprentice outreach, pipeline construction training, and 
so many different areas as they relate to job training 
programs, and we thank you for you being here today.
    We also have Tina Michels-Hansen. Tina is the elementary 
and middle school program manager for Cook Inlet Tribal 
Council. This is the regional nonprofit council. Tina is the 
mother of five children, and a military wife, and very focused 
on the issues as they relate to our Alaska Natives and their 
educational opportunities. We appreciate you being here, Tina.
    Finally, at this end we have Tom Morgan, who serves as the 
State director of Communities in Schools of Alaska, focusing on 
brokering existing resources to help our young people stay in 
school, graduate, and succeed in life. Tom has been doing a 
great job with CIS, and I appreciate your leadership and 
joining us here today.
    I do want to note that we have received written testimony 
from, not only the panel in front of us, but we have received 
statements from Abbe Hensley, of Best Beginnings; Beverly 
Grinage, president of Ilisagvik College, up north; Doug North, 
president of Alaska Pacific University; Debbie Bogart, from 
Anchorage's Promise; Steve Atwater, of the Alaska Association 
of School Administrators; and Lamont Albertson, executive 
director of The People's Learning Center.
    I would invite those who would like to present testimony, 
written testimony--the record will remain open until November 
29.
    I do wish that we had more time to hear, just, the 
commentary from others, but this is the nature of the hearings 
that we have in front of us.
    I would ask each of you, as we proceed through the 
testimony, if you can try to limit your comments to 5 minutes. 
Your full written statement is included as part of the record, 
but I think it would be helpful, for purposes of our 
discussion, if we can keep to our time limits so that we can 
have the opportunity for greater dialogue and questioning at 
the end.
    With that, I would like to start with Dr. Smink, and then 
proceed, beginning with you, Commissioner LeDoux, and going 
down the line.
    I'm hopeful that everyone in the back is able to hear. If 
you're not, please let us know, up front.
    Again, with that, Dr. Smink, if you would like to lead off, 
I appreciate you being with us, live and in color, and welcome.

  STATEMENT OF JAY SMINK, ED.D., EXECUTIVE DIRECTOR, NATIONAL 
             DROPOUT PREVENTION CENTER, CLEMSON, SC

    Mr. Smink. Thank you, Senator Murkowski and honored guests. 
We are really pleased to be with you. We are honored to be a 
part of this field hearing on this critical issue of high 
school graduation. It truly is critical.
    Let me, probably, do something to start off that's not 
normally a part of most testimonies. If you can hear and see 
this, this is an antique school bell that was probably used by 
a teacher in the Lower 48, of around 1920, 1930. The question 
that I have, rhetorically, is, Do you think there was a dropout 
issue at that time? Was it more serious then, or less serious, 
than now? We can answer that, perhaps, later, as we have 
questions. What I'm attempting to do is make the point that 
there were dropouts then, there still are now, and it's more 
serious now. That's the intent of your field hearing.
    Thank you very much for having us be present and allowing 
us to share some of the findings and experiences that we have 
gained since 1986, when the National Dropout Prevention Center 
was first initiated at Clemson University. I was the director, 
from the beginning of the real programs, in 1988.
    What we're going to be doing is sharing with you some of 
our experiences, some of our observations that we've learned 
from across the Nation, because we have the opportunity, not 
only now, to work with Alaska, but, at any given time, we're in 
approximately 15 to 16 different States with active research 
and/or demonstration projects. It gives us a vast opportunity 
to see what's happening across the Nation. I'm sure that's 
probably one of the reasons why you invited us to be with you, 
and we appreciate that.
    One of the things that I like to start off with--not only 
this testimony, but others--is the notion that most laypeople 
feel that the dropout issue is one of local schools, and they 
should be asked to solve it, when, in fact, we know, yes, it 
is. It is the students that drop out mostly between the grade 
levels of 8, 9, or 10, and it's usually around age 16, 17, or 
18. What we really know is, that's an event, and the dropout 
issue, as you said earlier, is not an event. It really is a 
long process of disengagement in school. The evidence--the 
research evidence clearly says it could, and does, start as 
early as preschool and school readiness, all the way up to the 
ultimate decision for a student to drop out of school, leave 
school.
    That's the point we want to start with. We feel 
comfortable, working with a lot of State agencies and school 
districts, that we have a perspective that perhaps may be a 
little broader than some of your other expert witnesses today, 
and hopefully this will fit in and confirm some of their 
experiences that they share with you as a result of the Alaska 
experience.
    One of the things that we like to promote is the notion 
that policymakers, whether they be at the Federal or State 
level, that they grasp the issue of, What are the root causes 
of dropouts, and, more importantly, what are the program 
interventions that have been proven to be most effective over 
the years? That's our specialty. Yes, we do know the research, 
but yes, more importantly, we know the interventions that have 
had an impact over the last two decades. That's one of the 
things that we want to share with you in our brief moment, but 
it is also in our written testimony.
    Now, one of the things, though, to set the stage, whenever 
we're working with any particular group, is to note--and I'm 
sure the other expert witnesses will make the point--that 
graduation rates vary across all the States. They even vary 
across all local districts. We're not prepared today, although 
we could, but we're not prepared today to share that particular 
set of statistics with you; they're well known.
    What we do want to do is point out where some of these 
variations are more prominent. And one of the three areas that 
I'm sure you're aware of, but we'd like to emphasize the point 
that the data is particularly severe with groups--if you 
disaggregate the data, with groups in the area of race and 
ethnicity, particularly in the area of African-American 
students or Hispanic students, or, in your case, Alaska 
Natives, or, in the Lower 48, the American Indians. These 
particular segments of our school populations are very serious.
    In the area of students with disabilities, also is an area 
that is generally not looked at seriously. There's a large 
number of students with disabilities who are also dropping out 
of our schools. The other area that is very evident in the 
research is--regardless of segments of population, it's the 
area of the impact that poverty has on this particular issue. 
It cannot be ignored, and we try to make that point.
    One of the things that we like to share with you as a 
result of our Center being in Alaska for the last 2 years is, 
we have had a prominent number of--six of our senior people in 
Alaska working with local schools for a total of approximately 
90 days, so we have a fair amount of activities that we've 
looked at and we understand about the Alaska situation. True in 
Alaska and true elsewhere are some certain factors that are 
very prominent. It's that the local socioeconomic condition 
obviously contributes to it. Cultural differences contribute to 
kids dropping out of school. School readiness is critical. Poor 
reading skills are very critical. So is the lack of serious 
dropout prevention planning, whether it be at the State or 
local level; a lesser degree of looking at career development 
and workforce readiness, and the notion of accountability.
    Now, No Child Left Behind is forcing that issue of making 
us look at accountability a little bit more. We welcome that. 
We also welcome what the Secretary recently released, about 2 
weeks ago, on a permanent or a more likeable definition for 
``school dropouts,'' and particularly with the rates that will 
be comparable across all States.
    One of the things that we want to end with is the notion of 
providing some suggestions to you and your committee. The 
emphasis points that we would like to make is to continue to 
build accountability with data-driven decisions, both at the 
State level, but also at the local level, and also, obviously, 
at the Federal level, with the legislation that's there.
    The other notion that we would like to bring to your 
attention is that State Departments of Education, regardless of 
their intent, need a lot of technical assistance, so that they 
can, in turn, provide a lot of technical assistance to local 
school districts. We offer for your consideration a culmination 
of almost two decades of research where we have taken a look 
at, What are the intervention strategies that appear to be the 
most effective? Since 1990 when we first published our list of 
the most effective strategies, to, in 2001 and in 2004, we 
published two publications that take those 15 strategies that 
have the most impact, whether it be at elementary, middle, or 
high school, or even at the recovery stage. We invite you to 
take a look at that in more depth, because we think that's our 
focus. Not just looking at the data, but looking at, What are 
the intervention strategies?
    And, particularly, we'd like to call your attention--in 
Alaska, one of our 15 strategies, for example, is professional 
development. You have one of the leading forces in your State, 
the Alaska Staff Development Network, that is doing that, 
statewide. We wanted to acknowledge that, that is one of your 
homegrown programs that is providing significant staff 
development for teachers, counselors, administrators, and also 
community leaders who are providing services to youth.
    The other notion that we would like to leave with you and 
your committee as you study these testimonies more in-depth is 
to ask you to avoid the fix-it-fast mentality. Too many times, 
our legislators, whether they be at the Federal level or at the 
State level, tend to want to develop a piece of legislation to 
fix it fast. It'll be a single issue, it'll be a single funding 
period, for maybe up to 3 years, and it'll focus on one 
particular group. What we really advise and suggest that you 
consider as you put activities together, and new legislation, 
is that you look at several issues, particularly the issue of 
equity in access for all students, but particularly in your 
case, the Native Alaskans. Now, this is particularly critical 
there, but also across the Nation it's critical.
    One of the things that we find when we talk to students who 
have dropped out is, they've never developed a relationship 
with anyone. Some of the embedded programs that we have seen as 
we analyze those in those 15 strategies, we continue to see the 
need for a home-school liaison. We continue to see the notion 
for graduation coaches. A lot of States--the one we're in right 
now, Atlanta, has been a leader--I mean, the State of Georgia.
    We're in Atlanta right now, in Georgia. They have been a 
leader in developing graduation coaches. Other States are 
following the same. We think it's important to have career 
counseling. We also think it's important to have advisory 
groups. We also think it's important for schools to be full-
service centers, not just academic centers. All of these build 
relationships between adults or peers, but with the students 
who are in need of it most.
    In summary, as I conclude the statements, the dropout 
issue, as many research reports--and I'm sure you have read 
them, including the Wall Street Journal you referred to--is at 
a crisis stage. We need to act, and we need to act now. The 
good news, however, is that we do know a lot about the issue, 
not only in statistics, but, more importantly, in the 
intervention strategies. We feel, as a group--not only our 
center, but as a group across the Nation--we feel, very 
strongly, that we do know the successful strategies and the 
successful interventions that will help our school-based, as 
well as community-based, programs. That's important. We urge 
you, at the Federal level and State level, to understand that 
also, that there are answers available and they are there.
    One of the reasons why perhaps they are not used is because 
they are put in force in an abbreviated way, perhaps in a 3-, 
maybe even a less than 3-year focus, and so, we would urge you, 
in any research area or any demonstration area, that you begin 
to think from a long-term commitment, but also, more 
importantly, that you think about sustaining them, not 
particularly from the Federal level or the State level, but, 
more importantly, from the local level. They must promise a 
sustained application of those interventions beyond the seed-
money funding. That's really important.
    I'm encouraged about what I've seen, the last two decades, 
about how State Departments of Education and local education 
agencies have grasped this whole notion of accountability, and 
the importance. However, there are still very many school 
districts across the Nation, and mostly in rural settings--and 
obviously Alaska fits into that particular category--that may 
not have the resources, may not have the leadership to grasp 
the notion of accountability; more importantly, to grasp the 
notion of, What should we do, from an intervention standpoint?
    I would urge you, at the Federal level or your other 
colleagues there in the State--who are the State level--to 
develop legislation that provides opportunities, first, for 
research at the Federal level--I think the Federal level can do 
research best on this issue--but at the State level, they need 
to be able to promote interventions that work and provide 
professional development activities to the local districts. 
That would probably be our ultimate summary statement and 
recommendation, not only to the Federal level, but to the local 
level.
    And the last comment would be that the notion of 
sustainability across all levels is particularly critical, 
particularly from the notion of sustainability for school and 
community leaders. This is not a school issue, which most 
laypeople think; it is really a school and community issue, 
because when youngsters drop out of school, they drop out into 
the community also and get into trouble, and then you have 
ripple effects in law enforcement, etc, etc.
    The notion of collaborative projects between the school and 
the community cannot be overemphasized. I would close with 
making that point, to look at interventions that work and look 
at the sustainability and look at the notion of collaboration, 
because it is not just a school issue, it is a school and 
community issue.
    Thank you very much for the opportunity.
    [The prepared statement of Mr. Smink follows:]
                 Prepared Statement of Jay Smink, Ed.D.
    Thank you Senator Lisa Murkowski and honored guests at the field 
hearing of the Senate Health, Education, Labor, and Pensions Committee, 
for the opportunity to address the dropout issue and offer suggestions 
based on more than two decades of focused dropout prevention activities 
across this great Nation. I am Jay Smink, Executive Director of the 
National Dropout Prevention Center/Network (NDPC/N) at Clemson 
University, Clemson, SC, and I am honored to participate in this field 
hearing.
               understanding the dropout issue nationally
    Most laypeople and many policymakers have the impression that the 
school dropout issue is first the school's problem to solve and next 
that the problem is primarily focused in our high schools. True, most 
students do leave school between the 8th and 10th grades. However, a 
recent research report from NDPC/N indicates that dropping out of 
school is not really that isolated life-changing event occurring at age 
17 or in the 9th grade (Hammond, Linton, Smink, & Drew, 2007). Research 
has shown that dropping out of school is often the result of a long 
process of disengagement that may begin before a child enters school. 
In fact, dropping out is often described as a process, not an event, 
with factors building and compounding over time. These factors have 
been clearly defined and are evident in four different research domains 
including the student, family, school, and community. Respectively, 
several examples of student factors are poor attendance and low 
achievement levels in reading. Contributing factors from the family are 
high mobility patterns or children not living with both natural 
parents. School factors include grade retention policies or large class 
sizes with high-risk students. And community factors include the 
collective community involvement and support provided to the schools. 
Also, how the community values the need for the high school diploma as 
the starting point for a better quality of life is extremely important. 
In fact, both of these community factors contribute to the competitive 
business environment for the community.
    Policymakers have a huge responsibility to thoroughly understand 
all the root causes and multiple facets of the dropout issue before 
they begin to consider legislation and regulations for local schools. 
They must also know about the range of potential interventions 
available to school and community leaders. However, it is most 
important to understand several basic principles as they design 
legislation with the expectation that favorable change will happen in 
schools and graduation rates will increase.
    Any proposed legislation should stress that State and local program 
planners begin all dropout prevention efforts based on the use of 
reliable and accurate data. Decisions need to have a sound research 
base with the flexibility at the local level to accommodate unique 
situations and build new school improvement plans on existing 
strengths. Accountability and evaluation structures along with equity 
issues must be part of all legislation.
    Increased graduation rates are expected from any new legislation 
but so are other accomplishments such as increased attendance and 
academic achievement levels, improved behavior patterns, and increased 
civic involvement by every student. These accomplishments should be 
rewarded, but any proposed legislation must provide for those school 
districts with lesser accomplishments to be given additional assistance 
and every opportunity to succeed before any dramatic change is 
instituted.
                           examining the data
    Graduation rates vary widely across States, from a 60 percent rate 
in South Carolina to an 88 percent rate in Nebraska (USDOE, NCES 
Statistics, 2008). However, much of the variation has been attributed 
to the differing interpretations of what constitutes a ``dropout.'' 
Thus, it has been difficult to make accurate comparisons that allow for 
meaningful interpretation and analysis. As a result of broad public 
consensus that there is a need for a uniform definition and formula to 
calculate high school graduation rates, Secretary of Education Margaret 
Spellings released a proviso as recently as October 28, 2008, that 
provides new rules for States regarding graduation rates. The new 
regulations require that all States will use the same formula to 
calculate how many students graduate from high school on time and how 
many drop out. The final regulations define the ``4-year adjusted 
cohort graduation rate'' as the number of students who graduate in 4 
years with a regular high school diploma divided by the number of 
students who entered high school 4 years earlier, adjusted for 
transfers, students who emigrate and deceased students? (Spellings, 
2008).
    Regardless of the variations in actual numbers, the data relating 
to school dropout and high school graduation are sobering, particularly 
among minority students. The most recent statistics reported by the 
U.S. Department of Education estimate that over a half million students 
drop out of school each year, which is enough to fill 12,207 school 
buses (USDOE, 2008). These data have remained relatively flat for the 
past 30 years, even as spending on education has increased 
significantly (Heckman & LaFontaine, 2007). As noted above, graduation 
rates for students of color, students with disabilities, and those who 
live in poverty are significantly higher than for white students who 
live in middle to high family income homes. These characteristics are 
more specifically described below.
Race/Ethnicity
    Past data have shown a strong association between race/ethnicity 
and the likelihood of dropping out of school. In particular, cohort 
studies of national longitudinal data for American high school 
students, such as the High School and Beyond study and the National 
Education Longitudinal Study of 1988, both sponsored by NCES, show that 
Blacks and Hispanics were at greater risk of dropping out than Whites. 
Furthermore, American Indian and Alaska Native students have a dropout 
rate twice the national average--the highest dropout rate of any U.S. 
ethnic or racial group.
Students With Disabilities
    The most recent special education dropout data indicate that the 
highest special education dropout rate reported for the 2006-07 school 
year was 33.6 percent (NDPC-SD, 2008). However, it is important to note 
that the definition of ``dropout'' and the data sources currently used 
by the Office of Special Education Programs (OSEP) differs from the 
definition used by the National Center for Education Statistics (NCES) 
Common Core of Data (CCD), significantly compromising the capacity to 
make accurate comparisons of special education and general education 
dropout numbers. This exacerbates efforts to chart the necessary and 
highly important progress of students with disabilities in relation to 
their peers without disabilities (Thurlow, Sinclair, & Johnson, 2002). 
Even so, available data reveal that dropout rates vary substantially 
among the various categories of disability. For instance, the dropout 
rate for students identified with an emotional disturbance is 
approximately 51.4 percent, while the rate for those with hearing or 
orthopedic impairments is approximately 15 percent (NDPC-SD, 2008).
Impact of Poverty
    High school students living in low-income families are six times as 
likely as their peers from high-income families to drop out of high 
school. About 10.7 percent of students from low-income families (bottom 
quintile) dropped out of high school; by comparison, 5.4 percent of 
middle-income students dropped out, as did 1.7 percent of students from 
high-income families (USDOE, 2004). In the absence of additional 
measures, family income serves as a good indicator for other social and 
economic factors that are likely to be related to a student's decision 
to stay in school or to drop out. Clearly, dropout and graduation rate 
data described above indicate that dropout is a national issue that has 
serious implications for our national security, our economic 
development, and general quality of life for all Americans.
       problems associated with alaska's high school dropout rate
    Through a research-based Program Assessment and Review (PAR) 
process, the National Dropout Prevention Center has become intimately 
involved with the discovery of Alaskan dropout etiology in the major 
cities of Fairbanks, Anchorage, and Juneau, as well as smaller cities 
such as Sitka and Ketchikan, focusing specifically on the issue of 
dropout among Alaskan Natives. Additionally, the NDPC/N is working in 
several other small, rural villages to address dropout among the Eskimo 
and Native Alaskan population through a recently federally funded 
project termed: Rural Alaska Mentoring Project (RAMP) that involves the 
training and use of peer-to-peer mentors via a Web-based mentoring 
program, as well as face-to-face adult mentoring to specifically 
address dropout. As a result of the extensive work throughout the 
State, the NDPC/N has data to suggest the following issues are highly 
associated with dropout in Alaska, particularly among Eskimos and 
Alaskan Natives.
    <bullet> Factors associated with low socioeconomic conditions. 
These factors include drug and alcohol abuse; lack of support at home, 
manifested through low expectations built on a history of poor academic 
engagement and performance by parents and grandparents; a highly 
transient population; poor health conditions; high unemployment; high 
incidences of incarceration; and single-parent homes. In the Alaska 
Staff Development Network's (ASDN) statewide needs assessment, Alaska's 
53 school districts identified dropout prevention as one of the top 
priorities.
    <bullet> Factors associated with cultural differences. Educators 
and community members may exhibit attitudes and behaviors that include 
subtle and inadvertent insensitivity towards those with different 
cultural backgrounds and experiences. In addition, significant inequity 
exists in terms of equal access to resources, quality of instruction, 
and building infrastructure.
    <bullet> Factors associated with school readiness. The lack of 
State funding for a mandated early childhood/kindergarten program has 
resulted in incidences of 30-40 percent of students starting school 
with limited understanding of numeracy and literacy. Furthermore, the 
statewide school system as a whole has demonstrated a limited capacity 
to adequately address the needs of students who are behind their peers. 
This is particularly evident at the secondary level, where limited 
opportunities for credit recovery are in place for students who get 
behind in credits. Individual and focus group interviews with students 
have provided data to suggest this is a leading contributor to the 
dropout problem, particularly for Native Alaskan students.
    <bullet> Factors associated with poor reading skills. There is a 
lack of a systemic reading initiative in any of the school districts 
observed to date, particularly at the secondary level. Secondary 
teachers report that low reading levels of students are at the heart of 
poor academic performance, low self-esteem, and ultimate dropout.
    <bullet> Factors associated with dropout prevention planning. There 
is not a coordinated and systemic dropout prevention plan in place by 
the State that incorporates a high level of accountability and progress 
monitoring. This is a major hurdle for the State, due to the site-based 
management infrastructure in place and the challenges of a wide range 
of geographic, demographic, and cultural issues that are unique to the 
State of Alaska.
    <bullet> Factors associated with career development and workforce 
readiness. Alaska has an inadequate Career and Technical Education 
(CTE) model in place that is poorly funded and not emphasized as a 
legitimate dropout prevention strategy. Career development 
opportunities at the secondary level are predominantly career 
exploration, at best, with limited State funding to support up-to-date 
technology and resources.
    <bullet> Factors associated with accountability. The collection, 
analysis, and use of data for decisionmaking are problematic across the 
State. There is not a statewide data system in place that requires 
similar hardware and software applications, and mandates a specific set 
of data elements for input. The results are statewide systems of data 
warehouses that are not integrated and limits the capacity of the 
Department of Education personnel to collect, analyze, and compare 
adequately.
                          suggested solutions
    Policy and program suggestions are offered by NDPC/N to many 
different groups throughout the year. Our approach in response to these 
requests is usually very prescriptive depending on the needs of the 
State, school district, or community group. However, the suggested 
solutions offered below reflect a much broader portrait appropriate for 
policymakers at different levels including several suggestions for 
program planners.
1. Build Accountability and Data-Driven Decision-Making Capacity
                          At the Federal Level
    <bullet> Continue to define and refine data sets to be collected 
and a uniform definition of dropout, graduation, etc.
    <bullet> Assist State Education Agencies (SEAs) to help them manage 
a more robust accountability system, which, in turn, should assist the 
Local Education Agencies (LEAs) to stay focused on accountability at 
the local level.
    <bullet> Develop a stronger support structure at the SEA level vs. 
LEA level, in order to provide for a knowledge base of predictive data 
and program interventions that is consistent and equitably applied.
                           At the State Level
    <bullet> Develop a statewide data management system that is 
mandated to be compatible at each LEA or school site.
    <bullet> Make use of the Dropout Early Warning System (DEWS) 
currently being piloted in three school districts in the State by the 
NDPC/N.
    <bullet> Examine the data and impact of State policies designed to 
reduce dropout. Some policies may actually be inadvertently pushing 
students out.
                           At the Local Level
    <bullet> Use longitudinal, student-level data to get an accurate 
read of graduation and dropout rates.
    <bullet> Use data to identify incoming students with histories of 
academic problems, truancy, behavioral problems, and retentions.
    <bullet> Review student-level data to identify students at risk of 
dropping out before key academic transitions.
    <bullet> Monitor students' sense of engagement and belonging in 
school.
    <bullet> Collect and document accurate information on student 
withdrawals.
2. Develop a Statewide, Systemic Dropout Prevention Plan
    <bullet> Consider the National Dropout Prevention Center's 15 
Effective Strategies for Dropout Prevention as a foundation for the 
development of a dropout prevention plan. For example, the Mississippi 
Department of Education developed a planning framework using the 15 
strategies and requires every local school district to assess current 
programs and develop new interventions in each of the strategies. Also, 
the Arizona Department of Education is using the 15 strategies as a 
framework to list the successful dropout prevention programs currently 
operating in local districts.
    <bullet> Utilize the components of the Dropout Prevention Practice 
Guide recently released by the Institute of Education Sciences in any 
statewide dropout prevention plan.
    <bullet> Provide incentives for the accomplishment of benchmarks, 
as well as technical assistance and resource support for low-performing 
LEAs and schools.
    <bullet> The Alaska Staff Development Network (ASDN) has partnered 
with NDPC/N and the Central Council of Tlingit and Haida Tribes of 
Alaska in a 3-year USDOE Alaska Native Education grant project designed 
to increase the high school graduation rate of Alaska Native students 
in Juneau, Ketchikan, and Sitka. The impact of this project should be 
examined closely for strategies that prove to be effective, with 
consideration being given for wider statewide implantation.
3. Avoid ``Fix It Fast'' Thinking and Funding at the State and Federal 
        Levels
    <bullet> Realize that the school dropout issue cannot be ``fixed'' 
with the passing of a single piece of legislation, or with a single 
project or program, or within a fixed time frame of usually 1 to 3 
years.
    <bullet> Consider a ``multiple-pathway'' approach to high school 
graduation that has the required components of rigor and relevancy, yet 
incorporates ``value-added assessment'' policies and practices--for 
instance, a wider variety of alternative schools and programs such as 
virtual learning opportunities, work-based programs, career academies, 
and early/middle college programs.
    <bullet> Provide funding for research and demonstration projects 
that are 5-7 years in length vs. 1-3, in order to allow for full 
program implementation and more accurate assessment of outcomes. It 
often takes a year or more to get necessary components of a grant in 
place before interventions are actually implemented at the local level.
    <bullet> Strengthen staff development opportunities and resources, 
particularly for remote areas of the State. The Alaska Staff 
Development Network headquartered in Juneau is a great resource already 
in place, and is considered by the NDPC/N to be one of the most 
effective state-level staff development programs in the Nation. Its 
impact is especially felt in the many remote areas of Alaska, where 
travel in and out for staff development purposes is problematic and 
economically challenging. The ASDN has served over 2,500 educators 
through its Web-based system, and just within the past year, 235 
Alaskan educators from 73 schools participated in eight 2-hour webinars 
sponsored by ASDN. ASDN also conducted statewide Dropout Prevention 
Symposia in Anchorage, Fairbanks, Juneau, and Kenai.
4. More Vigorously Address the Issue of Equity and Access for Native 
        Alaskans
    <bullet> The issue of dropout among Native Alaskans is admittedly 
complicated and fraught with historical precedence and highly charged 
emotions. As such, the solutions must be wide-ranging, creative, and 
respectful of differing cultural values and expectations. The sense of 
``hopelessness'' that is pervasive throughout the Native community is a 
result of real and perceived historic policies and practices, as well 
as the long-term impact of poverty. It appears that the Native 
community is looking for a stronger voice at the State and Federal 
levels to address the problems associated with school success.
    <bullet> The need for consistent and active relationships is 
particularly relevant to dropout among all student populations, and 
especially for the Native Alaskan student. Therefore, the following 
suggestions are worthy of endorsement and support as vital components 
in any Federal or State legislation.
        <bullet>  Assign a home-school liaison at every school.
        <bullet>  Assign Graduation Coaches for all secondary schools. 
        It should be noted that Fairbanks Northstar Borough School 
        District is funding a program to put Dropout Prevention 
        Specialists in all schools K-12.
        <bullet>  Implement a Career Counselor program that is based on 
        the new model of CTE that shifts the focus from requiring 
        students to choose either an academic pathway or a CTE pathway. 
        A CTE pathway is one in which students combine CTE course 
        taking with academic course taking within a CTE program of 
        study.
        <bullet>  Develop a strong ``Advisory'' program at all schools 
        that incorporates the involvement of parents and local support 
        agencies.
        <bullet>  Consider establishing ``full service centers'' at 
        local schools that essentially creates a ``one-stop'' center 
        for all Federal, State, and local services. An exemplary model 
        is a local initiative in Dayton, OH, entitled FAST FORWARD.
                                summary
    The dropout issue in America is at a crisis stage and requires the 
immediate attention of policymakers at all levels of government, not 
only to propose Federal or State legislation to address the issue, but 
to foster an environment for all facets of our society to realize just 
how serious the underperformance of our students--our future leaders--
is related to the economic competitiveness of the Nation. The good news 
is that the research-based information about effective strategies and 
program interventions available to policymakers and practitioners is 
sound and offers a great deal of promise and hope for State and local 
leaders to forge ahead with comprehensive plans to increase graduation 
rates. Also, all proposed Federal legislation must preserve the value 
of State leadership in the education systems yet provide for the 
creativity of local districts to develop sound and comprehensive 
dropout prevention programs that reflect the uniqueness of their 
students and communities served by the schools.
    Thus, all legislation must reflect a full range of strategies and 
programs addressing the issues ranging from school readiness of our 
children to the needs of our struggling students who elected to leave 
school before graduation and yet are willing to return for another 
opportunity to earn a diploma. Perhaps more than any other suggestion 
to end this testimony is that we must end the ``fix it, fund it, and 
forget it'' mentality and realize that the dropout issue is a long 
developmental process for most students. Yet, the dropout crisis can be 
corrected with a sustained effort at all governmental levels and with 
the total commitments from all school and community leaders working 
collaboratively.
                               References
Hammond, C., Linton, D., Smink, J., & Drew, S. (2007). Dropout Risk 
    Factors and Exemplary Programs: A Technical Report. National 
    Dropout Prevention Center. D. Linton: Communities In Schools, Inc. 
    May 2007. http://www.dropoutprevention
    .org/ndpcdefault.htm.
Heckman, J., & LaFontaine, P. (2007). The American High School 
    Graduation Rate: Trends and Levels. NBER Working Papers 13670, 
    National Bureau of Economic Research, Inc. Available from ftp://
    repec.iza.org/RePEc/Discussionpaper/dp3216.pdf
NDPC-SD. (2008). AN Analysis of State Performance Plan Data for 
    Indicator 2 (Dropout). A report prepared for the U.S. Department of 
    Education Office of Special Education Programs by the National 
    Dropout Prevention Center for Students with Disabilities.
Spellings, M. (October 2008). U.S. Secretary of Education Margaret 
    Spellings Announces Final Regulations to Strengthen No Child Left 
    Behind. Available from http://www.ed.gov.
Thurlow, M., Sinclair, M. F., & Johnson, D. R. (2002). Students With 
    Disabilities Who Drop Out of School--Implications for Policy and 
    Practice. Issue Brief, 1(2). Minneapolis, MN: University of 
    Minnesota, Institute on Community Integration. Retrieved from 
    www.ncset.org/publications/viewdesc.asp?id=425.
USDOE. (November 2004). Dropout Rates in the United States: 2001. 
    National Center for Educational Statistics, U.S. Department of 
    Education Institute of Education Sciences NCES 2005-046.
USDOE. (September 2008). Dropout and Completion Rates in the United 
    States: 2006. National Center for Education Statistics (NCES). NCES 
    2008053. Retrieved from http://nces.ed.gov/pubsearch/
    pubsinfo.asp?pubid=2008053.

    Senator Murkowski. Thank you, Dr. Smink. Appreciate your 
leadership on this issue and the time that you've given us this 
morning.
    With that, Commissioner LeDoux, I want to congratulate you 
on the summit that you had convened, these past 2 days. I 
understand there was good discussion and good outcomes, and 
we're pleased to be the Federal follow-on to that very 
successful summit.
    Your comments this morning? Welcome.

        STATEMENT OF LARRY LeDOUX, COMMISSIONER, ALASKA 
        DEPARTMENT OF EDUCATION AND EARLY DEVELOPMENT, 
                           JUNEAU, AK

    Mr. LeDoux. Thank you, Senator Murkowski and honored 
guests.
    Governor Palin made it very clear to me when I----
    Senator Murkowski. Can you push your microphone, just, your 
direction? There you go.
    Mr. LeDoux [continuing]. Thank you.
    Governor Palin made it very clear to me when I accepted 
this position that one of my chief responsibilities was to 
ensure that every child in Alaska would find success. The 
solutions to low graduation rates will come from the students 
themselves, their parents, the schools, and their communities. 
The answers will also come from looking at students' early 
childhoods and their entire school career. Students leave 
school as teenagers, but every educator will tell you they 
become disengaged from school much earlier in their lives.
    The greatest danger is believing that success is easy or 
can be solved by simple solutions that address one need. Kids 
fail to graduate based on a number of reasons, and the road to 
failure--and success--starts very early, usually before they 
enter school.
    In some cases, students leave school because they must earn 
money and take care of themselves or their siblings, or they 
become pregnant, or parents themselves, or they live with 
families that move a lot and their education has been 
fractured, or they have mental health problems, behavior 
problems, or learning disabilities that have not been fully 
addressed by their schools or their families.
    Some leave because the pace of learning in schools has not 
changed and the requirements of a modern society require that 
students graduate with rigor and flexibility and have many, 
many options.
    In an attempt to craft a broad initiative to increase the 
success of students and accountability for the use of 
resources, over 450 Alaskan leaders, parents, students, 
business and industry leaders, early childhood professionals, 
legislators, university professors, and executives from support 
agencies in our communities came together to build an Alaska 
education plan. It's the start of a beginning. It will continue 
through revision, refinement, and, most importantly, 
implementation.
    During 2 days of the summit, we defined 40 goals, with many 
actions on each goal, and we will be working, the next few 
months, to develop action plans to implement so that we can 
make change as early as possible.
    While there is much work to be done, some insights of this 
plan and our discussions can be shared today. I will go through 
them quickly. As you've heard before, graduation is an outcome 
of doing many things right. It's not just one thing, it's many. 
The reasons kids drop out, as you've heard, are not simple, and 
they're complex, and they must be responded to in a complex 
manner.
    There must be a coherent system of education support from 
birth to work. Early childhood programs, K-12 programs, public 
and private education or postsecondary programs, and workforce 
development must be a part of the solution.
    Early learning is critical. If kids do not enter school 
with the proper oral fluency and some of the social and 
behavioral skills to learn, they fall behind. We know that 
there's a direct correlation between a child's reading ability 
and their graduation from high school.
    Students must have the opportunity to explore their 
talents. Students must have access to quality educators. 
Students must be fully prepared to engage in postsecondary 
training and college and vocational careers.
    Alaska will need to help implement a comprehensive early--
these are some of the conclusions, since I have 1 minute.
    Senator Murkowski. We'll let you continue. We're not going 
to cut you off.
    Mr. LeDoux. OK, thank you.
    Attention to the importance of family and culture must be a 
foundation to any plan. Many of our students are failing 
because our instructional programs and our goals and objectives 
are not delivered in a manner that is consistent with our 
indigenous way of learning and thinking. We need to change 
that.
    Education technology must be integrated into the 
educational framework--not technology into education, but 
education into technology. Kids are learning in real time, and 
we're still teaching in seat time.
    School finances and support must be stabilized to 
facilitate effective management and educational programming. 
Students must feel socially and physically safe so that they 
can develop the confidence necessary to take risks in learning.
    Alaska's schools must develop effective partnerships to 
train students and provide the basis for increased learning 
opportunities.
    How can the Federal Government help us? We're going to need 
help developing a comprehensive early-learning environment for 
our kids. Alaska has unique geographical challenges. It's going 
to be expensive, it's going to be difficult, and we're going to 
need support to do that, but it's critical to the success of 
kids, that we implement an early education program.
    We're going to need funds to help restructure high schools. 
Basic needs will always trump innovation. Administrators, 
superintendents and principals have great ideas, and they know 
what to do, but they need support to provide innovative 
programs.
    The Alaska Native Equity Act has provided funds for Alaska 
Native organizations and schools to tremendously increase the 
success of students in Alaska. Those kinds of funds need to be 
available to all schools so that the innovative programs can be 
delivered. Right now, there's not enough money to implement 
those plans. Flexibility in NCLB regulations--NCLB helped us 
not leave children behind, but we need a flexible program that 
will meet the needs of our State. Currently, it does not.
    Finally, we need a career and technical education program 
in Alaska. The Federal Government used to be the leader in 
providing funds and support to develop career and technical 
education in Alaska and around the country. For the last 20 
years, they have not increased support in Carl Perkins, and it 
has become so complicated that many of our districts refuse to 
accept the money because the regulations are so extreme that 
they can't implement the program.
    Finally, again, I would say we congratulate you for all of 
your support, for postsecondary education, the support that you 
do give. We believe that, as our plan is implemented, we will 
meet the needs of all of our students and increase graduation.
    Thank you.
    [The prepared statement of Mr. LeDoux follows:]
                   Prepared Statement of Larry LeDoux
    Alaska graduates approximately two-thirds of its high school 
students. We graduate about half of our Alaska Native students, and 
about 40 percent of our students who experience disabilities.
    Those statistics do not mean that one-third of our students have 
dropped out. Among the non-graduates in any given year are students who 
will remain in school and eventually receive a diploma, or who have 
left high school for home school and must be counted as non-graduates, 
or who have completed their credits but have not passed all three 
portions of Alaska's exit exam. Furthermore, a small percentage of our 
students, about 1 percent, take an alternate assessment and are not on 
track for a diploma.
    Scholars can quibble about the best method to calculate graduation 
rates, but this is what it boils down to: Every year, several thousand 
Alaska students walk away from high school without a diploma.
    America is a place for second chances. If we want to encourage 
students to attain their diploma, we should not stigmatize them with 
the label ``dropout.'' There are many reasons students leave school 
without a diploma--in some cases, we might make the same decision if we 
were in their shoes--and our goal should be to assist these youths, not 
to judge them.
    In fact, some non-graduates will earn a GED certificate and go on 
to acquire a vocational certificate or a college degree. Other youths 
return to school and give it a second try. Whatever techniques we use 
to increase the graduation rate will be based on respecting students as 
individuals and as valued members of our society.
    Of course, many students who leave high school without a diploma do 
not attain further credentials. They are less likely to use their 
talents to the fullest, less likely to hold well-paying jobs, and more 
likely to need social services, more likely to be jailed, and more 
likely to have children who do not graduate from high school. The lost 
opportunities for themselves and our society are tremendous. This is 
particularly true in an economy in which adults have to be prepared to 
hold many jobs in their lifetime or to compete for jobs that can be 
filled globally.
    Alaska's low graduation rate is a very serious problem.
    We live in communities in which well-paying jobs, from nurses to 
police officers, go begging while talented young people are unemployed 
or underemployed because they did not attain their diploma. Where does 
this disconnect come from? Why aren't more of our students well-
prepared for employment, postsecondary training or college during their 
free public education?
    The solutions to low graduation rates will come from the students 
themselves, their parents, the schools, and the broader society. The 
answers also will come from looking at students' early childhoods and 
their entire school career. Students leave school as teenagers, but 
every educator will tell you they become disengaged from school much 
earlier in their lives.
    Broadly stated, we believe that more students will graduate:

    1. If their parents are involved in their education and provide a 
nurturing home life; children who have a strong connection to family 
values, customs and beliefs develop the confidence to ``reach for the 
stars'' and the talent to grab a star.
    2. If very young students are well-prepared to succeed at school;
    3. If high school courses interest students because they are 
relevant to their current lives, the needs of a world-competitive 
workforce, and their future plans;
    4. And if schools are geared toward removing any barriers that hold 
back students.

    More precisely, schools have seen greater success graduating 
students when they:

    <bullet> Increase academic rigor and expectations, and hold 
students accountable;
    <bullet> Focus on bringing every child to proficiency in reading by 
the end of third grade;
    <bullet> Identify and remediate academic or behavioral problems 
early in elementary school;
    <bullet> Improve academic rigor, learning experiences, and 
counseling in the middle grades;
    <bullet> Offer significant counseling time, graduation plans/
coaches, and career majors in high school so that students' time in 
high school is seen by them as useful to them;
    <bullet> Provide a broad-based leadership activity and athletic 
program that teaches risk-taking, teamwork, dedication, and other work-
related skills;
    <bullet> Offer sufficient remediation and credit-recovery options 
in high school so there is always another chance to do better;
    <bullet> Let some students enroll in college courses or ``early 
college high schools'' so advanced students aren't bored;
    <bullet> Pay more attention to high school freshmen so they don't 
fall behind in their credits;
    <bullet> Understand how to address the needs of students with 
disabilities, and develop and implement viable transition plans that 
facilitates skill development;
    <bullet> Make parents the partners in their children's education;
    <bullet> Assess students in ways that show teachers, parents and 
students their skill levels;
    <bullet> Are located in communities with widespread pre-school 
programs.

    Additionally, in Alaska, schools will graduate more students when 
they offer courses that are relevant to all cultures.
    Let me discuss the issues in greater detail.
    We do not have 21st century schools. We still define learning by 
the amount of time students spend in class, and we do not take into 
account the ways that youths learn in real time. Our schools must use 
technology to redefine how students learn and problem-solve.
    The successful schools in the 21st century will be defined by a new 
set of ``three R's'': the relationships they establish between 
educators, students, parents and communities; the relevance of school 
to students' lives and eventual careers; and academic rigor.
    We must look at more than K-12 education. Alaska needs a pre-
kindergarten-to-grade-20 commission to determine the learning needs of 
children from their early years into careers. Very young children who 
are not orally fluent have a hard time reading well by third grade, and 
they often never catch up. We need an educational path with seamless 
transitions between pre-school, K-12, and postsecondary training and 
college, all the way into careers. The success at the end of the system 
is determined at the beginning.
    When students grow up, they will need to be flexible in their 
careers and in life. But our schools are not flexible. To treat all 
students the same is to treat them inequitably. Twenty-first century 
schools must meet the needs of students or we will continue to lose 
them. Schools must wrap themselves around the needs of an individual 
child instead of expecting the children to wrap themselves around a 
single school.
    Commendably, No Child Left Behind has spurred higher achievement in 
reading, writing and math and a greater concern for all students. Many 
of our own suggestions above are based on the notion that students who 
are doing well academically are more likely to graduate. But in itself 
NCLB and improved academics are not the solution to the graduation 
crisis. NCLB is one facet of the diamond of success. First of all, 
principals will tell you that some students who leave without diplomas 
are proficient students. Many have passed Alaska's exit exam.
    Academic competence alone does not guarantee that students will 
stay through 12th grade. Some early leavers are bored, unstimulated 
intellectually by a system not perceived as relevant to their needs. We 
need to get them through high school quicker and into college or 
occupational training sooner in their lives. One promising option is 
early college high school, which offers students a 5-year program that 
results in a high school diploma and an associate's degree. Another 
valuable option for combating student disengagement, and one that has 
receded in recent years under budget pressures, is career and technical 
training, ranging from wood and auto shops and cooking courses to 
computer and health sciences courses. Career and technical programs 
that prepare students for jobs are critical.
    Unfortunately, Federal regulations for Carl Perkins vocational 
funds have become so burdensome and the grants so small that small 
Alaska school districts no longer apply for the grants. The grants 
literally cost more to administer than the dollar value of the grant. 
We are now seeing middle-sized school districts refraining from 
applying for vocational grants. We recommend more Federal funds for 
career and technical education with fewer strings attached.
    As schools concentrate on the NCLB-assessed subjects, there is less 
time for the arts, sciences, social studies and vocations. Schools must 
better understand how to embed reading, writing and math into a much 
richer curriculum based on the arts, sciences, social studies and 
vocations. More students will remain in school when we meet their 
individual needs. Such a school offers a broad range of activities, 
rigorous academic and vocational programs, and flexible learning 
options. Furthermore, students will be better able to succeed in jobs 
and college if they have learned more than what we assess for. They 
must be capable of creative, ethical and critical thinking, as well. 
Students have deeper needs than solving an algebra problem or writing a 
grammatically correct sentence.
    To further address students' individual needs, we must encourage 
the creation of alternate approaches, programs and schools for students 
who are at risk of not graduating. These students may be homeless, or 
be parents themselves and in need of jobs, or be far behind in credits. 
Precisely because these schools serve students who have not been 
successful, they generally do not have high graduation rates. Yet it is 
commendable that the students continue to plug away and that their 
district continues to serve them. Every student who graduates from 
these programs makes them worthwhile regardless of the programs' 
overall graduation rate. Even students who gain one or two more 
semesters but do not graduate are better off than if they did not 
return to school at all. NCLB expects all schools to meet the same 
targets for graduation rates or face specified mandatory consequences. 
These consequences may throw alternative schools into turmoil and not 
be in the best interest of the students. Alternative schools may need 
to be held accountable differently than regular schools.
    The curriculum in Alaska's schools should be rigorous and reflect 
the learning styles, value and meaning of Alaska's indigenous peoples. 
Native languages and cultures must be honored and included in the 
curriculum. The curriculum must be delivered in the context of a 
child's learning. Shared bottom-up decisionmaking must be nurtured so 
that school and community values reflect each other.
    Surveys of American Indians and Alaska Natives who left school 
early reveal the same concerns that many students have, but the 
cultural dissonance between the schools and the Native community may 
heighten these issues. Students spoke of not feeling that the teachers 
cared about them; not getting enough academic help; lack of parental 
encouragement; not seeing school as important for what they want to do 
in life; and not seeing school as important to their cultural identity.
    Schools need to find more ways for all parents to be meaningfully 
engaged in their children's education. When parents join with other 
community members and the school to determine behavioral expectations 
and learning goals, they become partners in the children's education. 
In Native villages, where the schools experience significant staff 
turnover, it is especially important to have community ownership of the 
schools.
    Some students leave school because they do not feel safe there. 
They may be harassed or subject to violence or the presence of illegal 
drugs. Students who feel a sense of belonging at school are more likely 
to graduate. It is the duty of schools to make every student safe and 
welcome. Unfortunately, violence exists apart from school, as well. 
Some students are distracted at school and perform poorly because they 
experience violence at home or in the community. Schools, families and 
communities have a role to play in a thorough effort to reduce fear and 
violence. It may be desirable to encourage the creation of regional 
boarding schools for some students who are homeless or who face 
violence at home.
    Some students start school already behind and never catch up. 
Children who participate in good-quality early-childhood programs have 
an edge over their peers in kindergarten and beyond. Alaska needs the 
widespread availability of early care and learning and of family 
support and parental education.
    In some cases students leave school because they must earn money 
and take care of themselves or their siblings; or they are pregnant or 
parents themselves; or they live with families that move a lot and 
their education has been fractured; or they have mental health 
problems, behavior problems or learning disabilities that have not been 
adequately treated, if at all. Schools will need to identify those 
issues as a matter of course and partner with social service agencies 
to alleviate them.
    The new NCLB regulations regarding graduation rates will not be 
helpful, although we hasten to point out that we do not argue against 
the urgency of the issue. Nor do we excuse the achievement gap that 
reveals itself in varying graduation rates among subgroups of students. 
One hundred percent graduation is our highest priority.
    We are concerned that the regulations may judge some or all schools 
by a strict 4-year graduation rate, which is likely to trim a few 
points off our graduation rates. States would need Federal approval to 
use other than a 4-year rate for accountability. We believe it is fair 
to give schools credit for all of their graduates regardless of how 
long it takes students to reach the goal. Education is not a race.
    The regulations will judge schools by the graduation rate for each 
subgroup of students, given a minimum number of students in the 
subgroup. Very few schools can meet even a 50 percent graduation rate 
for students with disabilities, for example. We do not believe the 
current graduation rates for all of our subgroups are good enough. But 
setting artificially high targets will not improve the graduation 
rates. Within a few years of the disaggregation provisions taking 
effect, nearly all sizable schools will be in restructuring status for 
the graduation rate alone. But the restructuring mandates of NCLB might 
not be the best remedy. Interventions should be thoughtful and based on 
specific data.
    We have sketched out above the sorts of solutions that will help. 
They are not easy or swift solutions. In summary, schools in the 21st 
century must be refashioned to serve the needs of their students, not 
only academic or career needs, but emotional and social needs.
                         technical information
    What follows is information about Alaska's graduation and dropout 
rates. Here are definitions necessary for understanding the data.
    A dropout is a student who was enrolled in the district sometime 
during the school year and whose enrollment terminated. Dropouts do not 
include graduates, transfers to public or private schools, or transfers 
to state-approved or district-
approved education programs (such as home-school correspondence 
programs). Students with absences due to suspension, illness or medical 
conditions are not reported as dropouts. Students who leave school to 
be home-schooled and are not affiliated with a district program are 
counted as dropouts. Students who leave a district and enroll in a new 
district but do not ask for a transcript from their original district 
are counted as dropouts.
    The dropout rate is an annual rate. It does not refer to a cohort 
of students. The dropout rate is computed by dividing the number of 
dropouts in the current school year by the number of students in grades 
7 through 12 on October 1 of the current school year. Note that the 
denominator includes all of the 7th-graders and 8th-graders, although 
few middle-school students drop out and become part of the numerator. 
The dropout rate for only grades 9 through 12, therefore, will be 
higher than the rate reported for grades 7 through 12. School year is 
defined as the 12-month period beginning on July 1 and ending June 30.
    From school year 2002-2003 to the current school year, Alaska used 
the same definition of the graduation rate. The numerator is the number 
of graduates receiving a regular diploma before June 30, regardless of 
how many years the student was enrolled. In other words, it is not a 
strict 4-year rate. It credits schools for all of their graduates.
    The denominator is the number of graduates, plus the number of 
dropouts in grade 9, 3 years before, plus the number of unduplicated 
dropouts in grade 10, 2 years before, plus the number of unduplicated 
dropouts in grade 11, 1 year before, plus the number of unduplicated 
dropouts in grade 12 in the current year, plus the number of grade 12 
students who are continuing in high school after the current year.
    Students who complete the credit requirements of the State and 
their district but who do not pass all three portions of the State exit 
exam are counted as if they were dropouts. Each year, approximately 250 
to 350 students are in that position. Some of them will eventually pass 
the exit exam and receive a regular diploma.
    The graduation data includes the phrase ``LEP students.'' It refers 
to students with limited English proficiency.
                                     Preliminary Graduation Rate by Subgroup
----------------------------------------------------------------------------------------------------------------
                                          2008       2008       2008      2008      2008                 2008
                                          High     Grade 12   Grade 12  Grade 11  Grade 10    2008    Graduation
              2007-2008                  School   Continuing                                 Grade 9   Rate  [In
                                       Graduates    Students  Dropouts  Dropouts  Dropouts  Dropouts   percent]
----------------------------------------------------------------------------------------------------------------
AK Native/Amer. Indian...............      1,508         464       351       281       278       284        47.6
Asian/Pacific Islander...............        568         111        63        59        29        37        65.5
Black................................        257          86        43        50        32        27        51.9
Hispanic.............................        386          68        60        35        20        27        64.8
Mixed Ethnicity......................        362         107        49        46        17       281        42.0
White................................      4,715         713       397       354       334         5        72.3
Students w/Disabilities..............        532         391       125       114       104        59        40.2
Students w/o Disabilities............      7,264        1158       838       711       604       602        65.0
LEP Students.........................        612         276       136       125        98        97        45.5
Economically Disadvantaged...........       1823         650       318       284       241       138        52.8
----------------------------------------------------------------------------------------------------------------

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                       2007-2008                                                      Enrollment Totals by Grade*                                  Dropout Rate by         Dropout Rate as a
-----------------------------------------------------------------------------------------------------------------------------------------------       Ethnicity           Percentage of Total
                                                                                                                                               ----------------------          Dropouts
                                                                                                                                                                     ---------------------------
                   Race/Ethnic Group                        7          8          9          10         11         12      Total 7-  7-12  [In   Dropouts   Dropouts                Dropouts  7-
                                                                                                                              12      percent]   Count 7-  7-12  [In    Dropouts       12  [In
                                                                                                                                                    12      percent]   Count 7-12     percent]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
AK Native/Amer. Indian................................      2,226      2,312      2,768      2,530      2,320      2,213     14,369       23.2      1,228        8.5         1,228          37.4
Asian/Pacific Islander................................        712        705        727        747        768        764      4,423        7.2        213        4.8           213           6.5
Black.................................................        364        348        400        373        419        390      2,294        3.7        162        7.1           162           4.9
Hispanic..............................................        541        526        591        562        510        536      3,266        5.3        179        5.5           179           5.5
Mixed Ethnicity.......................................        550        501        531        507        491        494      3,074        5.0        188        6.1           188           5.7
White.................................................      5,428      5,561      5,703      5,920      6,092      5,693     34,397       55.6      1,313        3.8         1,313          40.0
                                                       -----------------------------------------------------------------------------------------------------------------------------------------
  Statewide Totals....................................      9,821      9,953     10,720     10,639     10,600     10,090     61,823                 3,283        5.3         3,283
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


    Senator Murkowski. Thank you, Commissioner. I appreciate 
your comments.
    We will next go to the president of the University of 
Alaska, Mr. Mark Hamilton.
    Thank you, Mark.

 STATEMENT OF MARK HAMILTON, PRESIDENT, UNIVERSITY OF ALASKA, 
                         FAIRBANKS, AK

    Mr. Hamilton. Thank you, Senator Murkowski.
    I've tried to chop out everything that's already been said, 
so I'll flip through and see if I can add something good.
    First of all, let me just say this. Thank you so much for 
not sitting in Washington, DC, because, even as brilliant as 
you are, the chances of your deciding precisely what has to be 
done all by yourself is not possible. You know that, and that's 
why you're here, and I'm grateful that you've come to listen to 
us.
    Let me start with some good news. There's great news here 
in Alaska about lots of programs. This year, the University of 
Alaska attracted 63 percent of college-bound students. That's 
up from 44 percent, about 8 years ago. That's almost a 50-
percent increase. We're still dead last. Now, statistics that 
show where you are, are important. Statistics that show where 
you're going are important. I just shared that with you. It 
means we've got to try harder, we've got to work harder to get 
those youngsters there.
    Of course, when you're attracting high school graduates, 
you understand the pool that you're dealing with. At that stage 
of the game, it seems to me, and to the Board of Regents, for 
whom I work, that you'd better get involved in the pool, you'd 
better get involved very, very deeply and quickly, in doing 
everything you can to affect the continuum of education, which 
means that, as a university president, I've got to believe, 
sincerely believe, that if a 3rd-grader can't read or a 6th-
grader can't do math, it's my problem. It's my problem as an 
Alaskan, it's my problem as the university president.
    When I look at the high school graduation rates, you can't 
feel any tremendous pride, but I look, as well, at college 
graduation rates, and find we're not 8th from the bottom, we're 
absolutely last in baccalaureate graduates in 6 years. I'll be 
honest with you, when I hear that statistic, I want to be 
defensive and say,

          ``Wait a minute. Come on, we're an open-admission 
        institution, we allow anyone to come in. We are also 
        the community college in Alaska, so a huge percentage 
        of my young students have no intention of getting a 
        baccalaureate degree in 4 years, 6 years, 10 years, or 
        12 years.''

    OK. And after I get defensive, I say, ``The only thing that 
matters is the product.'' To have that work-ready product, to 
have that baccalaureate product, to have that certificate, to 
have that 2-year associate-degree product to go and work in the 
Alaskan workforce. While, frankly, being last doesn't concern 
me, not doing as much as we can for this State bothers me a 
great deal, and we will continue our efforts and diminish our 
defensiveness about something.
    Our very first testifier today did mention something I 
thought was terribly important. He talked about the need to do 
something quick, not necessarily for a short period of time. 
There was a story I told at the summit that I do dearly love, 
and I'm going to share it with you.
    Louis XIV, when he was designing the Garden of Versailles, 
looked out at the reflection pool, and said, ``I want this pool 
to be lined with 50-foot maples.'' And the gardener said, ``My 
Liege, that'll take 150 years.'' He said, ``Oh, in that case, 
plant them today.''
    [Laughter.]
    I encourage you to plant this today.
    It's strikingly obvious to all of us that the difficulties 
here begin very, very early. And in that regard, it seems to me 
the university's got to be involved very, very early.
    This is not a relay race, where K hands off to middle 
school, hands off to high school, hands off--it's more like a 
dogsled race. We have different leaders and different wheel-
dogs, but, at every stage of the journey, all of us have to be 
pulling in the same direction.
    There are some things that can be done. Money isn't the 
answer to everything, but it helps in a number of areas.
    Financial aid, in the reauthorization of the Higher 
Education Opportunity Act, we need to get that moving and have 
that available for Alaskans. Increases to Pell Grant. Maybe a 
more user-friendly FAFSA application. And very, very important, 
we have three other specific--very specified, thorough programs 
that need attention: Alaska Native Education Equity Act, the 
Alaska Native Serving Institution Program, and Future Teachers 
of America.
    Let me just give you another piece of--I said, outside at 
the press conference, that we're not helpless, we just need 
help. There has been, in the last 10 years, a 108-percent 
increase of Alaskan Natives receiving baccalaureates at the 
University of Alaska. I'm very proud of that, until I realize 
how much more there is to do.
    Let me close with a statement I find myself making in 
venues large and small, within the university and outside of 
it. Like so many Alaskans, I was not born here, but I will die 
here. I'm committed to this university, the State of Alaska, 
the people of Alaska, to make the education landscape better 
than when I got here. I do this for all of Alaska's children, 
including my own.
    Thank you.
    [The prepared statement of Mr. Hamilton follows:]
                  Prepared Statement of Mark Hamilton
    Senator Murkowski, guests, and distinguished leaders, thank you for 
your time and for the opportunity to testify before you today. As 
president of the University of Alaska, I am deeply concerned with the 
success of students at all educational levels--K-12 and postsecondary. 
In many ways the educational success of our students is a bell-weather 
for how well prepared the State of Alaska will be able to meet the 
economic challenges of the future.
    My purpose before you today is three-fold--one, to help define the 
problems associated with Alaska's high school and/or postsecondary 
drop-out rate; two, to suggest solutions; and three, to describe how 
the Federal Government can help.
                         defining the problems
    First, some good news: the University of Alaska now attracts 63 
percent of our State's college-bound high school graduates. This was 
unheard of a dozen years ago, when only 44 percent chose to stay inside 
Alaska for vocational and career training, community college or a 
university education. Back then, the majority of our college-bound high 
school graduates opted for schools ``Outside.'' That meant Alaska lost 
out on keeping its own talent while Alaska businesses had to import 
workers, driving up costs.
    The increase to 63 percent indicates we are moving in the right 
direction, however the important part of that metric is described by 
the words high school graduates. Realize that there is a cohort of 
students out there whom, for innumerable reasons, are not completing 
their secondary education. It is that cohort that we turn our 
collective attention to through this hearing and our future efforts. 
Let me be clear: we are not simply looking to produce more high school 
graduates to look better statistically, we should be producing more 
high school graduates because in doing so we set in motion a cascade of 
positive events that would go something like this:

    <bullet> Graduating from high school leads to;
    <bullet> Attendance in a postsecondary program in the State which 
leads to;
    <bullet> Working in the State;
    <bullet> This in turn helps the State meet its future workforce and 
economic challenges.

    This is a future we must commit to.
    But let's not deceive ourselves. The challenge before us is great. 
Nationally, we rank eighth from the bottom for high school graduation. 
Less than a third of those graduates continue to postsecondary 
education, here or elsewhere. It is from that small pool, that the 
University of Alaska draws the 63 percent.
    This must change. Alaska is not in danger of falling behind. We are 
behind and the distance we must make-up grows each day, month and year 
that we fail to act.
    As we look to the future, I can tell you the university is fully 
committed to increasing the retention of not only our own university 
students but to helping our colleagues in K12 find success in retaining 
their students as well. The commitment to work with K-12 on this, and 
other, issues is reinforced by the strong leadership of our Regents, 
three of whom have their teaching credential and a strong foundation in 
the K-12 system.
    K12 is not alone in their struggle to produce graduates. Alaska 
finds itself in the unenviable position of last place when it comes to 
producing baccalaureate graduates in 6 years. The next closest State, 
Nevada, is 16 percentage points above Alaska. No doubt we have our work 
cut out for us.
                               solutions
    Where to begin? Perhaps the question is not where but rather when 
to begin? To that I say, early, as early as possible.
    In Alaska and across the country we need to promote a culture that 
values learning--that continuous learning is a quality of life issue 
and not simply a means to an end. When we look at the students who are 
deficient in the skills necessary to succeed in K-12 it is strikingly 
obvious that the challenge began at an early age for many of them. The 
answer is not to delay their learning and put up additional humiliating 
hurdles in their academic memory, but to engage them at an earlier and 
earlier age when they are developmentally absorbing the educational 
tenets they can rely on and will need for future success. Reaching 
Alaska's youth early with productive enrichment opportunities will help 
these students enter education and be successful from grade school 
through high school graduation and consequently will help them to be 
successful in their postsecondary careers as well.
    Let me continue on this theme of culture. Our statistics indicate 
Alaska does not have a culture that fully values education. We don't 
even have a culture that values a high school diploma at the same level 
that other States enjoy.
    Perhaps this is because our past provided plentiful jobs in 
construction, oil, fishing, mining, timber and other blue-collar 
sectors. Those jobs are still out there, but many of them are changing. 
Technology used across all sectors requires more training, not less.
    A recent report for the Alaska Commission on Postsecondary 
Education (ACPE) offers five recommendations:

    <bullet> Create a statewide college-going culture;
    <bullet> Establish kindergarten through college partnerships;
    <bullet> Establish peer mentoring programs;
    <bullet> Build up financial aid awareness and opportunity; and
    <bullet> Focus attention on college access by creating a governor's 
K-16 council.

    The university supports the recommendations of ACPE. The 
university, in partnership with ACPE, starts its outreach efforts in 
second grade, with a colorful book called ``I Know I Can.'' In sixth 
grade, we send a fun poster to every child, noting what they have to do 
to be successful after high school. In ninth grade, we reinforce that 
message with a colorful brochure, packed with tips and advice. We've 
pumped up financial aid informational campaigns. We offer bridging 
programs, to rural youth especially. And we're now offering high 
schools e-transcripts, so their graduates can submit transcripts to the 
university campus of their choice online.
    Partnerships such as this are critical if we are to substantially 
change the college going culture in the State. There are great people 
at the State and within our UA system whose job involves partnerships 
with K-12, and the other State agencies such as DOL, Health, and EED. 
These partnerships have gone far beyond MOA's and a hand-shake and 
include:

    <bullet> Work on affordability (with the Alaska Commissions on 
Postsecondary Education);
    <bullet> The Alaska Mentor Project;
    <bullet> K12 Outreach (Alaska Teacher Placement, Future Teachers of 
Alaska, Preparing Indigenous Teachers and Administrations for Alaska 
Schools--called PITAAS); and
    <bullet> Alaska Workforce programs.

    We will continue to work and collaborate with all stakeholders who 
have a vested interest in helping students find success in their 
educational pathways.
    Together we must do a better job of adequately preparing our young 
people for college and work. We must encourage more of them to not only 
finish high school, but do very well in high school. They must reach 
beyond the ``exit exam,'' which is a floor, not a ceiling. At the 
university, we must do more to support our students who come to us, 
with better academic and financial aid counseling. To this let me add 
comments that my colleague Doug North, President at Alaska Pacific 
University sent me recently for his recommendations for improving High 
School Graduation and Post-Secondary success. Dr. North believes we 
must:

    <bullet> Reduce class sizes;
    <bullet> De-emphasize testing except as a diagnostic;
    <bullet> Emphasize stand-and-deliver forms of education;
    <bullet> Increase project-based and other creative teaching 
strategies to engage and enhances student curiosity and learning;
    <bullet> Reverse the ethic, especially among males, that it is not 
cool to be smart or achieve academically;
    <bullet> Increase both challenge and support of students; and
    <bullet> Measure school success in part by how many students want 
to, and love to, go to their schools.

    I agree with his points and would only add that his recommendation 
regarding reaching males is poignant and one that we all should be 
concerned with as the number of males that seek postsecondary education 
continues to decline in Alaska. Perhaps the tattered argument, ``not 
everybody's college material'' is partly to blame. I suggest let's get 
rid of that term. The term ``college'' means far more than 4-year 
degrees, especially in Alaska. A good portion of what the University of 
Alaska provides is vocational and career education, typical of a 
community college. These include 1- and 2-year programs, plus 
certificates that can be earned within months.
    We must make success in K12 and postsecondary a top priority for 
our State. The Nation's Secretary of Labor has predicted two-thirds of 
all new jobs in the next 10 years will require some level of training 
and education beyond high school, or considerable on-the-job training. 
Talk to employers. They're hard-pressed to find qualified people to 
hire from within our State.
    Finally, the university is so committed to our partnership and 
support of K12 we have made K12 Outreach our top budget priority for 
fiscal year 2010. Last year we requested funding from the State for 
some of these things we believe would positively impact student 
success, but didn't get it. That's hard to understand, when you know 
Alaska's rather alarming statistics. We're trying again this year.
How the Federal Government Can Help
    Just as I am convinced that earlier is key to reaching Alaska's 
youth, I am equally convinced that unfunded mandates are not effective. 
Unfunded mandates often force good people and even better programs to 
cease, as institutions reorganize around the mandate. What is needed is 
both sound policy and adequate funding.
    Senator Murkowski, I would like you and the Senate committee to 
look at establishing a program and funding stream through the No Child 
Left Behind Act--to encourage and assist postsecondary institutions 
across the country, to do what we are embarking on at the University of 
Alaska: reaching out and into the K-12 environment. The Federal 
Government can set the stage and promote the mindset that the issues 
with K-12, should be owned by every tier in the educational system.
    States with significant challenges in rural areas, low college 
attendance rates and low graduation rates could be targeted under such 
a Federal effort to ensure resources are steered toward those States 
that most need them. Activities such as partnerships with State 
Departments of Education, school districts, summer bridging programs, 
middle college programs, career awareness, special education teacher 
training and early testing, assessment and placement. The goal of such 
efforts would be to introduce more K12 students to postsecondary 
education and the value of a higher education. Such Federal support, if 
conducted on a national scale, could have tremendous benefits on both 
the retention of K12 students and the success of postsecondary students 
in States needing the most help.
    No discussion on what impacts the success of postsecondary students 
can go very far without mention of financial aid, specifically, needs-
based financial aid. The reauthorization of the Higher Education 
Opportunity Act holds much promise for students in Alaska and across 
the Nation. Increases to the PELL grant and a more user-friendly FAFSA 
application process should help a student's ability to afford an 
education. However, in Alaska, efforts at a State needs-based aid 
program have not been widely supported. The exception is ACPE's Alaska 
Advantage Grant--which is for the most part self-funded. Any effort our 
congressional delegation can apply toward helping the State develop and 
fund a needs-based aid program--or enhance and more adequately fund the 
ACPE Alaska Advantage Grant program--would help postsecondary students 
succeed.
    I would be remiss not to mention three other Federal programs that 
need continued funding in the future. Those are the Alaska Native 
Education Equity Act, the Alaska Native Serving Institution programs 
and Future Teachers of America.
    In closing, money alone will not ensure success. It will take 
commitment and action by concerned educators, parents, business and 
civic organizations. Perhaps most importantly our elected leaders must 
provide policy and funding that will enable success in all levels of 
education in this great State.
    Let me close with a statement I find myself making in venues large 
and small, within UA and outside of it: I was not born here--but I will 
die here. I am committed to this university, the State of Alaska and 
the people of Alaska to make the education landscape better than when I 
arrived here. I do this for all Alaska's children including my own.

    Senator Murkowski. Thank you, President Hamilton. I 
appreciate you pointing out that we do have some successes, 
but, even with those successes, we're starting down so low, so 
far, that it requires us to even work harder. But, we don't 
forget to celebrate those successes that we have, so I 
appreciate your comments.
    Dr. Shirley Holloway, thank you.

 STATEMENT OF SHIRLEY J. HOLLOWAY, PRESIDENT/CEO, AVANT-GARDE 
               LEARNING FOUNDATION, ANCHORAGE, AK

    Ms. Holloway. Thank you, Senator Murkowski.
    Really, it's a privilege to be here today. I'm going to 
keep this very brief, because you do have my written comments.
    I told these gentlemen to my right that I would just say 
``Ditto.'' I'm saying ``ditto'' to the fact that it's 
absolutely essential that we have an early learning system that 
supports families and parents long before the children come to 
our schoolhouses.
    I'm so glad that Abbe Hensley submitted her written 
testimony. The efforts that she is leading in this State are 
critical to our future success. It starts there.
    I hope that the Federal Government could be a partner in 
helping us to learn how to go about that in the best practices, 
because we're talking about how we support children early on, 
before they ever come to school, and families early on, so that 
they're prepared and eager and ready to learn when they come to 
that first kindergarten class. Hopefully we can have a 
preschool program in this State, like other States have, that 
really help prepare youngsters to be ready for school, and 
schools get ready for them. I want to emphasize that so much.
    The other thing, we have been supporting some research with 
ISER, and we have that ready. We called it ``Connecting a 
Disjointed System: A First Look at Aligning Education in 
Alaska.'' It's our first effort at looking at those transitions 
from home to school, from early K-3 to the intermediate level, 
and then from the intermediate level to middle school, and 
middle school to high school, and high school to work or 
postsecondary. The data is sketchy, but it's a first start. 
It's online at the ISER Web site. People can add data that they 
have.
    I have to tell you that one of the gems you have is that 
lady sitting next to you. She sends us research. She helps in 
so many ways. And I just want to say to Karen how much I 
appreciate her and what a jewel she is to all of us here in 
Alaska.
    Finally, I'd like us to take a look at what other States 
are doing, in terms of putting the system together. I'm not 
sure that a P-20 or a P-16 task-force commission is the answer. 
Other States have been doing it and looking at it, and I think 
that it's time for us to do that.
    We have to get out of the silos. That was the strength of 
the education conference, is that people were talking to other 
people. I heard one of the superintendents say that it was so 
refreshing to sit and talk to a medical person about some 
community issues, and get some new perspective. I'm thinking 
about, across many, many disciplines, coming together and 
looking at the whole system, from preschool, or birth, through 
whatever.
    Just to give you an idea, when we looked at this, the areas 
of mutual interest were really fun:
    Early learning and K-12: expanding access to early learning 
for all children; creating linkages between early learning and 
K-12; improving school readiness; promoting meaningful 
assessments; building relationships between families and 
schools.
    The early learning postsecondary areas of mutual interest: 
enhancing preparation and professional development of early 
learning professionals; researching and disseminating 
strategies for developmentally appropriate learning; creating 
finance models for systems with universal access.
    K-12/postsecondary areas of mutual interest: upgrading 
teacher preparation; professional development; aligning high 
school exit, college entrance, and course-placement exams; 
phasing out remedial education for recent high school 
graduates; improving college readiness and college success; 
recalibrating grades 11 through 14--the need for a different 
perspective on education for students late in their high school 
careers is being recognized; why not provide a variety of 
learning options, such as internships or apprenticeship 
programs or early enrollment in college, technical training and 
certificate programs; sharing academic performance data.
    Some of the States are doing some very exciting things. A 
good example is, in California, CSU has an early assessment 
program of juniors in high school, including 11th-grade testing 
prep opportunities for those kids who want to go on to college.
    Oregon has a P-20 finance model. The Oregon Business 
Council examined the State's P-20 budgets as if they were one 
document, and found areas of disparity in funding and areas 
where funding could be better coordinated to support students.
    In Indiana, Indiana's 21st Century Scholars Program targets 
low-income 8th-grade students who--they sign a pledge to earn a 
C average or higher throughout high school.
    These are just some ideas. I think it's time that we sit 
down, across those silos, across those systems, and that we 
align it so young people can see a pathway, can find out how 
they can get from where they are to where they want to be.
    I guess I would close with the idea that--I've given you 
several ideas in my written statement--but, we all need to work 
in conjunction with one another. The old reality of Alaska 
public education needs to make way for the new realities of the 
21st century. Clear communications and better articulation 
between educational partners, a clear set of high expectations 
for all, along with the necessary tools to help students reach 
those expectations, is what is required now.
    [The prepared statement of Ms. Holloway follows:]
               Prepared Statement of Shirley J. Holloway
    The Avant-Garde Learning Foundation is a nonprofit 501(C)(3) 
organization founded in January 2005 by Dr. Shirley J. Holloway. The 
foundation is dedicated to improving teaching and learning in Alaska, 
with a particular emphasis on rural Alaska. Avant-Garde is currently 
working in schools and communities in 11 Alaska districts including 
Aleutians East, Anchorage, Bristol Bay, Galena, Kenai, Kodiak, Lake and 
Peninsula, Lower Kuskokwim, Nome, North Slope and Northwest Arctic. The 
foundation, through Federal funding for the 2008-2009 school year is 
providing online learning tools through Skills Alaska that address 
diagnostic and remedial issues for students from elementary to high 
school. The foundation also provides an online student repatriation 
program for high school students to a small number of students through 
a program called Advanced Academics. In addition, Avant-Garde is 
working with five school districts to improve student performance in 
science and math through a relationship with the National Science 
Resource Center and the National Geographic's Jason Project. This 
particular professional development effort is funded by Shell Oil, as 
are several other Avant-Garde projects.
    From January to May of this year, Avant-Garde gathered 30 Alaskan 
educators and community leaders in a design team process that created a 
performance-based teacher education program primarily for Alaskan 
Natives living in rural Alaska. The design team was funded by Shell and 
in October Avant-Garde received funding for the first cohort of 
prospective teachers in the program. That cohort will begin its 
coursework in January 2009.
    Perhaps most pertinent to this committee's work is an Alignment 
Study commissioned by Avant-Garde and conducted by the Institute of 
Social and Economic Research (ISER) at the University of Alaska 
Anchorage. The purpose of the Alignment Study was to investigate how 
well integrated the expectations are between the K-12 education system 
and the postsecondary education system in Alaska. As an initial study, 
the current document raises many pertinent questions about how well 
connected the two systems are regarding course work, pedagogy, 
curricula and assessments. Perhaps the larger question is one of 
expectations, both of what is asked of high school students, as well as 
those asked of entering college freshmen.
    The Alignment Study points to several important areas that beg to 
be addressed, some of which need to be examined closely in order to 
better understand the scope of the problem. Overall, there appears to 
be a lack of alignment between home and early childhood education, 
between elementary and middle school, between middle school and high 
school and between high school and postsecondary. The study does 
suggest that the greatest alignment gap exists between high school and 
post-
secondary education. Sixty percent of Alaska's recent high school 
graduates take developmental classes in college. Seventy-six percent of 
recent Alaska Native high school graduates take developmental classes. 
These are courses designed for remediation in mathematics and English 
language skills, which leaves open the question as to why high school 
graduates are not already proficient in these areas. Why do so many of 
our graduates come unprepared for entry-level college coursework? What 
are the academic expectations of postsecondary institutions?
    Outside the purview of the Alignment Study lie the troubling number 
of high school dropouts and the relatively low graduation rate for 
Alaska's high school seniors. Even more troubling is the high number of 
Alaska Native dropouts and low percentage of high school graduates. For 
instance, the 2006 graduation rate for Alaska Natives from the 
Anchorage School District was 42.72 percent. The graduation rate slid 
to 31.63 percent in 2008. Thousands of Alaska's students do not 
complete their high school education or they do so through the GED, 
which is administered by the Alaska Department of Labor and for which 
good numbers are not readily available. Statewide for the 2007 school 
year, 3,434 students were officially listed as dropouts.
    The Alignment Study speaks to the efficacy of quality pre-school 
education. Research in the past few years has indicated that the most 
crucial time in life in terms of brain development and readiness to 
learn occurs in early childhood. Quality early childhood learning 
opportunities both at home and in a more formalized school setting have 
been shown to result in higher rates of high school graduation; higher 
rates of enrollment in postsecondary institutions; lower rates of grade 
retention; fewer special education placements; fewer number of 
dropouts, arrests, teenage pregnancies and welfare recipients; and 
higher employment rates as teens and young adults. Alaska is 1 of only 
12 States that currently is not funding early childhood learning 
programs for students before they enter kindergarten. Early childhood 
education in Alaska is defined as Head Start, private schools, and 
child care environments.
    Overall, the alignment question in Alaska needs to be directly 
addressed. The need for quality early childhood education with programs 
geared to the specific needs of those children is great. Well-trained 
and qualified early childhood teachers working in rich learning 
environments with world-class materials is a must. Studies clearly show 
that preparedness for entry into school is a key to later academic and 
career success. Student preparedness for postsecondary education is 
also critical. The data indicate an urgent need for better high school 
education with an emphasis on those skills necessary for college and 
career success. The Alaskan K-12 system and our postsecondary 
institutions must work together to create greater opportunities for our 
high school graduates. Too many of our young people are either dropping 
out of school or arriving at their next destination ill-prepared for 
the challenges they face. This is an academic emergency that will not 
solve itself. It will require a true investment in dollars, political 
will and intensification of effort on the part of parents, students, 
educators and policymakers.
    The Federal Government's role in taking steps toward addressing 
these needs should be one of providing financial and technical 
assistance to districts and schools in Alaska specifically toward 
creating quality pre-school learning environments and in helping 
districts and postsecondary institutions work more seamlessly together 
on issues of common interest concerning student achievement. Without 
Federal assistance and support, the State of Alaska will continue to 
struggle in its efforts to create and maintain an educational system 
second to none. Only through a concerted and purposeful partnership 
between all entities involved will these urgent issues be answered and 
the needs of our children be met.
    What follows is the first six pages of the Alignment Study 
conducted by ISER on behalf of the Avant-Garde Learning Foundation that 
speak to the issues already mentioned in greater detail.
    ``By alignment we mean integrating the expectations of one 
education system into the other and connecting course work, pedagogy, 
curricula, and assessments.'' (Venezia, Finney, Callan, Ch 3, Common 
Ground in Minding the Gap; Hoffman, Vargas, Venezia, Miller eds 2007)
    Too many Alaskan students leave formal education unprepared for 
their next steps. Too many drop out of high school; too few high school 
graduates go on to postsecondary education, and too few of those who 
enter postsecondary education graduate in a timely manner. Among young 
people who choose to enter the work world directly from high school (or 
after dropping out) employers report that many lack the reading, 
writing and math skills necessary, even at entry level, in many of 
today's careers.
    Alaska is not alone in these problems, and many States have begun 
to address these issues by looking at how students progress through the 
entire education system, from pre-school through college, graduate 
study, or career training. Ideally, the system should be aligned--as a 
child or young person completes each step, they are adequately prepared 
for the next. In practice, this is often not the case, as parents and 
students may receive inconsistent (or no) information on what knowledge 
and skills are needed to be ready for the next step, and to what extent 
the student has that knowledge and skills.
    This memo reviews the efforts and experiences of other States' 
alignment efforts and provides a first look at how these issues play 
out in Alaska. Our initial questions centered on Alaska high school 
students' readiness for college or work. We added a look at early 
childhood education and school readiness in response to the literature 
on the value of investment in early childhood education. Although 
alignment issues can and do arise within educational institutions--for 
example, whether middle schools prepare students to succeed in high 
school, or whether university general education requirements provide 
adequate grounding for major coursework--the challenges are greater 
between institutions. Early Childhood, K-12 and higher education 
institutions may have no systematic communication links, and may face 
incentives that at best ignore and at worst impede efforts to align 
course work, pedagogy, curricula, and assessments. Information in this 
memo focuses on two points where students cross into a new educational 
system: entry into school from home or pre-school, and the transition 
from high school to college or work.
                 research and other states' experience
    States across the United States have begun examining how they can 
align education from preschool through postsecondary. Their goals are 
to help young children begin school prepared to learn, increase high 
school graduation rates, smooth the transition between high school and 
higher education, reduce the number of students entering college who 
need remedial coursework, and increase the number of students 
graduating from college in a timely manner. States are also concerned 
with addressing U.S. economic needs as an increasing number of jobs in 
our global economy require skills and training beyond high school. 
Finally, States are concerned with the impacts on democracy of a 
citizenry that is not leaving high school prepared for the workforce or 
for higher education. This section reviews the relevant research and 
discusses these State efforts.
             early childhood education and school readiness
    The High/Scope Perry Preschool Study through Age 27 documents the 
costs and benefits of providing comprehensive quality early childhood 
education. Parks (2000) and the High Scope Educational Research 
Foundation (2008) summarize the findings, showing academic and social 
benefits of early childhood education that extend well beyond childhood 
into adulthood. Van de Water, G. & Rainwater, T. (n.d.) detail the 
economics:

        ``The High/Scope Perry Preschool studies show a return on 
        investment of $7.16 per $1 invested (longitudinal follow up 
        over a two-and-one-half decade shows a return of $88,433 on a 
        preschool investment of $12,356).''

    In 1996 Fulton found that students who participate in ECE have: (1) 
higher rates of high school graduation; (2) higher rates of enrollment 
in postsecondary institutions; (3) lower rates of grade retention; (4) 
fewer special education placements; (5) fewer numbers of dropouts, 
arrests, teenage pregnancies and welfare recipients; and (6) higher 
employment rates as teens and young adults.
    Shonkoff and Phillips (2000) also demonstrate the importance of 
entering school ready to learn in order for students to experience 
academic success later. These authors include findings from 
neurobiological, behavioral, and social sciences to show the importance 
of young children's early life experiences, beginning in the womb 
through entering kindergarten, in influencing their future academic and 
social outcomes.
    These authors state:

          ``It is the strong conviction of this committee that the 
        Nation has not capitalized sufficiently on the knowledge that 
        has been gained from nearly half a century of considerable 
        public investment in research on children from birth to age 
        5.''

    The authors conclude that ``what is left to discuss is not whether 
early childhood experiences influence children's futures but what to do 
about this fact.'' They make several recommendations to support early 
childhood development and later success in life:

    <bullet> Funding research on par with current funding devoted to 
math and language arts on helping young children develop curiosity, 
perseverance, cooperation, empathy, and other critical cognitive and 
social skills;
    <bullet> Fund early childhood initiatives that demonstrate promise 
in both raising academic achievement and in reducing the inequalities 
with which children begin kindergarten;
    <bullet> Investing in mental health needs of young children;
    <bullet> Creating more varied policy approaches for giving parents 
choice about and access to early childhood care options, including 
staying at home to raise their children;
    <bullet> Spend significant resources, on par with those spent to 
prevent crime, stop smoking, and reduce teenage pregnancy to address 
``detrimental environmental effects including toxins and violence in 
the home,'' among others;
    <bullet> Increase teacher qualification and compensation with early 
childhood funding; and
    <bullet> Comprehensively re-address Nation's policies regarding 
childcare and income support with specific goal of improving early 
childhood conditions.

    Thompson, Tullis, Franke, and Halfon, (2005) authored a document 
based on UCLA's work with the First Five Ventura County Strategic 
Planning, Funding, and Evaluation that is an evidence-based guide 
linking related early childhood strategies with successful school 
readiness outcomes. The document includes a comprehensive literature 
review. Strategies recommended include supporting parents in areas of 
mental health, breastfeeding, and parenting skills; and supporting 
children inside and outside the early childhood classroom.
    Burkham and Lee (2005) analyzed data from the U.S. Department of 
Education's Early Childhood Longitudinal Study, Kindergarten Cohort 
(ECLS-K). Their analysis examined young children's school readiness 
upon entering kindergarten. Their findings included a clear difference 
in kindergarten entry test scores SES: ``Before even entering 
kindergarten, the average cognitive scores of children in the highest 
SES group are 60 percent above the scores of the lowest SES group'' and 
that lower-SES children ``begin school at kindergarten in 
systematically lower-quality elementary schools than their more 
advantaged counterparts.'' They also found that race and ethnicity are 
linked to SES status. Burkham and Lee also concluded that, while the 
impacts of race and SES on cognitive skills are larger, that family 
structure and educational expectations are associated with SES, race/
ethnicity, and with test scores of young children. These authors also 
include in their report methods for reducing the inequality with which 
children start kindergarten, such as making center-based preschool 
programs before kindergarten available and reducing inequality of 
school resources.
    Echoing recommendations of other researchers, the Education 
Commission of the States ``(2008) recommends policies that focus on 
creating healthy environments (biological and societal) for brain 
development. These include focusing on improving environments for 
abused and neglected children and providing early intervention for 
children with developmental delays.''
         high school education and college and career readiness
    According to research, 90 percent of high school students today 
report wanting to attend college. But many of these students either are 
not graduating from high school or are graduating unprepared to begin 
college level coursework after being admitted into a postsecondary 
institution. Many students graduate from high school without a clear 
understanding of college academic readiness standards. Many States' 
high school exit exams end at 10th grade level work and do not reflect 
academic standards for college level placement courses, sending 
students a confusing message about college readiness.
    Callan, Finney, Kirst, Usdan, and Venezia (2006) report,

          ``The more difficult challenge for students is becoming 
        prepared academically for college coursework. Once students 
        enter college, about half of them learn that they are not 
        prepared for college-level courses. Forty percent of students 
        at 4-year institutions and 63 percent at 2-year colleges take 
        remedial education. Additionally, high school students face an 
        incredibly complex system of placement tests and college 
        admissions requirements. These authors report data from 
        Measuring Up 2004, the State-by-State report card on higher 
        education, showing that when students do reach college, a 
        significant problem is completing a degree in a timely 
        manner.''
      alignment as a necessary component of addressing challenges
    As States begin to address the problems above, their efforts must 
be comprehensive and must include collaboration between P-16/20 
entities. As Callan, Finey, Kirst, Usdan, and Venezia (2006) state,

          ``Reforms that focus either on K-12 schools or on colleges 
        and universities are likely to perpetuate some of the key 
        barriers to improving educational achievement for students.''

    These authors reviewed P-16/20 policies of four States and made the 
following recommendations for States considering alignment:

    <bullet> create a statewide student data system;
    <bullet> create accountability in the P-16/20 education system;
    <bullet> align coursework and assessments between high schools and 
postsecondary institutions;
    <bullet> create statewide finance systems for an aligned education 
system.

    According to Van de Water and Rainwater (n.d.), among the major 
goals of a 
P-16 system are:

    <bullet> Expanding access to early learning for children ages 3 to 
5, and improving their readiness for kindergarten.
    <bullet> Smoothing student transitions from one level of learning 
to the next.
    <bullet> Closing the achievement gap between white and minority 
student.
    <bullet> Upgrading teacher education and professional development.
    <bullet> Strengthening relationships between families and schools.
    <bullet> Creating a wider range of learning experiences and 
opportunities for students in the final 2 years of high school.
    <bullet> Improving college readiness and college success.

    Instead of separate committees addressing Pre-K, K-12, and HE 
issues, P-16/20 work creates opportunity for State legislatures to 
streamline policymaking and funding decisions for P-16/20. State K-12 
and HE Boards of Education as well as political and business leaders 
have opportunity to work collaboratively. States are finding it crucial 
that governors and other high level officials either initiate or fully 
support the State's P-16/20 efforts.
    Venezia (2006) cautions that,

          ``Convening a commission and holding cross-system discussions 
        may be helpful, but these steps alone will not create 
        meaningful K-16 reform. To be lasting and effective, the 
        deliberations must be anchored in policy and finance reform and 
        must reflect each State's culture and history.''

    P-16/20 researchers also point out the importance of these councils 
having specific tasks to keep them focused and moving forward and so 
they don't get mired in discussion without action.
    Building a P-16 System Recommendations from Van de Water, G. and 
Rainwater, T. (n.d.):

    <bullet> May begin with point of entry issue to focus and to avoid 
overwhelming (i.e. teacher prep).
    <bullet> Or work on legislation to address multiple issues at all 
three levels simultaneously.
    <bullet> Need team of governor, legislators, community members, 
business leaders.
    <bullet> Find areas of mutual interest across all levels (see next 
section).
    <bullet> Work to build seamless system of all three levels into 
one, building on these mutual areas of interest.

    What States are doing: (synthesis from articles on ECS Web site and 
on States' Web sites; see accompanying Excel spreadsheet for detailed 
state-by-state foci, goals, successes, and ``how it works'' )

    <bullet> P-16 or P-20 councils composed of State officials, 
business reps examining these issues.
    <bullet> Research to analyze issues.
    <bullet> Legal statements (mission statements, etc.) language 
revision around student learning and standards.
    <bullet> Student data gathering and tracking P-16/20 Teacher prep 
and cert programs evaluations and redesigns, including K-12 standards 
in curriculum.
    <bullet> Pay incentives for mentoring Pay incentives for National 
Board Certification.
    <bullet> Focusing on Early Childhood for K-12 school readiness.
    <bullet> Aligning HS grad requirements with higher education 
admission requirements, with a focus on preparing students for entry 
into college-level coursework, NOT remedial coursework.
    <bullet> Streamlining college admissions exams and requirements.

    Specific State Examples (see Excel spreadsheet for more information 
and more examples).

    <bullet> California.--CSU Early Assessment Program in CA for 
juniors in HS: includes 11th grade testing, prep opportunities for HS 
juniors, and PD for teachers; community colleges not on board so 
statewide impact will be limited because many HS students enroll in 
community colleges.
    <bullet> Oregon.--Oregon's P-20 Finance Model: The Oregon Business 
Council examined the State's P-20 budgets as if they were one document 
and found areas of disparity in funding and areas where funding could 
be better coordinated to support students. (For more info see Appendix 
in Callan, P., Finney, J., Kirst, M., Usdan, M. & Venezia, A. (2006). 
Claiming common ground: State policymaking for improving college 
readiness and success. National Center for Public Policy and Higher 
Education. San Jose, CA.)
    <bullet> Indiana.--Indiana's 21st Century Scholars Program targets 
low-income 8th grade students. Students who sign a pledge to earn a C 
average or higher throughout high school, to remain drug and alcohol 
free, and to enroll in an Indiana postsecondary institution within 2 
years of graduating high school will receive up to 100 percent of 
tuition costs for college.
    <bullet> Georgia.--Georgia's HOPE Scholarship Program promises paid 
college tuition to Georgia public postsecondary institutions to any 
student who maintains a B average or better throughout high school.
    <bullet> Several States (see Excel for specific info).--These 
States are creating small (typically not more than 400 students) early 
college high schools that provide academic guidance and paid tuition to 
high school students to complete their first 2 years of college 
coursework while still in high school and earning their high school 
diploma.
                    conclusions and recommendations
    In order to address these issues, we make the following 
recommendations and believe the Federal Government needs to be a 
partner in helping make them possible:

    1. Establish a voluntary system of early childhood education 
opportunities in Alaska. Too many of our children arrive at school 
unprepared to meet the challenges they face. The research is clear that 
quality early childhood education makes a distinguishable difference in 
future academic achievement, especially for those young people who come 
from economically disadvantaged homes.
    2. The Federal Government, working in conjunction with researchers, 
educators, parents and policymakers, should establish national 
standards for mathematics and language arts. Currently, each State 
establishes its own standards, devises its own assessments, and 
establishes its own ``cut'' scores for examinations, and they are 
inevitably at variance from State to State. A comprehensive set of 
standards would make it possible for mobile students to face the same 
expectations no matter where they are, and the crazy-quilt nature of 
state-by-state standards, which causes much needless confusion, would 
be replaced by comprehensible and uniform national standards.
    3. Extend standards into the first 2 years of postsecondary 
education. The need for greater alignment between P-12 and 
postsecondary could be addressed in part by a continuation of 
established standards in mathematics, language arts and science into 
college and university settings for the first 2 years.
    4. Create a P-20 task force or council that will ensure a seamless 
educational system that will support student achievement from early 
childhood through graduate school as well as early childhood through 
entering the workforce. The council must be structured and based on the 
cautions that we have leaned from other States that have initiated this 
journey, as stated by Venezia,

          ``Convening a commission and holding cross system discussions 
        may be helpful, but these steps alone will not create 
        meaningful K-16 reform. To be lasting and effective, the 
        deliberations must be anchored in policy and finance reform and 
        must reflect each States' culture and history.''

    One of the key elements made possible by such an alignment is a 
commitment to a new way to conduct teacher education. What is called 
for is a partnership between schools and higher education that will 
forge a stronger commitment to shared responsibility for curriculum, 
meeting standards and teacher preparation.

    Senator Murkowski. Thank you, Shirley. I appreciate your 
comments and your leadership within Avant-Garde and so many 
other areas.
    Next, we will turn to Mr. Carl Rose, Executive Director of 
the Alaska Association of School Boards.
    Welcome.

  STATEMENT OF CARL ROSE, EXECUTIVE DIRECTOR, ASSOCIATION OF 
                ALASKA SCHOOL BOARDS, JUNEAU, AK

    Mr. Rose. Thank you, Senator, and welcome home.
    I have sent in written testimony, and it appears that much 
of what we are going to share today is going to overlap, so I'm 
trying to keep my comments to just a few observations. I think 
I'm in agreement with much of what's being said.
    I think we can acknowledge that the dropout is not the root 
of the problem, it's simply a result of the process, as Dr. 
Smink had mentioned earlier.
    In Alaska, we need look no further than the 3rd-grade 
benchmark to identify young people who are testing at or beyond 
grade level to determine their ability to cope with an 
increasing complex curriculum. Those students who test below 
grade level are at risk, simply because they are not prepared 
to deal with an acceleration of curriculum. To put it another 
way, students at grade level will have the benefit of enjoying 
an educational system. Those who test below grade level will 
experience a remedial system, one that too often devalues their 
unique qualities and gifts, and replaces them with labels, 
negative reinforcement, and disapproval.
    One hears, with some frequency from our professionals in 
our schools, and they have stated, many times, ``You can 
identify kids coming to kindergarten who will not make it in 
school.'' I don't believe this, entirely; however, if there's a 
shred of truth to it, why would a teacher or a system not 
intervene with needed supports and assistance at the point of 
identification? Why would a system wait until the 3rd-grade 
benchmark to verify what we knew was possible as many as 3 
years earlier? Why would we, as Alaskan leaders and community 
members, not take action earlier to ensure that children enter 
school ready to learn?
    Sadly, by the time young people drop out of school, many 
have endured years of struggle, disappointment, and 
disengagement.
    When we move to the solutions, I think we mentioned 
earlier--Dr. Smink mentioned earlier, the need for 
collaboration, and, during our comments at the press 
availability--this is a shared responsibility. I think that we 
need to share the responsibility for successful development of 
our communities' young people. This is a community issue.
    I'm heartened to see an increased focus across growing 
numbers of disciplines on a strength-based approach to positive 
youth development. I appreciate the fact that you asked us to 
comment specifically on the Alaska Initiative for Community 
Engagement. Much of what we do, and much of what we find, is 
that we have quite a bit of influence during the time that we 
have kids in school. We can also have--when I say ``we,'' I 
mean our communities and our citizens--a tremendous influence 
on the environment in which our kids come from and go home to. 
It's really simple, in the fact that, for many of us, it had 
never occurred, of the small things that we can do in a young 
person's life that has a positive--a reinforcing effect on how 
young people feel about themselves and the challenges that they 
face.
    We put together a book, ``Helping Kids Succeed.'' You've 
seen this book. For many of us in Alaska, these books are in 
schools, doctors' offices, public clinics, parenting classes, 
in homes, airport waiting rooms, and businesses. They're all 
over the place. They simply point out what Alaskans have said 
they want for their kids, and how they might be engaged to make 
that a reality.
    From that book came the Initiative for Community 
Engagement. Community engagement is an intentional act or 
actions by groups and individuals, working together to create a 
healthy environment for supporting the growth and development 
of young people.
    This initiative has had a profound impact in many of our 
communities. The intent was not just to engage communities; the 
intent was to improve student achievement and engagement.
    What we've done at the association is, we've put together 
some efforts. One was the ``QS2,'' Quality School, Quality 
Students. Through this effort, what we tried to do was create 
an initiative that would go into a community, we'd talk about 
what the aspirations were in that community for their young 
people, and take advantage of the resources that they had 
available to take a look at issues of governance and leadership 
in aligning curriculum, to State standards, as well as 
identifying resources. But, we found out real quick that doing 
that in isolation in the school needed another component, so we 
included the Initiative for Community Engagement with this 
effort to address student achievement.
    It wasn't really a surprise; we thought that's what would 
happen. We find that, in our schools and in our communities, 
when they're working together and they understand the impact 
that they can have, students' academic improvement shows up. We 
have the facts.
    We are engaged right now with a survey that we use for 
School Climate and Connectedness. It's a survey that we put out 
in a number of schools across the State. It simply helps gauge 
how people feel about their schools. We're asking staff and 
we're asking students, ``Just exactly how do you feel about 
your schools? Do you feel like you're connected? Do you feel 
like people care about you, personally? Do you feel safe? '' 
What happens is, as a result of this survey, we find out, 
firsthand from students and staff in schools, how people feel 
about the school. By having this kind of data, we can see the 
kind of things that we can do very easily to improve that 
connectedness and climate. The data is coming back and showing 
us that there's a decrease in conduct problems, there's a 
decrease in emotional distress, there's improvement in 
attitude, improvement in social and emotional skills, 
improvement in school and classroom behavior. This is good 
news. These are the things that we do for ourselves, simply by 
being aware of our environment.
    As we move to Federal support and you ask what the Federal 
Government can do, these initiatives, like this Initiative for 
Community Engagement, we need to help people understand the 
tremendous influence they could have at the community level, 
and to be more collaborative in our approach. Schools appear to 
be--and it's been our experience--they're not very welcoming 
places for the general public, and specifically for parents. 
The reasons why are, many parents have had bad experiences in 
schools. We can intentionally change that. I think we are.
    As we get to the Federal Government, I don't think that the 
Federal Government can do some of these things, but I think it 
can support the efforts of the people who can. The three 
recommendations I'd have with you is to continue the long-term 
funding for the Alaska Native Education Equity Program included 
in No Child Left Behind. I think that this is a critical 
component, because, in many of our school districts that we 
work with, the lion's share of the population are Native, and 
the improvements that we're showing show that the Native 
populations in these school districts are achieving at a higher 
rate than the general populace that are not engaged in these 
programs. We've had that information, and we've made those 
things available to you every year. The 2007 report is out.
    The next issue would be to target intervention and support 
toward children most at risk of starting school behind. As I 
shared with you earlier, many of our young people who are 
coming to school, for an assortment of reasons, are not 
prepared to take advantage of this system that we've built. We 
have a wonderful system of education, K-12 through university. 
A tremendous investment has been made, and I think that an 
assumption has been made that, ``We will build this system and 
they will come.'' Unfortunately, many of our people, at very 
young ages and throughout the stages of their advancement 
through our school system, are not getting the benefit of what 
we had intended. So often our intentions and our behavior 
sometimes result in outcomes that were unintended.
    I think we need to focus on some of those things, and I 
think we need to focus early and often. If we can help, before 
kids come to school, with those people who are at risk; if we 
can reinforce, with early intervention, early, when issues are 
identified, with some support; if we can provide encouragement, 
both at home and in school, for kids to understand--I believe, 
if kids understood the statistics of what lay ahead of them if 
they partake, or if they do not--if they had that kind of 
information, I think it would affect their decisions.
    Last, I think you want to hold steadfast to the idea put 
forward by No Child Left Behind. I know it's difficult, but I 
don't believe that No Child Left Behind was put in place to 
sanction our schools; it was put in place because many of those 
subgroups--you're looking right into the eyes of our dropout 
problem. When you take a look at the issues of ethnicity, 
English-language proficiency, disability, and socioeconomics, 
the kids who fall in those categories are part of the problem, 
and they don't see a future for themselves.
    Before I go into my conclusion, I would ask that you give 
me a little bit of leeway. This is not something that comes 
easy for me, but I will share this with you. I was born and 
raised in Hawaii. I'm half Hawaiian, a quarter Chinese. The 
area that I grew up, in Kihei, was where migrant workers were, 
in the Filipino camps and the Chinese camps, in the sugar 
industry. The language we spoke there was pidgin English. It's 
a conglomeration of English, Hawaiian, Chinese, and Filipino. 
English proficiency was nonexistent for the people I grew up 
with.
    I am dyslexic. I have learned to decode, down through the 
years. I do have a disability. It was identified very early.
    I was a stutterer. There was a teacher who came to our 
schools and--an itinerant teacher, every Wednesday, and I was 
sent there in the afternoon.
    I came from a socially/economic-challenged family.
    I was in all four subgroups.
    I will share with you that I was a blue-chip athlete, and I 
was identified early; and therefore, they gave me the support I 
needed, and I was able to finish, not only elementary--I was 
sent away to Honolulu for my secondary schooling. I went 
through the service, went back and attended the University of 
Washington and got my degree and moved to Alaska.
    My point is not me. My point is that if there was support 
for one person, like me, who was a member of all four 
subgroups, we can do this for all of them. We ought to be. 
That's the point.
    You know, I don't single myself out to tell my story. This 
is the story of the subgroups. That's why No Child Left Behind 
is here, and we cannot retreat from those kids who need us 
most.
    With that, I think I'll close my testimony by simply saying 
we have partners across the State who are engaged in community 
engagement. This is long-term stuff. Some of the communities we 
go into, we have to start a very basic level of capacity-
building. Once they find out that it can have an impact on 
their kids and their futures, they're willing to go all-in to 
help.
    We have many, many success stories, and my intention here 
today was to share with you that there's great hope in Alaska. 
Thank you, President Hamilton, for bringing that up. But, I 
remind you that hope is not a strategy. We have to do some 
things, with all intent of making improvements. I think this is 
not our problem, as schools; it's our problem, as citizens of 
the State of Alaska.
    I want to thank you for this opportunity to share my 
thoughts. Thank you.
    [Applause.]
    [The prepared statement of Mr. Rose follows:]
                    Prepared Statement of Carl Rose
    Thank you, Senator Murkowski, for holding this field hearing and 
for this opportunity to provide written testimony to the Senate Health, 
Education, Labor, and Pensions Committee. I appreciate your bringing us 
together to focus on what we can and must do not only to reduce the 
number of dropouts, but to ensure that ALL our young people graduate 
with the skills, knowledge, and opportunity to succeed in the 21st 
century. There is nothing more important to Alaska's, and the Nation's, 
long-term success. I especially welcome your invitation to discuss 
AASB's Initiative for Community Engagement.
                              the problem
    We have all seen the statistics about dropout rates and the 
staggering costs to society when we fail, not only in dollars, but in 
human terms. A new study by The Education Trust indicates that today's 
high school students are less likely than their parents to graduate 
from high school.\1\ The United States is the only industrialized 
Nation where that is the case.
---------------------------------------------------------------------------
    \1\ The Education Trust, Counting on Graduation, 2008. http://
www2.edtrust.org/NR/rdonlyres/6CA84103-BB12-4754-8675-17B18A8582AC/0/
CountingonGraduation1008.pdf.
---------------------------------------------------------------------------
    Nationally, high school dropouts:

    <bullet> comprise 75 percent of State prison inmates \2\
---------------------------------------------------------------------------
    \2\ Education Commission of the States, ``The Progress of Education 
Reform 2007,'' July 2007, p. 2 quote from Alliance for Excellent 
Education, 2006.
---------------------------------------------------------------------------
    <bullet> comprise an overwhelming proportion of Medicaid recipients 
and a substantial proportion of welfare recipients \3\
---------------------------------------------------------------------------
    \3\ Ibid., p. 2 quote from Center for Benefit-Cost Studies, 
Teachers College, Columbia University, 2007.
---------------------------------------------------------------------------
    <bullet> are disproportionately minority, poor, come from 
fatherless homes, and have disabilities \4\
---------------------------------------------------------------------------
    \4\ Alaska Dept. of Education and Early Development, ``High School 
Dropouts: The Silent Epidemic,'' Dropout Prevention State Guidance Team 
Meeting, April 18, 2008.
---------------------------------------------------------------------------
    <bullet> made significantly less in wages in 2002 than in the early 
1970s (in constant 2002 dollars): males $35,087 (1971) and $23,903 
(2002); females $19,888 (1972) and $17,114 (2002) \5\
---------------------------------------------------------------------------
    \5\ Nelson, A. Closing the Gap: Keeping Students in School, 
Association for Supervision and Curriculum Development Infobrief, 
Summer 2006.
---------------------------------------------------------------------------
    <bullet> commit more crimes than graduates (one economist estimated 
increasing graduation rates by only 1 percent would produce 100,000 
fewer crimes per year, with an associated cost savings to society of 
$1.4 billion per year) \6\
---------------------------------------------------------------------------
    \6\ Moretti, E. ``Does education reduce participation in criminal 
activities? '' Paper presented at symposium on the social costs of an 
inadequate education, Teachers College, Columbia University, New York, 
NY, Sept. 2005 (See http://devweb.tc.columbia.edu/manager/symposium/
Files/74_Moretti_Symp.pdf).

    In Alaska, in the 2006-2007 school year \7\:
---------------------------------------------------------------------------
    \7\ Alaska Dept. of Education and Early Development, ``High School 
Dropouts: The Silent Epidemic,'' Dropout Prevention State Guidance Team 
Meeting, April 18, 2008, Alaska Dropout Numbers and Related Statistics.

    <bullet> 3,434 (5.5 percent) 7-12th grade students dropped out;
    <bullet> 1,299 (38 percent) were Alaska Native (25 percent of 
Alaska's school population is Alaska Native);
    <bullet> 1,274 (37 percent) were classified as ``economically 
disadvantaged'';
    <bullet> 1,850 (54 percent) were male; and
    <bullet> the graduation rate was 63 percent (70 percent 
nationally).

    But those are abstract numbers. In human terms, these are the young 
people who live in our homes, in our neighborhoods, in our communities; 
they are going to be parents of the next generation of Alaskans. Each 
child who doesn't reach his or her full potential is a tremendous loss 
to our State.
    What these dropout statistics reflect is that too many young people 
cannot envision a successful future for themselves when they consider 
their past experience in school and home environments; they can't see 
the immediate and future path to success. They fail to see viable 
options for themselves and get very little encouragement and support to 
pursue and complete their high school diploma.
    I think we can all acknowledge that dropping out is not the root 
problem. It is simply the end result of a process over time of students 
disengaging from school and often, but not always, failing academically 
and floundering socially and emotionally.
    In Alaska, we need look no further than the third grade benchmark 
to identify the young people who are testing at or beyond grade level 
to determine their ability to cope with an increasingly complex 
curriculum. Those students who test below grade level are at risk 
simply because they are not prepared for an accelerating curriculum. 
Put another way, students at grade level in the third grade will have 
the benefit of our educational system. Those who test below grade level 
will experience a remedial system, one that too often devalues their 
unique qualities and gifts, and replaces them with labels, negative 
reinforcement and disapproval.
    To address the dropout rates, we need to address school readiness 
and healthy development for the children who are most at risk:

    <bullet> Before entering kindergarten, the average cognitive scores 
of pre-school age children in the highest socioeconomic group are 60 
percent above average scores of children in the lowest socioeconomic 
group.
    <bullet> At age 4 years, children who live below the poverty line 
are 18 months below what is normal for their age group; by age 10 that 
gap is still present. For children living in the poorest families, the 
gap is even larger.
    <bullet> By the time children from middle-income families with 
well-educated parents are in third grade, they know about 12,000 words. 
Third grade children from low-income families with undereducated 
parents who don't talk to them very much have vocabularies of around 
4,000 words, one-third as many words as their middle-
income peers.\8\
---------------------------------------------------------------------------
    \8\ Quoted from other sources in: Klein, L. and Knitzer, J. 
``Promoting Effective Early Learning: What Every Policymaker and 
Educator Should Know,'' National Center for Children in Poverty, 
Columbia University, January, 2007. (www.nccp.org/publications/
pub_695.html).
---------------------------------------------------------------------------
    <bullet> Thirty-two percent of young children are affected by one 
risk factor (e.g., low income, low maternal education, or single-parent 
status), and 16 percent are in families with two or more socio-
demographic risks.\9\
---------------------------------------------------------------------------
    \9\ Raver, C. and Knitzer, J. ``Ready to Enter: What Research Tells 
Policymakers About Strategies to Promote Social and Emotional School 
Readiness Among Three- and Four-Year-Old Children,'' National Center 
for Children in Poverty, Columbia University, July 2002.

    One hears with some frequency that professionals in our schools 
have stated: ``You can identify the kids entering kindergarten who will 
not make it in school.'' I do not believe this entirely, however, if 
there is a shred of truth to it, why would that teacher and the system 
not intervene with needed supports and assistance at the point of 
identification? Why would a system wait until the third grade benchmark 
to verify what we knew was a possibility as many as 3 years earlier? 
Why would we, as Alaskan leaders and community members, not take action 
earlier to ensure that all children enter school ready to learn?
    Sadly, by the time young people drop out of school, many have 
endured years of struggle, disappointment, and disengagement.
                             the solutions
    The solutions mostly lie way upstream from the final step of 
leaving school. And they must involve all of us--students, families, 
educators, schools, school boards, businesses, community organizations, 
health and social service providers, public policymakers, and everyone 
of us--each of us has both an individual role and a professional role 
to play. WE need to take a shared responsibility for the successful 
development of our community's young people . . . there is no THEY to 
whom we can point as being responsible. It has to be WE, and it has to 
involve changing how our institutions work together, how our 
communities support young people, and how each of us behaves in our 
daily lives as community members, parents, and role models.
    It will take institutional and individual action to change the 
environment for our young people into one where they are and feel 
supported, where they feel valued and respected, where some young 
children don't start school behind their peers.
    I think we know what the solutions are. We know they need to 
include the continuum from early childhood to post-graduate; families, 
schools and communities; education, health, social services and 
workforce development.
    Each of us whom you have invited here today has a responsibility 
for a particular part of this continuum, and if we align our efforts, 
we will all see greater impact on the success of our young people.
    I believe we need to focus our efforts all along this continuum--
not just on preventing problems, but more on providing the skills, 
knowledge, supports and opportunities that our kids need to succeed. As 
Karen Pitman of the Forum for Youth Investment says: ``Problem-free is 
not fully prepared, and fully prepared is not fully engaged.''
    Our goal must be fully engaged and fully prepared youth who can 
thrive in our fluid 21st century environment. Our goal should be broad 
and holistic; it goes beyond passing benchmark tests, or avoiding risk 
behaviors. It must be the healthy development of each and every young 
person so they have the academic and workforce skills, and the healthy 
life skills needed to succeed and thrive. And this means we must have 
high expectations for all our young people, and we must enlist entire 
communities in support of them.
    I am heartened to see an increased focus across a growing number of 
disciplines on a strength-based approach to positive youth development. 
It is what lies at the foundation of AASB's Initiative for Community 
Engagement, or Alaska ICE.
                        engaging our communities
    I know you have seen this little book, Helping Kids Succeed--
Alaskan Style, and you will find it all over Alaska . . . in schools, 
in doctors' offices and public health clinics, in parenting classes, in 
homes, in airport waiting rooms, in businesses. It was literally 
created in 1998 ``by and for Alaskans'' through a series of community 
visits, where everyday Alaskans described what they wanted for their 
kids, and they very eloquently described what kids need from adults in 
order to succeed. These can be called ``assets'' or protective factors, 
resiliency, traditional Native values . . . they have many names but 
the principles are the same. How are assets built in children and 
youth? Through positive relationships with caring adults. What kids 
need is the time, attention, respect, encouragement, support, and high 
expectations of the adults around them in their families, their 
schools, and their communities.
    Born out of this little book was a far-reaching initiative that set 
out to change the environment for Alaska's young people, and to enlist 
all Alaskans in building healthy communities that provide what kids 
need to succeed. Alaska ICE is a statewide initiative of AASB that 
encourages and supports youth success through a statewide network of 
partners and local community initiatives. Federal support of this 
initiative through the Alaska Native Education Program in No Child Left 
Behind has enabled us to work with school districts, communities, 
organizations, and individuals throughout the State to promote the 
shared responsibility that each and every one of us has to help kids 
succeed.

    Community engagement is the intentional action of groups and 
individuals working together to create healthy environments that 
support the growth and education of children and youth.

    Our Alaska ICE initiative has many strands and facets; I will 
provide you with a copy of our 2007 Progress Report that reflects how 
those many partnerships and collaborations create a web of support for 
Alaska's young people. Community engagement will look a little 
different in every community as people and organizations tailor it to 
their priorities and goals.
    A few snapshots from Alaska ICE's community partners, made possible 
because of our funding support through NCLB's Alaska Native Education 
Program, show how the simple principles of asset-building, healthy and 
supportive youth-adult relationships, and intentional community 
engagement can flourish in every community.

    <bullet> Parenting classes in Yup'ik and English in Lower Kuskokwim 
School District, through a partnership with the tribe.
    <bullet> Community-school art projects that build supportive youth-
adult and school-community partnerships in Yukon Flats villages.
    <bullet> Weekly asset messages developed by youth and adults and 
delivered in English and Russian by teens over the community radio 
station in Delta, and youth-adult community choir and theatre 
productions.
    <bullet> Student-produced TV shows addressing substance abuse 
issues in Unalaska, and targeted efforts to improve school and 
community climate.
    <bullet> Schools that are more welcoming to parents and community 
members in the Pribilofs, and collaborative school, tribe and community 
efforts to build culturally responsive social and emotional learning 
skills and positive peer climate among students.

    As part of our overall efforts to effectively engage adults in 
positively supporting young people in Alaska's communities, we also put 
significant focus on improving the school environment by helping 
schools apply these same principles. Today I want to focus in on 
creating school environments where all children can succeed.
                   student achievement and engagement
    Over the last 5 years, AASB has aligned our school improvement 
initiative (Quality Schools/Quality Students, or QS2) and our community 
engagement initiative (Alaska ICE). Begun as separate initiatives, it 
became apparent that to make the greatest impact on academic 
achievement, we needed to target both efforts towards assisting school 
districts and communities in improving supports for youth in both 
environments.
    Through QS2, we assist school districts in improving their 
leadership and governance capacity, aligning their curricula with State 
standards, and targeting resources effectively towards identified 
priorities. Through Alaska ICE, we engage individuals, families, 
schools, organizations, businesses, faith communities, and young people 
themselves in building sustainable community networks to support, 
encourage, and provide meaningful opportunities to our young people 
that will prepare them to thrive in the 21st century.
    When young people feel connected to school and have support from 
family, teachers, and other caring adults, academic achievement 
improves and risk behaviors decrease.\10\ When students have strong 
social-emotional learning skills,\11\ they do better in school and 
life. There is a growing body of national research to support this, and 
we now have data to show this in Alaska. AASB has developed a student 
and staff survey to gauge student and staff perceptions of climate and 
connectedness, and an increasing number of schools are participating, 
including 242 schools in 33 districts in 2008, comprising over 30,000 
students and almost 5,000 staff.
---------------------------------------------------------------------------
    \10\ This national research cuts across various disciplines, 
including education, psychology, public health, behavioral health, 
juvenile justice, neuroscience, etc. (Blum, The Case for School 
Connectedness, Educational Leadership, April 2005; Freudenberg & 
Ruglis, Reframing School Dropout as a Public Health Issue, Centers for 
Disease Control and Prevention, Oct. 2007; Wilkenfeld, Moore and 
Lippman, Neighborhood Support and Children's Connectedness, Child 
Trends Fact Sheet, Feb. 2008.&
    \11\ Wand, Haertel, and Walberg found that social and emotional 
factors were among the most influential factors on student learning, 
based on evidence from 561 educational researchers and 91 meta-analyses 
(1997).
---------------------------------------------------------------------------
    Districts that have worked with AASB on community engagement and 
school improvement have shown:

    <bullet> greater academic achievement as measured by Standards 
Based Assessment (SBA) proficiency gains than the statewide average;
    <bullet> even greater proficiency gains by Native students in those 
districts, and greater gains than Native students statewide;
    <bullet> persistent improvements in student ratings for school 
climate and student connectedness over the last 3 years across all 
aspects of climate and connectedness; and
    <bullet> improved overall staff ratings of school climate across 
most subscales.

    Other key findings of AASB's School Climate and Connectedness 
Survey include:

    <bullet> Key factors of school climate and connectedness are 
related to student performance on Alaska's SBAs: high expectations, 
school safety, parent and community involvement, and social-emotional 
learning were found to have significant positive relationships with 
scores on reading, writing and mathematics.
    <bullet> Staff ratings for school climate were consistently and 
strongly related to student performance in reading, writing and 
mathematics' SBAs.
    <bullet> There have been significant negative relationships between 
student risk behaviors and school climate and connectedness ratings 
each year: the more students reported that there was a positive climate 
at their school and that they felt connected to school, the lower the 
number of incidents of delinquent behavior and drug and alcohol use 
they reported seeing among peers at school or school events.
    <bullet> Students who reported that they had someone available 
outside of school to help them with homework and students who had an 
adult who knew what they did with their free time gave consistently 
higher ratings for connectedness to school and more favorable ratings 
of their school climate than did students without outside support and 
supervision.

    As more districts participate in the survey and use the results to 
improve school climate and increase student connectedness, we are 
seeing growing interest in the area of social and emotional learning, 
and how schools, after-school programs, and families can work together 
to promote social and emotional development. A 2008 meta-analysis of 
over 700 studies of family, school and community interventions found a 
broad range of benefits for students \12\:
---------------------------------------------------------------------------
    \12\ Collaborative for Academic, Social and Emotional Learning 
Research Brief: Social and Emotional Learning (SEL) and Student 
Benefits: Implications for the Safe Schools/Healthy Students Core 
Elements, 2008.

    <bullet> 9 percent decrease in conduct problems (e.g., classroom 
misbehavior, aggression);
    <bullet> 10 percent decrease in emotional distress (e.g., anxiety, 
depression);
    <bullet> 9 percent improvement in attitudes about self, others, and 
school;
    <bullet> 23 percent improvement in social and emotional skills;
    <bullet> 9 percent improvement in school and classroom behavior; 
and
    <bullet> 11 percent improvement in achievement test scores.

    A growing number of Alaska school districts are focusing on 
improving students' social and emotional learning as an effective way 
to improve student success. The Anchorage School District is viewed as 
being at the leading edge of this national effort, and AASB is 
assisting a number of other Alaska districts.
                            federal support
    It is clear that lowering high school dropout rates is necessary, 
and that it will only be accomplished if we align our various efforts 
to support children and families more effectively. We need to actively 
enlist families, schools and our communities to ensure that some 
children don't start out behind, and that if they do, we have effective 
ways to very quickly close that early gap so they can all get the 
benefit of our education system. We need to ensure our schools offer 
engaging, rigorous, and relevant curricula, provide safe, caring 
environments where students feel connected, have high expectations for 
all students, and provide the appropriate supports that will enable 
students to meet those expectations. We need to make sure that our 
communities provide a positive environment where young people feel 
valued and have meaningful opportunities for involvement.
    Through initiatives like Alaska ICE we need to help people 
understand the important role we each can play in our homes, in our 
neighborhoods, in our schools, in our businesses, in our communities. 
We need to encourage adults to feel and then act on a shared 
responsibility for creating the kind of supportive environment that 
young people need. Every one of us has opportunities in our daily lives 
to interact with young people, and what both common sense and research 
tell us is that the cumulative impact of those small interactions is 
profound. We can each decide to be intentional in those interactions, 
and use them to engage positively with kids, to be interested in them 
and what they think, and to give them opportunities to be a valuable 
part of our communities.
    The Federal Government can't do these things. But there are many 
ways that it can support the people who can do these things:

    <bullet> Continue long-term funding for the Alaska Native Education 
Equity Program in NCLB. AASB's Alaska Initiative for Community 
Engagement is an example of how Federal funding can be used effectively 
to spark the initiative and capacity in each of our communities to 
actively work together to better support young people. The Alaska 
Native Education Equity funding targets Alaska Native student 
achievement, dropout reduction, and school readiness. There is 
improvement, but significant disparities persist.
    <bullet> Target early intervention and support towards the children 
most at risk of starting school behind. This should include 
intentional, sustained strategies (statewide, district-wide, and 
community-wide) that start at an early age, include families, and 
continue into preschool and early elementary school. When we do that in 
an intentional and coordinated way, we will vastly simplify the other 
steps we can and should take to improve schools to meet the needs of 
older students.
    <bullet> Hold steadfastly to the ideal put forward in NCLB that all 
children should get the best education we can give them. As we go 
forward with improvements in NCLB, we should retain accountability for 
all the subgroups that we know are lagging behind. If we focus our 
attention on supporting these children, and preparing all children for 
school, we will address the root causes of the dropout problem.
                               conclusion
    AASB is working with partners across Alaska to change the 
environment in which children and youth live. Engaging individuals, 
organizations and communities is long-term work and sometimes requires 
starting at a basic level of capacity-building. The great thing is that 
when people understand how their personal, everyday actions, however 
small, can positively impact a young person, they are very willing to 
do it over the long term. And those small actions, repeated across the 
State, will help build healthy communities and in turn healthy young 
people.
    We know a lot about what we need to do. We need to gather the 
collective will and commitment to do it before another generation of 
our children drift off to underachieving lives.
    Senator Murkowski, thank you for your time. I know I am preaching 
to the choir here. I want to thank you for your strong and sustained 
support for Alaska's children, for education, and for our community 
engagement initiative. I invite you to call on me and the Association 
of Alaska School Boards to assist in this effort in whatever way would 
be helpful.
    For more information about the Association of Alaska School Boards' 
Initiative for Community Engagement (Alaska ICE), visit: 
www.alaskaice.org.

    Senator Murkowski. Well, I thank you. I thank you for your 
thoughts and for your personal story. I think you're absolutely 
right; if we can provide for a person, as you have identified, 
in all of these categories, where--you know, the odds were 
against you, and--look at where you are today, serving us. We 
appreciate it.
    Next, we'll hear from Elizabeth Winkler, who is also here 
today to share her personal story.
    Elizabeth, we thank you for being here with us this 
morning.

 STATEMENT OF ELIZABETH WINKLER, FINANCE ASSISTANT, NINE STAR 
              EDUCATION AND EMPLOYMENT SERVICES, 
                         ANCHORAGE, AK

    Ms. Winkler. Thank you, Senator Murkowski, for allowing me 
to have the opportunity to speak on behalf of those that are in 
similar situations as myself.
    I see many high school dropouts walk through Nine Star's 
door. They're trying to do what I've done: complete their high 
school education and attempt to move on to bigger and better 
things. What I mean by that is, they want to get a better-
paying job and/or further their education.
    There are many barriers that youth have to endure while 
they're finishing school. One major barrier is peer pressure. 
Youth are easily distracted by their peers. Youth are also 
going through puberty, which causes a lot of confusion; and 
then, youth have a lot of built-up emotions because of their 
confusion. Youth make bad choices because of these pressures 
and distractions. These barriers ultimately affect youths' 
education.
    I know, because I've experienced this. As soon as I got 
into middle school, I started to experience peer pressure. My 
friends were way more important than my education. I also had a 
lot of built-up anger because of the way my life was going. I 
let this anger out through the bad choices that I made.
    I made it to high school on time and had an even more 
difficult time. I truly didn't care about the world around me, 
and I allowed the barriers in my life to affect me to a point 
where I couldn't focus on my education. I gave up. Six days 
before 10th grade ended, I decided to drop out of school. I 
told my mom exactly what was going on, and she supported my 
decision.
    The 2 years that followed, I got into a correspondence 
school that I did fairly well in. The school got shut down, due 
to funding reasons, so I had to find another correspondence 
school. I did. It was an online school, but that didn't work 
for me, either. I told my mother that I wanted to get my GED 
and move on to college. Once again, she supported my decision. 
I just wanted to finish my high school education so that I can 
move on to college and make something of myself.
    In 2005, I finished all of my GED tests within a month and 
a half, and received my diploma that December. For me, it was 
one of the greatest achievements in my life. Now it was time to 
move on to college.
    Excuse me, this is a bit emotional for me.
    I started taking classes at the University of Anchorage in 
2006, and finished my first semester of my freshman year. I 
started classes in my second semester, and, within a month's 
time, withdrew from my classes because of life situations that 
took an emotional toll on me. My nephew passed away, January 3, 
2007, and, after his death, I was depressed. On March 14, 2007, 
I found out that I was pregnant. I stayed out of school because 
I didn't want to go through any more hardships. I was also put 
on financial suspension.
    In January 2008, I started going to an online school, the 
University of Phoenix. I was doing extremely well with my 
classes; however, in May 2008, I found out I was pregnant again 
and started doing poorly in classes. Eventually, I got dropped 
from one of the classes and failed two others. After the 
classes ended, I received my grades, and the school told me 
that I could not attend the college again until I dealt with my 
financial suspension.
    I paid UAA the money that was due to them, and I am in the 
process of paying University of Phoenix. I'm also working on 
getting back into UAA.
    It's my goal to stay in college and work on my degrees that 
I want to obtain so that I can better my and my family's 
situation.
    The barriers that I will have while I'm going to school 
include finding childcare for the time that I'm in school and 
being able to keep focused so that I can do really well in my 
classes.
    I want to become successful in life, and that means having 
a college education and being able to offer the world more than 
what the next person can, and that's knowledge and wisdom that 
I hold because of my personal life experiences and college 
education.
    I'm not a perfect person and accept the fact that some of 
my strengths need to be developed further. I'm a very detailed 
and organized person; for the most part, I'm always on time. I 
am patient and willing to wait for someone, if needed. I'm an 
understanding person, always willing to provide words of 
encouragement. If I do not understand something, then I will 
inquire about what's at hand. I'm a good communicator. I'm also 
down-to-earth. I'm known for my integrity.
    I'm also a stubborn, hard-headed, and persistent person.
    That means that I learn life the hard way. No matter how 
difficult these life experiences have been, I have the strength 
to always walk forward in life and take the experience as a 
hard lesson learned. An experience that is understood can 
empower one to change, and, in return, that experience will 
provide wisdom and knowledge. Such an experience was my 
extended effort to earn my GED diploma. Such an experience was 
my initial work in finance as a trainee. Some things seemed 
clear to me from the start, some things I had to repeat many 
times in order for me to understand some of the reasons of the 
how and why of the way these things were done. Such an 
opportunity--such an experience was assuming site management 
responsibilities from my company. Such a thing was my 
occasional supervision of other company staff. My greatest 
lessons have come in caring for my child, whose importance to 
me is beyond measure.
    Thank you.
    [The prepared statement of Ms. Winkler follows:]
                Prepared Statement of Elizabeth Winkler
    I see many high school dropouts walk through Nine Star's door. 
They're trying to do what I've done--complete their high school 
education and attempt to move on to bigger and better things. What I 
mean by that is they want to get a better paying job and/or further 
their education.
    There are many barriers that youth have to endure while they're 
finishing school. One major barrier is peer pressure. Youth are easily 
distracted by their peers. Youth are also going through puberty which 
causes a lot of confusion and then youth have a lot of built-up 
emotions, because of their confusion. Youth make bad choices because of 
these pressures and distractions. These barriers ultimately affect 
youth's education.
    I know, because I've experienced this. As soon as I got into middle 
school, I started to experience peer pressure. My friends were way more 
important than my education. I also had a lot of built-up anger; 
because of the way my life was going. I let this anger out through the 
bad choices that I made.
    I made it to high school on time and had an even more difficult 
time. I truly didn't care about the world around me and I allowed the 
barriers in my life to affect me to a point where I couldn't focus on 
my education. I gave up. Six days before tenth grade ended I decided to 
drop out of school. Most of my teachers felt it was necessary for me to 
sit in the principal's office for the entire class period because of 
how disruptive I was. I told my mom exactly what was going on and she 
supported my decision.
    The 2 years that followed, I got into a correspondence school that 
I did fairly well in. The school got shut down due to funding reasons, 
so I had to find another correspondence school. I did. It was an online 
school, but that didn't work for me either. I told my mother that I 
wanted to get my GED and move on to college. Once again, she supported 
my decision. I just wanted to finish my high school education so that I 
could move on to college and make something of myself. In 2005, I 
finished all of my GED tests within a month and a half and received my 
diploma that December. For me, it was one of the greatest achievements 
in my life. Now it was time to move on to college.
    I started taking classes at the University of Anchorage in 
September 2006, and finished my first semester of my freshman year. I 
started classes in my second semester, and within a month's time 
withdrew from classes, because of life situations that took an 
emotional toll on me. My nephew passed away January 3, 2007 and after 
his death I was depressed. On March 14, 2007 I found out that I was 
pregnant. I stayed out of school, because I didn't want to go through 
ANY more hardships. I was also put on financial suspension.
    In January 2008 I started going to an online school, the University 
of Phoenix. I was doing extremely well with my classes, however, in May 
2008 I found out I was pregnant again and started doing poorly in 
classes. Eventually I got dropped from one of the classes and failed 
two others. After the classes ended and I received my grades and the 
school told me that I could not attend the college again until I dealt 
with my financial suspension.
    I paid UAA the money that was due to them, and in the process of 
paying University of Phoenix. I'm also working on getting back into 
UAA. It's my goal to stay in college and work on my degrees that I want 
to obtain so that I can better mine and my family's situation.
    The barriers that I will have while I'm going to school include 
finding childcare for the time that I am in school, and being able to 
keep focused so that I can do really well in my classes. I want to 
become successful in life and that means having a college education and 
being able to offer the world more than what the next person can and 
that's knowledge and wisdom that I hold because of my personal life 
experiences and college education.

    Senator Murkowski. Thank you, Elizabeth. Your story--your 
certain determination, I think, will serve as a role model for 
others. As you raise your child, I think that she will look to 
you for the determination--you call it ``stubbornness.'' It's 
whatever causes you to move forward positively----
    Ms. Winkler. Right.
    Senator Murkowski [continuing]. And you're clearly doing 
that. So, we----
    Ms. Winkler. Thank you.
    Senator Murkowski [continuing]. Thank you for that. Thank 
you for your testimony.
    Next, we'll go to Mr. Greg Cashen, who is the executive 
director of Alaska Workforce Investment Board.

STATEMENT OF GREG CASHEN, EXECUTIVE DIRECTOR, ALASKA WORKFORCE 
                INVESTMENT BOARD, ANCHORAGE, AK

    Mr. Cashen. Thank you, Senator Murkowski, for inviting the 
Department of Labor and Workforce Development to testify before 
this committee.
    The programs we are adopting to engage high school students 
and young adults are best illustrated in the experiences of a 
student named Zach.
    Instead of dropping out of his Juneau-Douglas High School, 
Zach found a metals class, where he learned to weld.
    He took another shop class, then another. With the guidance 
of the Alaska Department of Labor and Workforce Development, 
Zach discovered school through apprenticeship. After 
graduating, last May, Zach is on his way to becoming a 
certified plumber and pipe fitter.
    One of the reasons the United States emerged as the 
economic superpower of the 20th century was a quality 
workforce. As a State and as a Nation, we have veered off that 
course. But, the tide is turning, and we can succeed by working 
together, building strong partnerships with industry, labor, 
and education.
    Our efforts are focused on replacing an aging workforce and 
providing skilled workers to build a gas line and other 
significant economic development projects on the horizon.
    Apprenticeship as a pathway to a career or higher education 
is one of the most effective methods of delivering a trained 
workforce. If we embrace this model of partnership with 
business and industry, we will improve Alaska hire and give 
hope to our most valuable asset: our youth.
    We have 25 newly trained apprenticeship specialists in the 
Department of Labor, located statewide in the job centers 
throughout the State, who are reaching out to high-demand 
industries in Alaska that are well-suited to apprenticeship, 
ranging from healthcare to mining, transportation to forestry, 
and manufacturing to oil and gas industries.
    The Youth First Initiative prepares youth and young workers 
up to age 24 to be job-ready. Youth First's statewide career 
guides, including eight who travel throughout rural Alaska 
schools throughout the regions, work with youth and young 
adults to create interest and provide support in learning about 
the job market, researching occupations, and applying for jobs 
and training programs. The guides establish a working 
relationship with the school, Native organizations, community 
service organizations, and employers in their communities.
    Another Alaska Youth First program provides teacher 
externships in three target industries of healthcare, 
construction, and resource development.
    A partnership with industry created the Alaska Construction 
Academy. More than 2,300 middle and high school students, along 
with 320 adults, are learning how to build new skills, such as 
carpentry, plumbing, and drywall finishing. Begun as a pilot 
program in Anchorage to attract and train youth and adults to, 
first, jobs in the Alaska construction industry, the academies 
are now in the Kenai Peninsula, Fairbanks, Juneau, Ketchikan 
and Mat-Su. Satellite academies will be created statewide, as 
needed.
    The Denali Commission is a vital partner in extending the 
Denali Training Fund to youth workforce preparation programs in 
rural Alaska. Last summer, 32 high school students attended the 
Galena and Kotzebue Summer Health Career Academy and earned six 
credits at the University of Alaska-Fairbanks, and received an 
emergency trauma technician training certificate.
    The department is beginning to coordinate the efforts of 
the regional training centers in Alaska, including the 
department's AVTEC Center in Seward, to deliver services more 
efficiently, helping to address the highest rates of 
unemployment that exist in rural Alaska, where many of the 
centers are located.
    Beginning January 1, education tax credits will be extended 
to include secondary vocational programs and state-operated 
vocational and technical schools in Alaska.
    Our Workforce Investment Board is the primary policymaking 
board for workforce development in Alaska. The Workforce 
Investment Board is leading a State initiative to create career 
pathways in vocational education programs, working with 
business and education consortia to establish and implement 
standards for Alaska's training programs.
    The department will continue to work toward increasing 
awareness of job-training opportunities to create tomorrow's 
workforce. That includes paying attention to today's students 
by expanding career and technical education, in partnership 
with the Department of Education and Early Development, which 
is part of our AGIA (Alaska Gasline Inducement Act) training 
plan.
    Much of the successes the Department has achieved would not 
have occurred without the support of our Federal Government and 
the active engagement of our congressional delegation. Many of 
our new state-funded initiatives were initiated, thanks to the 
U.S. Department of Labor's Federal Workforce Innovation Grants.
    Senator, much work remains to be done, and we hope to 
continue our dialogue with you and the rest of our 
congressional delegation as the Department seeks continued 
support for Alaska's Workforce Development Initiatives.
    Thank you.
    [The prepared statement of Mr. Cashen follows:]
                   Prepared Statement of Greg Cashen
    Senator Murkowski, thank you for allowing the Alaska Department of 
Labor and Workforce Development to testify before this committee today.
    The programs we are adopting to engage high school students and 
young adults in career training, and to assist them in persisting until 
they earn a diploma, certificate, or degree are illustrated by the 
experiences of Zach.
    Early in his high school career, Zach was bored with his 
traditional classes and considering dropping out. But a brush with 
vocational education in his Juneau high school intervened.
    Instead of hitting the streets, Zach found a metal class where he 
learned to weld. He learned to build a tool box and soon went on to 
other projects. He took other ``shop'' classes and, with the guidance 
of an Alaska Department of Labor and Workforce Development staffer, 
Zach discovered apprenticeship. After graduating last May, Zach is now 
on his way to becoming a certified plumber and pipefitter. Through a 
school-to-apprentice program he earned 500 hours credit--about 3 months 
of work--for his high school shop classes.
    The Alaska Department of Labor and Workforce Development is working 
to provide alternatives to the thousands of students like Zach who 
reach a crossroad and decide to leave school.
    One of the reasons the United States emerged as the economic 
superpower of the 20th century was a quality workforce. As a State and 
as a Nation, we have veered from that course. But the tide is turning 
and our success will depend on all of us working together--in Alaska 
that means building strong partnerships between the Alaska Department 
of Labor and Workforce Development, industry, labor and education--to 
build a future with a trained workforce.
    Although the partnerships vary in scope, and the objectives and 
goals vary based on who is involved, the outcomes benefit all of 
Alaska.
    Alaska is focusing on training to replace an aging workforce and 
provide skilled workers to build a gasline and other significant 
development projects on the horizon.
    We are taking a vision of creating a broad-based registered 
apprenticeship program that helps produce an Alaska workforce 
consistently trained at the highest levels--and beginning to make it a 
reality. Apprenticeship, as a pathway to a career or higher education, 
is one of the most effective methods of delivering a trained workforce. 
If we as a State embrace this model of partnership with business and 
industry, we will be on the pathway to improving Alaska Hire and giving 
hope to our most valuable asset--our youth.
    In school-to-apprentice programs, high school students receive up 
to 500 hours (about 3 months) of credit when they are enrolled in a 
registered apprentice program. Apprentices can also earn up to 38 
credits through the University of Alaska System toward a degree.
    The department is reaching out to other high demand industries in 
Alaska--ranging from healthcare to mining, transportation to forestry, 
and manufacturing to oil and gas. These industries are well-suited to 
the apprenticeship movement.
    Registered apprenticeship programs will develop a skilled, 
competitive, diverse and sought-after workforce--and help provide a 
world class, industry-driven, postsecondary education system.
    The department now has 25 newly trained Apprenticeship Specialists, 
located statewide in our Alaska Job Centers, who link with career 
guides in Alaska secondary schools. They are helping provide a full 
line of resources such as the Alaska Career Ready program, employer 
incentives and assessments for apprentices.
    The Alaska Youth First Initiative, operated by Alaska Department of 
Labor and Workforce Development with State General Funds, is a 
strategic effort to prepare youth and young adults up to age 24 to be 
job ready. This is a great example of how we can put people to work 
when government, industry and education create unique partnerships to 
accomplish our mutual goal--achieving workforce excellence.
    Youth First provides career guides across the State, including 
eight that travel to rural communities and schools throughout their 
regions. Career Guides work with youth and young adults to create 
interest and provide support in learning about the job market, 
researching occupations, and applying for jobs and training programs in 
high demand industries.
    The guides are successful because they establish a working 
relationship with the schools, Native organizations, community service 
agencies and employers in their communities. Career Guides help youth 
register for the online systems AKCIS and ALEXsys. They also assist 
with the application process for apprenticeship programs, employment, 
job shadows, internships, vocational training programs and more.
    Career guides at the Alaska Department of Labor's Youth Hiring 
Center in Anchorage invited 71 seniors in good standing to a late 
spring hiring event that is part of the Job Club. The Club is a 
partnership with the department's career guides, members of the 
construction industry, the Anchorage Home Builders Association and the 
Associated Builders and Contractors Inc. To be in good standing, 
seniors have to sign up to join the club and they are required to 
attend two employability workshops that includes resume writing and 
other job-seeker skills, and register in Labor's ALEXsys--Alaska's Job 
Bank online.
    Of the 71 students, 47 are now working in construction-related 
positions, 7 are going into the military in construction-related fields 
such as combat engineer and welder, 3 are in registered apprenticeship 
programs, 3 are continuing their education at university and AVTEC, and 
4 are working in other fields. Career guides worked with the remaining 
students to place them in construction industry jobs when they turned 
18.
    Another Youth First program provides teacher externships--a program 
in which our teachers are finding there's a lot to learn about what 
skills our students will need to be a successful part of Alaska's 
workforce. Overall, 49 teachers completed externships in three target 
industries including healthcare, construction and resource 
development--with an impact on more than 2,000 students.
    A partnership with industry created the Alaska Construction 
Academy. More than 2,300 middle and high school students, along with 
320 adults, are learning how to build new skills--such as carpentry, 
plumbing, electrical, welding and drywall finishing. Begun as a pilot 
program in Anchorage to attract and train young people and adults to 
find jobs in the Alaska construction industry, the academies are now in 
the Kenai Peninsula, Fairbanks, Juneau, Ketchikan and Mat-Su. 
Additional academies will be created throughout the rest of the State. 
Graduates will help fill the 1,000 construction jobs that are needed 
annually.
    Significantly, the Denali Commission has become a vital partner in 
extending the Denali Training Fund to youth workforce preparation 
programs in rural Alaska. Last summer, 32 high-school students attended 
the Galena and Kotzebue Summer Health Career Academy. Through the joint 
program with the department's Denali Training Fund Youth Program, they 
earned six credits at the University of Alaska Fairbanks and received 
an Emergency Trauma Technician Training Certificate. Additional 
partners in this program were the U.S. Department of Labor, the Alaska 
Department of Education and Early Development and the Tanana Chiefs 
Conference.
    We are partnering with other State agencies, for example creating 
the Alaska Career Ready program with the Department of Education and 
Early Development. The program is available to employers, students and 
workers to help assess and prepare them for jobs. Employers can send 
current or prospective employees to any Alaska Job Center to take an 
assessment that provides a snapshot of current skills. After taking the 
assessment, students and workers can attain certification.
    The department is beginning to coordinate the efforts of the 
Regional Training Centers in Alaska, including the department's Alaska 
Vocational Technical Center (AVTEC) so they can deliver services more 
efficiently, helping to address the highest rates of unemployment that 
exist in rural Alaska, where many of the centers are located.
    Beginning January 1, education tax credits, which cover 
contributions up to $150,000, will be extended to include secondary 
school vocational programs and state-operated vocational and technical 
schools in Alaska. The credit had been only for contributions to 2- and 
4-year colleges and universities. The credit can now be used against 
additional taxes: insurance, corporate income, oil and producer, oil 
and gas property, mining license, fisheries business or fishery 
resource landing. However, not all vocational and technical schools in 
Alaska are state-operated, thus they are not eligible to benefit from 
this program.
    Our Workforce Investment Board is the primary policymaking board 
for workforce development in Alaska. Citizens from all across Alaska 
serve on the board, representing many different organizations and 
industries. AWIB is leading a State initiative to create career 
pathways in vocational education programs, working with business and 
education consortia to establish and implement standards for Alaska 
training programs.
    The department will continue to work toward increasing awareness of 
job and training opportunities--creating tomorrow's workforce. That 
includes paying attention to today's students by expanding career and 
technical education--which is part of our AGIA training plan--in 
partnership with the Department of Education and Early Development.
    Much of the successes the department has achieved would not have 
occurred without the support of the Federal Government and the active 
engagement of our congressional delegation to secure funds for 
workforce development targeting our youth. Many of our new state-funded 
initiatives were initiated thanks to the U.S. Department of Labor's 
Federal workforce innovation grants.
    Much work remains to be done and we hope to continue our dialogue 
with you and the rest of our congressional delegation as the department 
seeks continued support for Alaska's workforce development initiatives.

    Senator Murkowski. Thank you, Greg.
    Let's, next, go to Mr. Michael Andrews, who is with the 
Alaska Works Partnership.
    Mr. Andrews.

     STATEMENT OF MICHAEL ANDREWS, DIRECTOR, ALASKA WORKS 
                PARTNERSHIP, INC., ANCHORAGE, AK

    Mr. Andrews. Thank you, Senator Murkowski. It's a pleasure 
to be here today, particularly with this distinguished panel 
and on this very, very critical topic.
    I've been asked to bring testimony specifically regarding 
the experiences of Alaska's union training programs in the K-12 
and postsecondary education systems, and to offer some 
recommendations from these experiences to help improve the high 
school completion rate and advance Alaska's youth into and 
through post-
secondary technical training or college.
    Alaska's trade unions have more than 50 years of experience 
working directly with schools to attract students to trade 
apprenticeship. Many years ago, educators, trade unions, 
employers, and the Federal Government agreed that completing 
high school should be the basic requirement for even applying 
to an apprenticeship program. Today, there are more than 800 
employers in the union construction training industry system 
who are anxiously waiting for new graduates to enter their 
apprenticeship programs.
    The high school dropout rate significantly impacts the 
construction industry. Alaska's high schools are the main 
supply of new apprentices. Fewer high school graduates means 
fewer new workers ready to learn trade skills. As a result, 
apprenticeship programs today are competing harder than ever 
with other industries, postsecondary technical schools, 
colleges, universities, and the military for those graduates.
    We have a pipeline to build, a natural-gas pipeline to 
build, and we need high school graduates who can learn those 
skills to do that work.
    The good news is that unions and their apprenticeship 
programs, industry associations, school districts, the 
University of Alaska, and others are finding many new ways to 
encourage students to stay in school and go into pathways that 
include postsecondary degrees and certifications.
    I'd like to just mention two important career initiatives 
that I did submit as part of my written testimony. Greg Cashen 
mentioned the Alaska Construction Academies. These have been 
very successful models, in terms of getting community 
partnerships with school districts and industry and others to 
attract, as he mentioned, over 2,300 students right now, into 
elective programs after school, because of their great interest 
in the construction industry and getting ready for the 
pipeline.
    Another, of course, that was mentioned, was the Denali 
Commission and their Rural Youth Initiatives. Every year, we're 
offered the opportunity to provide rural construction academies 
at regional learning centers for students in the Bethel, King 
Salmon, and St. Mary's/Nome delta areas, for example. This year 
we concentrated on developing youth as pipeline welders' 
helpers, so they can follow a pathway into trade 
apprenticeship, learn some basic skills, so they can go to work 
on the North Slope.
    Just last week, we graduated 121 apprentices in our annual 
pipeline construction program. They're on their way to the 
North Slope, because the jobs are--there's many, many jobs in 
demand up there now. We know there's great pathways for rural 
and urban students to get engaged.
    I'd like to just quickly move to what I think are some 
suggestions that may be helpful to you and your committee.
    Now, one thing--and I believe the research came from the 
National Center for Dropout Prevention--was that it came to me 
that there is a great wealth of research out there that points 
out that in States or in school districts where there are 
strong vocational education career technical programs, where 
students can take two or more classes, let's say, in health or 
in construction or other areas--they're going to have higher 
high school completion rates than their counterparts who don't 
take vocational education. In fact, there's research that 
shows, in some school districts where there are strong 
vocational career and technical education programs, that their 
graduation completion rates have risen 10 percent. If we look 
at Alaska, at 65-or-so percent, the national rate at 75 
percent, it's always been my view that we could go from the 
bottom to the top in short order if we really got back into 
concentrating more on offering career and technical education 
inside the high schools. It would improve math scores, it would 
improve science scores, it would help students move on to 
postsecondary education and advance through college. There's 
nothing new under the sun. I think we need to go back and look 
at some of those ways, because students learn differently, and 
they--a lot of times, the shop class, so to speak, is one of 
the reasons they would go to school and stay in school.
    My recommendation is also that--it was mentioned earlier--
the Carl Perkins Act is great, but it's burdensome, it's 
meager, it doesn't really meet the needs in Alaska for many 
school districts. We get calls from small school districts who 
are basically saying, ``We're ignoring our $15,000 Carl Perkins 
grant, and we'd like to work with you and the Denali Commission 
on something more substantive.'' I mean, I've been to school 
districts where the only vocational education is basically 
office technology online. There needs to be more done.
    I would suggest that possibly something new that would 
offer dedicated, flexible funding for high schools who have 
partnerships with industry, postsecondary, and college for 
career paths, and are vital careers that are needed for our 
national and our State economy. Again, something not quite Carl 
Perkins, but something that others can really use.
    I would also make a pitch that we do need to help the U.S. 
Department of Labor expand apprenticeship and school to 
apprenticeship and other initiatives. I served for 2 years on 
the Federal Committee for Registered Apprenticeship, years ago, 
and there were basically no resources, there was no power, 
because it was just an advisory group. We strongly encouraged 
the Department to try to find more resources so that every 
State could create initiatives that reached deeper into the 
schools and prepared students earlier for some of the vital 
careers needed in the trades and technical occupations.
    I really appreciate the opportunity to speak with you today 
and offer what I can.
    Thank you.
    [The prepared statement of Mr. Andrews follows:]
                 Prepared Statement of Michael Andrews
    The Honorable Senator Murkowski & committee members, I have been 
asked to bring testimony specifically regarding the experiences of 
Alaska Union training programs in K-12 and postsecondary education, and 
to offer some recommendations from these experiences to help improve 
the high school completion rate and advance Alaska's youth into and 
through postsecondary technical training or college.
    Alaska Works Partnership, Inc. was formed in 1997 as a not-for-
profit by Alaska's Construction Trade Unions and their Joint 
Administered Apprenticeship and Training Trusts, commonly referred to 
as JATC's. Alaska Works was created to attract and prepare Alaskan's 
for jobs and careers in construction. Our more than 10 years of 
experience of reaching out to schools and students, employers and 
industry associations, Alaska Native organizations and others to build 
that workforce do provide some insights for increasing the retention of 
Alaskans students in life-long learning from K-16.
    Alaska's trade unions have more than 50 years of experience working 
in schools to attract students to trade apprenticeship and career 
training. Once a student completes high school they have met the 1st 
requirement for applying to these coveted and highly competitive 
positions.
    Alaska's trade union apprenticeship programs, collectively, are the 
States largest private-funded industry training partnership in Alaska. 
Over the past decade, union members and employers have invested more 
than $60 million in training Alaskans. This year their apprenticeship 
programs will invest more than $10 million for industry training. No 
other industry has invested as much or worked as long to develop 
sustainable partnerships with secondary and postsecondary education in 
Alaska.
    There are 31 Joint Administered Apprenticeship and Training Trusts 
operating in the State and they teach over 20 specific construction 
crafts and trade skills. There are more than 800 employers contributing 
funds to the system for every hour a union member works. JATCs own and 
operate 14 fully staffed trade schools where course-related instruction 
takes place and are building one new training center a year for the 
past 5 years to meet the ever growing needs of their programs.
    Their combined capital assets in facilities and training equipment 
are estimated at over $30 million. Today they train more than 2,000 
registered apprentices, which is more than 80 percent of active 
apprentices registered in the State. These schools turn out more than 
95 percent of the Alaska journeymen certified by the U.S. Department of 
Labor and have for many decades.
    The high school drop-out rate significantly impacts the 
construction industry, particularly as it continues to aggressively 
recruit new workers to meet growing job demand, to replace retiring 
skilled workers, and to replace trades workers advancing into 
supervisory and management positions. Adding to the skills gap, 
currently 80 percent of those employed in Alaska's construction 
industry are non-residents who come here to earn the high wages. We'd 
like to see more of Alaska's high school graduates get those jobs.
    The drop-out challenge strikes at the very core of a strong 
construction industry because Alaska's high schools are the main 
provider of workers for the supply chain.
    Many years ago educators and trade unions and the Federal 
Government agreed that completing high school should be a basic 
requirement for applying to a Joint-Administered apprenticeship 
program. Educators, unions and employers agreed setting graduation as 
the bar would keep more young people in school and better prepare them 
for success after school.
    The reduced supply of talent ready to learn a trade skill means the 
construction industry must compete harder with other industries, 
postsecondary technical institutions, colleges and universities, and 
the military for future workers. Supplying a new construction workforce 
to meet increasing job demand to build Alaska and build the Alaska 
Natural Gas Pipeline is a daunting challenge. But we are finding new 
ways to turn that around and keep kids in school by getting them into 
vocational training. I am providing two documents to the committee 
which help further explain what I mean about those new methods.
    I am confident today that through the great relationships 
established by and between labor and education at all levels, 
particularly with the university of Alaska and School Districts, we can 
make a difference. These new initiatives and expanding industry 
education and labor partnerships have only been possible through 
investments by the Federal and State government, which is explained in 
the documents I have provided.
    One thing is evident. Students need education that is relevant, 
flexible and career-oriented. We need to start vocational and career 
education activities earlier in the education process. Students de-
select careers at an early age. They need to have some career awareness 
and career activities to keep them informed about the jobs educators 
are preparing them for.
    We need to bring more applied math and technical reading into every 
classroom. We did in the old days through vocational education and co-
operative learning. This will improve math and science scores and help 
students who learn in different ways get the knowledge they need to 
advance. For many, it will become a reason they go to school.
    We need to offer public secondary and postsecondary schools 
flexible and dedicated long-term funding specifically for career and 
technical training in conjunction with industry partners. Somewhat like 
Carl Perkins but not as cumbersome, costly to the schools, or meager 
from the source. These should be grants that align secondary and 
postsecondary credit with industry certificates and college degrees, 
and put students in jobs and careers vital to the regional economies.
    I commend to the committee, the Alaska Construction Academies, as 
explained in one document before you, the partnerships and results of 
working with Alaska's high schools as one program that can bring 
insights for success in other areas.
    I hope my comments have been helpful. I look forward to the 
opportunity to participate with the panel in this important discussion. 
And I thank you for providing me an opportunity to testify.

    Senator Murkowski. Thank you, Mike.
    Let's, next, go to Tina Michels-Hansen, at Cook Inlet 
Tribal Council.
    Welcome.

STATEMENT OF TINA MICHELS-HANSEN, ELEMENTARY AND MIDDLE SCHOOL 
   PROGRAM MANAGER, COOK INLET TRIBAL COUNCIL, ANCHORAGE, AK

    Ms. Michels-Hansen. Good morning, Senator. Thank you for 
the opportunity for me to be here on behalf of Cook Inlet 
Tribal Council. It's an honor to be here with you all.
    My grandparents are Bill Hoogendorn, a retired Dutch gold 
miner, and Lena Iutok, an Inupiat elder of Nome, AK, which is 
the same place that I was born and raised. I'm here today to 
share my personal and professional thoughts on the state of 
improvements for Native education within our State.
    I am a product of both small and rural schools and a small 
college. I have come to value the need for community-based 
education.
    As Native people, we have an inherent sense of community. 
It does, after all, take a village to raise a child. Yet, our 
children today are faced with mainstream pressure to live in 
only one world, rather than two, a world of glamour and glitz 
that promises everything based on looks and what a person owns, 
rather than what they do, know, or do for others.
    Communities don't fight back against this pressure. They, 
too, are trapped in trying to keep up with the Joneses. Here, 
we see students losing their connection to their roots, that 
which defines their sense of self and their value in their 
community.
    We've all seen the data. Our schools and communities are 
failing our Native students at frightening rates. Kids would 
rather drop out than feel like failures or be disengaged at 
school. As long as they have material items, they still feel 
like they can be a success. This is not a Native or a tribe's 
problem, this is a community problem, rural or urban, and it's 
everyone's problem to resolve.
    When I grew up, I was among the top of my class, 
academically. I was athletic, involved in church, arts, 
cultural activities, and student government of a school of 200. 
Overnight, due to circumstances beyond my teenage control, my 
understanding of place and sense of self would change forever. 
I had to move to Fairbanks for my senior year of high school. 
There my school had nearly 2,000 students. My comfort zone of 
school and notions of success were now replaced by this 
frightening institution of learning, where I was no longer a 
person with a name, but a number. I remember thinking, ``How is 
it possible for a student to even feel invisible? Don't 
teachers see me? '' In fact, they never did.
    For 3 months, I didn't even know where my locker was. I 
attended only two classes, and didn't care that it was 40-below 
outside. I was willing to brave the cold and endure frostbite 
than feel like I was invisible.
    After one semester, I couldn't handle it any more and 
returned home. Though this experience was brief, it has stayed 
with me for all of these years.
    I then spent 2 years failing at UAA, with no support; 
Again, feeling invisible and having experienced prejudice for 
the first time in my life.
    The story does not end with me. There are kids every day 
who walk into our schools, who feel invisible, like I did. No 
one should ever have to feel so dispirited. Our schools have 
become institutions that are underfunded, classes are 
overcrowded with maniacal focus on high-stakes testing and led 
by often ill-prepared teachers, many who lack thorough 
multicultural training or who feel they simply do not have 
enough time to be compassionate. They have become factories, 
and their products lack many of the basic skills for today's 
markets and industries, factories that are often unapproachable 
by parents, factories that communities passively accept.
    I believe that the faults of our schools today do not 
solely lie with one person or entity; rather, the fault is all 
of ours. We all are failing our kids, and we should be ashamed 
of ourselves.
    Those students who experience successes are not celebrated 
adequately by the community and are often overshadowed by 
thousands. They, too, need to be embraced and supported for 
their continued success, not sent out to sea like a lonesome 
fish, and simply forgotten. We need to ask our successful 
students, What is it that worked for them?
    I also believe it is possible for communities to be 
involved in creating great places to learn. I've seen it happen 
when all stakeholders unite with intention and respect. It 
takes a plan, people willing to put their necks out on the 
line, tireless efforts to outreach to the community, continuous 
self-reflection, sharing best practices, building partnerships 
with all stakeholders and key partners, nurturing them, day 
after day after day, raising the bar, but staying rooted in 
community values--compassion, patience--and, of course, 
sustainable funding. It can happen, it should happen. We cannot 
afford to wait any longer.
    Very quickly, my time at CITC has been enriched by the 
opportunities to work with many brilliant and compassionate 
people. Thanks to the Alaska Native Educational Equity funding, 
we can partner daily with Anchorage School District, UAA's 
ANSEP Program--the Alaska Native Science and Engineering 
Program--and other various people and entities. Building and 
nurturing assets within our Native youth is the foundation for 
which our department is built upon. We intentionalize our 
efforts to create safe, positive, culturally focused learning 
environments for nearly 1,000 Native students across 10 local 
K-12 schools. It is in these classrooms where students have the 
opportunities to reconnect with their roots, reaffirm their 
sense of self as a young Native person, and experience 
successes, both great and small.
    For some of our students, they have been consistently 
supported by a program, and they're college-bound and eager. 
Others, their greatest achievement for the day may be that they 
made it to school. Despite their peaks and valleys, we value 
every single one of them equally.
    We have urban-raised students and rural-raised students, 
with very different life experiences, yet one common identity. 
Often it's when the kids work together that the magic happens. 
They mentor one another in ways that few textbooks could grasp. 
We have smaller class sizes and stronger student-to-teacher 
ratios. We meet the students where they are academically when 
they walk through our classroom doors, utilize culturally 
relevant materials and methodology, strive to instill a love of 
lifelong learning by providing experiential learning 
opportunities for students, alternative ways of assessing them, 
include deliberate efforts to provide youth with the transition 
skills they need to navigate life and school, tirelessly 
encourage and provide opportunities for parental involvement, 
keep traditional Alaska Native values central, encourage 
stewardship, maintain high standards, topped with patience and 
a whole lot of compassion.
    Our mission has been to work in partnership with our people 
to help them achieve their endless potential--not a handout; 
rather, a hand-up. It's about reciprocity. We invest in our 
Native people so they, too, can continue to invest in future 
generations. At CITC, we partner with Anchorage School District 
in a way that is often enviable to Lower 48 tribal entities. 
Our partnership is strong, yet we are grant-driven.
    CITC tries to do what we can for our Native students, but 
there is only so much even we can do. Creating successful 
schools and successful students is possible, but it's not just 
one person's responsibility, again. It's--or one neighborhood's 
responsibility, or one tribal entity's responsibility--it's a 
community responsibility.
    Mine is only one Native perspective, but I am humbled by 
the opportunity to share my story and my thoughts with you 
today. We look forward, at CITC, to continue to work with 
others as a community to make our communities and schools be 
the deserving places for our kids, where kids can grow up to be 
strong, capable, caring, optimistic, and prepared for their 
futures.
    I also need to mention that the other day, Dr. Walter 
Sobilov celebrated his 100th birthday, and I think it's 
absolutely important to mention that he is a tremendous example 
to us all, that it is possible to exist and live in two very 
different cultural worlds, but it takes a community of people 
to encourage you and to support you, and that it is possible.
    Quyana.
    [Applause.]
    [The prepared statement of Ms. Michels-Hansen follows:]
               Prepared Statement of Tina Michels-Hansen
    Good morning, Senator Murkowski. Thank you for the opportunity to 
be here today, as it is an honor. As stated, my name is Tina Michels-
Hansen. My grandparents are Bill Hoogendorn, a retired Dutch gold 
miner, and Lena Iutok, an Inupiat elder, of Nome, AK--the same place I 
was born and raised. I am here today to share both my personal and 
professional thoughts on the state of, and improvements for, Native 
education in Alaska.
    A product of both small and rural schools and college, I have come 
to value the need for community-based education. As Native people, 
there we have an inherent sense of community, it does after all take a 
village to raise a child. Yet our children today are faced with 
mainstream pressure to live in only one world, rather than two. A world 
of glamour and glitz that promises everything based on looks and what a 
person owns, rather than what they know or do for others. Communities 
don't fight back against this pressure, they too are trapped in trying 
to keep up with the Joneses. Here we see students losing their 
connection to their roots . . . that which defines their sense of 
``self,'' and value in their communities.
    We have all seen the data. Our schools and communities are failing 
our Native students at frightening rates. Kids would rather drop out 
than feel like failures or be disengaged at school. As long as they 
have material items they still feel like they can be a success. This is 
not a ``Native'' or a tribe's problem, this is a community problem, 
rural or urban, and it's everyone's problem to resolve.
    When I grew up I was among the top in my class academically. I was 
athletic, involved in church, art, cultural activities and student 
government in a school of 200. Overnight, due to circumstances beyond 
my teenage control, my understanding of ``place'' and sense of ``self 
'' would change me forever. I had to move to Fairbanks my senior year 
of high school.
    In Fairbanks, my high school had nearly 2,000 students. My comfort 
zone of school and notions of success were now replaced by this 
frightening institution of learning where I was no longer a person with 
a name, but a number. I remember thinking, ``how is it possible for a 
student to feel invisible? Don't teachers see me? '' But they didn't.
    For 3 months I didn't even know where my locker was. I attended 
only two classes and didn't care that it was ^40 outside, I was 
willing to brave the cold and endure frostbite than feel like I was 
invisible. After one semester I couldn't handle it anymore and returned 
home. Though this experience was brief, it has stayed with me all these 
years. I then spent 2 years failing at UAA with no support. Again, 
feeling invisible and having experienced prejudice for the first time 
in my life.
    This story doesn't end with me, there are kids every day who walk 
into our schools who feel invisible like I did. No one should ever have 
to feel so dispirited. Our schools have become institutions that are 
underfunded; classes are overcrowded; with a maniacal focus on high 
stakes testing; and led by often ill-prepared teachers, many who lack 
thorough multicultural training, or feel they don't have enough time to 
be compassionate. They have become factories and their products lack 
many of the basic skills for today's markets and industries. Factories 
that are often unapproachable by parents. Factories that communities 
passively accept.
    I believe that the faults of our schools today do not solely lay 
with one person or entity, rather the fault is all of ours. We all are 
failing our kids and we should be ashamed. Those students who are 
experiencing success are not celebrated adequately by the community and 
are often overshadowed by the thousands. They too need to be embraced 
and supported for continued success, not sent out to sea on their own 
like fish and simply forgotten about. We need to ask our successful 
students, What is it that worked for them?
    I also believe that it is possible for communities to be involved 
in creating great places to learn. I've seen it happen when all 
stakeholders unite with intention and respect. It takes a plan, people 
willing to put their necks out on the line, tireless efforts to 
outreach to the community, continuous self-reflection, sharing best 
practices, building partnerships with all stakeholders and key 
partners, nurturing them day after day, raising the bar but staying 
rooted in community values, compassion, patience, and of course 
sustainable funding. It can happen, it should happen, and we cannot 
afford to wait any longer.
    My time at CITC has been enriched by the opportunities to work with 
many brilliant and compassionate educators. Thanks to the Alaska Native 
Educational Equity funding, daily we partner with the Anchorage School 
District (ASD), UAA's Alaska Native Science & Engineering Program 
(ANSEP), and other various people and entities. Building and nurturing 
ASSETS within our Native youth is the foundation of which our 
department is built upon.
    We intentionalize our efforts to create safe, positive, and 
culturally focused learning environments for our nearly 1,000 Native 
students across 10 K-12 local schools. It is in these classrooms where 
students have the opportunities to reconnect with their roots, reaffirm 
their sense of ``self,'' as a young Native person, and experience 
successes both great and small. For some of our students they have been 
consistently supported by our program and are college bound and eager--
others, their greatest achievement for the day may be that they made it 
to school. Despite their peaks and valleys, we value every one of them 
equally.
    We have urban-raised students and rural-raised students with very 
different life experiences but a common identity. Often it's when the 
kids work together that the magic happens. They mentor one another in 
ways that few textbooks could grasp.
    We have smaller class sizes and stronger student-to-teacher ratios. 
We meet the students where they are academically when they walk through 
our classroom doors; utilize culturally relevant materials and 
methodology; strive to instill a love of life long learning by 
providing experiential learning opportunities for students and 
alternative ways of assessing student success; include deliberate 
efforts to provide youth with the transition skills needed to navigate 
school and life; tirelessly encourage and provide opportunities for 
parental involvement; keep traditional Alaskan Native values central; 
encourage stewardship; maintain high standards, topped with patience 
and a whole lot of compassion.
    Our mission has been to work in partnership with Our people to help 
them achieve their endless potential. Not a hand out, rather a hand up. 
It's about reciprocity. We invest in Our Native people so they too can 
continue to invest in future generations. At CITC we partner with the 
Anchorage School District in a way that is often enviable to lower 48 
tribal entities. Our partnership is strong, yet we are grant-driven.
    CITC tries to do what we can for our Native students but there is 
only so much even we can do. Creating successful school and successful 
students is possible, but it's not just one person's responsibility, 
one neighborhood's responsibility, or one tribal entities' 
responsibility, it's a community responsibility.
    I would be remiss if I did not take a moment to recognize Dr. 
Walter Soboleff who recently celebrated his 100th birthday. He is a 
wonderful example that Native students/people can exist in two very 
different cultural worlds and be successful, but it takes encouragement 
and community.
    Mine is only one Native perspective. Yet I am humbled by the 
opportunity to share my story and my thoughts with you today. I look 
forward to working with others, as does CITC, as a community, to make 
our communities and schools be the deserving places for our kids--where 
kids can grow up to be strong, capable, caring, optimistic and prepared 
for their futures.
    Quyana.

    Senator Murkowski. Thank you, Tina. Your comments are most 
eloquent, most appreciated, not only for your personal 
perspective, but for reminding us that we do have some 
successes to look to, and we must always be asking, What is it 
that makes us successful? Your story was most appreciated, and 
your testimony very much appreciated.
    Our final participant on the panel today is Mr. Tom Morgan, 
who is the State director of Communities in Schools.

STATEMENT OF TOM MORGAN, STATE DIRECTOR, COMMUNITIES IN SCHOOLS 
                 OF ALASKA, INC., ANCHORAGE, AK

    Mr. Morgan. Thank you, Senator.
    I have prepared remarks, as well, which, if you know me, is 
a good idea; it'll keep us on time and on schedule.
    [Laughter.]
    I feel like I should really toss these away, because I 
started to say that--how honored I was to be with you, and I 
mean that; but, my goodness, I'm humbled to be here, because 
we're truly blessed to have good people doing good things to 
help us attack what really is an epidemic in the dropouts. I 
thank you, but I will continue with the prepared remarks.
    [Laughter.]
    Again, Karen McCarthy, I want to thank you for your help. 
You told me not to single you out, but I didn't listen to you, 
because you make this happen, and I know that the Senator 
appreciates what you do, and makes your job easier; and for 
that, we thank you.
    Senator Murkowski, it's with great respect that I recognize 
your outstanding leadership, not only to the Nation, but to our 
great State of Alaska. Thank you for being here.
    I'm truly pleased to be here today to represent Communities 
in Schools of Alaska and our role of making a positive 
difference in the dropout epidemic.
    I know that you all share the concern about the dropout 
crisis, a topic that touches all Alaskans, particularly Alaska 
Native students, at a disproportionally higher rate.
    CIS offers an integrated student support delivery system 
that provides schools and prevention services and individual 
students with case management individual services. Like glue, 
we mobilize and connect resources with schools, better enabling 
students to stick with it and stay in school.
    As a statewide network in dropout prevention, we are 
committed to success through collaboration. Let me say that 
again. We are committed to success through collaboration. 
That's the only way we're going to get this job done.
    Now, how do we know that we are helping kids learn, stay in 
school, and prepare for life? We evaluate our efforts by 
tracking indicators of student success: attendance, stay-in-
school rates, improved academic performance, and improved 
behavior.
    Since our inception, we have worked with thousands of 
students at risk of dropping out. The majority of those 
students have stayed in school and improved their attendance, 
behavior, and academic achievement.
    Preliminary results from the Communities in Schools' 
National Evaluation initiative, an independent third-party 
evaluation, indicated that the CIS model does make a positive 
difference in decreasing the dropout rate, increasing the 
graduation rate, and improving student achievement. These 
results are based on the in-depth analysis of 1,766 CIS schools 
and comparative analysis of outcomes from more than 1,200 CIS 
and non-CIS comparison schools over a 3-year period. That's the 
last time I'll throw numbers at you.
    We are not another social service agency. We broker and 
mobilize, in an effective and coordinated way, existing--say 
again--existing community services through the schools, saving 
valuable dollars while improving efficiencies of delivery of 
services to children and youth.
    Just in the 2007-2008 school year, in just five 
affiliates--Anchorage, Bethel, Juneau, Mat-Su, and Nome--our 
minimum leverage services and resources were estimated in 
excess of $1.5 million. In-kind contributions and revenue from 
other sources, just in the past year, were approximately 
$900,000. The amount of dollars to support is very small when 
compared to the successful outcomes it provides and the 
resources we're able to leverage.
    Through school-based affiliate programs and statewide 
initiatives, CIS Alaska is creating a network of social 
services, businesses, community resources, and volunteers that 
work together to break down barriers, to ensure that even the 
most vulnerable of our children have access to these basic and 
core needs.
    Our statewide initiatives create opportunities in 
conjunction with Department of Labor, an active distance 
learning career exploration program targeted at rural youth, 
and the Dolly Parton Imagination Library and Early Literacy 
Program for Children Birth to Five are being well received.
    Our dream, our call to action, is to formulate support to 
implement the CIS model and provide a dropout prevention 
specialist, a resource specialist perhaps, a graduation coach, 
a CIS coordinator--it doesn't matter, the name--the challenge 
is to get that resource person in every school in Alaska, where 
its children's needs can be met to help keep them in school and 
teachers are free to teach.
    We believe youth do not drop out of school necessarily 
because of the school. We believe, and research supports, youth 
drop out due to pressures outside of the school. Educators 
cannot and should not be expected to have knowledge of the many 
community resources available to help them and help those 
students stay in school. That is where CIS comes in. As one 
principal told me, ``You allow me and my teachers to teach. We 
need to clone the CIS coordinator.''
    As stated earlier, like glue, we mobilize and connect 
resources with schools, better enabling students to stick with 
it and stay in school.
    Support by the Federal and the State government will allow 
us to expand our existing sites and offer the opportunity for 
many more communities, especially rural communities, the 
ability to experience the positive outcomes that we can provide 
for you.
    We have a program that has proven success in preventing 
dropouts. For every dollar invested through building 
collaboration, brokering services, and leveraging community 
assets, CIS of Alaska adds value to build return on investment.
    The paid political announcement: For a more in-depth look, 
please check our Web site at CISAlaska.org.
    In closing, Senator Murkowski, you know, dollar for dollar, 
CIS of Alaska offers the right investment in our children's 
future. We look forward to partnering with you, doing what we 
do best: connecting the dots, coordinating and leveraging the 
existing resources to keep youth in school, and preparing them 
to succeed in life.
    Thank you, again, for allowing me to be here today.
    [The prepared statement of Mr. Morgan follows:]
                    Prepared Statement of Tom Morgan
    Good morning Senator Murkowski and staff. I am honored to be here 
today on behalf of Alaska's young people. It is with great respect, 
Senator Murkowski, that I extend my deep appreciation of and support 
for your outstanding leadership to our great State, and our Nation.
            i. statement of need/dropout problem definition
    I am truly pleased to be here today to represent Communities In 
Schools (CIS) of Alaska and our role in making a positive difference in 
the dropout epidemic. National research has shown that students who do 
not finish high school earn less, pay less tax, rely more on public 
health, are more involved in the justice system, and are more likely to 
use the welfare system. I know that you all share the concern about the 
dropout crisis, a topic that touches all Alaskans, particularly Alaska 
Native students at a disproportionally higher rate.
                  ii. our solution/our model & results
    CIS of Alaska strives to work closely with school districts around 
the State to address the alarmingly high rate of high school dropouts. 
We offer an integrated student support delivery system; providing 
schools with prevention services and individual students with case 
management and intervention services. Like glue, we mobilize and 
connect resources with schools, better enabling students to ``stick 
with it'' and stay in school. As a statewide network in dropout 
prevention, we are committed to success through collaboration.
    How do we know that we are helping kids learn, stay in school, and 
prepare for life? We evaluate our efforts by tracking indicators of 
student success like: attendance and stay-in-school rates, improved 
academic performance and improved behavior to determine the impact of 
our programs. Since our inception, we have worked with thousands of 
students at risk to dropping out; the majority of those students have 
stayed in school and improved their attendance, behavior and academic 
achievement. In the last 3 years, Communities In Schools has helped to 
put developmentally appropriate books directly in the hands of 
thousands of children and families across the State. (For a more in-
depth look at CIS of Alaska programs and initiatives, please visit 
www.cisalaska.org)
                   iii. program specific information
    CIS of Alaska is part of the nationwide network of Communities in 
Schools. Nationally, CIS is the largest provider of integrated student 
services in the country and has an opportunity to both serve 1.2 
million students with high quality services, as well as make the policy 
case for including integrated student services as a fundamental part of 
the solution to lowering dropout rates and improving graduation rates 
in America. Preliminary results from the Communities In Schools 
National Evaluation initiative (an independent, third-party evaluation) 
indicated that the CIS model does make a positive difference in:

    <bullet> decreasing the dropout rate,
    <bullet> increasing the graduation rate (specifically, the ``on-
time'' graduation rate, meaning within the traditional 4-year schedule) 
and,
    <bullet> improving student achievement [Generally speaking, the 
more ``high implementing'' the school site (meaning incorporating all 
aspects of the CIS model in a mid to high degree at the school site), 
the higher the outcomes.]

    These results are based on an in-depth analysis of 1,766 CIS 
schools and comparative analysis of outcomes for more than 1,200 CIS 
and non-CIS comparison schools over a 3-year period. The CIS National 
Evaluation concludes that:

    <bullet> Among dropout prevention programs using scientifically 
based evidence, the CIS Model is one of a very few in the United States 
proven to keep students in school and is the only dropout prevention 
program in the Nation with scientifically based evidence to prove that 
it increases graduation rates.
    <bullet> When implemented with high fidelity, the CIS Model results 
in a higher percentage of students reaching proficiency in fourth- and 
eighth-grade reading and math.
    <bullet> Effective implementation of the CIS Model correlates more 
strongly with positive school-level outcomes (i.e., dropout and 
graduation rates, achievement, etc.) than does the uncoordinated 
provision of service alone, resulting in notable improvements of 
school-level outcomes in the context of the CIS Model.

    The CIS National Evaluation is being conducted by ICF 
International, known for its high standards of rigor and comprehensive 
research designs. (Source: ``CIS National Evaluation Policy--
Communities In Schools and the Model of Integrated Student Services: A 
Proven Solution to America's Dropout Epidemic.'' For further 
information on this report, view it on the Web site at 
www.cisalaska.org, under What We Do/Results.)
    Organized in 2003 to serve at-risk students in rural Alaska, CIS of 
Alaska is founded on the recognition that most students who drop out of 
school are dealing with a variety of obstacles that present barriers to 
their education, and that only a few of these are school-related. Most 
stem from overarching family and community issues like poverty, alcohol 
and drugs and violence. We recognize that numerous public and private 
services already exist in our communities to help children and their 
families overcome these obstacles. However, given the difficulty of 
deciphering the maze of resources available, and, the time and 
transportation necessary to reach them, services are nearly 
inaccessible for those children and families who need them most.
    We are not another social service agency. We broker and mobilize in 
an effective and coordinated way, EXISTING community services through 
the schools. Through school-based affiliate programs and statewide 
initiatives, CIS of Alaska is creating a network of social services, 
businesses, community resources and volunteers that work together to 
break down barriers to ensure even the most vulnerable of our children 
have access to these basics and core needs.
    CIS of Alaska also provides a cutting-edge, distance learning 
Career Exploration Opportunities (CEO) program (aligned with State 
Educational Standards), targeted at rural high school students. CEO is 
a blended learning program, combining videoconferencing and Internet 
connectivity. Alaskan business executives interact with students face 
to face via the videoconference twice each month, providing students 
with information regarding careers and preparation beyond their 
communities. Students are focused on the 16 High Needs Alaskan Career 
Clusters including resource development (oil industry), construction 
trades, technology, health service and others. They learn about 
opportunities, career preparation and application/interviewing skills. 
Students are also responsible for job shadows, career projects and 
presentations and developing leadership skills.
    Additionally, CIS of Alaska works in a coordinated effort with Best 
Beginnings and partners with the Dollywood Foundation to facilitate 
replication of Dolly Parton's Imagination Library to interested 
communities statewide. [Best Beginnings has evolved from the Alaska 
Ready to Read; Ready to Learn Task Force.] As you may know, the 
Imagination Library Program is an early literacy program that puts 
quality, age-appropriate books directly in the hands of our children 
ages birth to five and their families across the State.
    With CIS of Alaska sites in Bethel, Anchorage, Mat-Su, Nome, and 
Juneau, we are making remarkable progress in positively affecting the 
high school dropout rate. With greater support, evidence demonstrates 
that this success can be implemented across the State.
    Consider the following specific examples of our programs and 
results.
    Last year, the CIS of Alaska network served 5,279 children/youth.

    <bullet> CIS of Bethel is working with the District Court, the 
community of Bethel and its neighboring villages to address tremendous 
issues with underage drinking.
    <bullet> CIS-Juneau has been operating a very successful care 
coordinator program that provides at-risk students with needed services 
to help them stay in school. Since the inception of the program 2003/
2004, we served over 500 students through 2007/2008. Ninety percent of 
our students are Alaska Native. Of those students, less than 5 percent 
dropped out of school. The program works!
    <bullet> CIS of Mat-Su referred to the Mat-Su Day School's 
Alternative to Suspension (ATS) program. Last year, 31 students were 
referred to CIS/Mat-Su Day School's Alternative to Suspension (ATS) 
program due to long-term suspension or expulsions--of those, 27 
students enrolled. Of the suspended or expelled students who enrolled, 
only 2 dropped out. This group of 27 is at very high risk of dropping 
out of school. We were successful in helping them continue their 
education and worked to transition them back to their boundary school.
    <bullet> Reading is fundamental. Dolly Parton's Imagination 
Library, an early prevention program to combat illiteracy, started with 
a pilot program in Nome. The Nome elementary principal stated that 
children were reporting to Kindergarten unprepared, especially in the 
area of reading. The program quickly spread to Juneau who has signed up 
over 600 children where there are 2,000 additional children eligible 
but lack of funds has slowed signups. Wainwright, Wrangell, Ketchikan 
and Fairbanks also have active IL programs with Mat-Su, Mt. View, 
Petersburg and Girdwood poised to come on line. Statewide, almost 4,000 
children birth to five are enrolled, including the First Family's 
newest addition, Trig Palin. A recent survey (in Juneau) saw the number 
of parents reading to their children jump from 50 percent to 75 percent 
in 1 year! The Imagination Library is a proven effective program that 
helps children start school ready to learn.
    The Imagination Library has been adopted by Best Beginnings as a 
component of their early learning program, and CIS of Alaska is excited 
to be working in alignment with Best Beginning to expand the great work 
accomplished to date. Tennessee has implemented a statewide Imagination 
Library initiative through their Governor's Books from Birth 
Foundation. Results are showing clear improvements in the average 
scores of pre-K and kindergarten children whom are enrolled in the 
Imagination Library, including increases in reading skills, speaking 
skills, thinking skills, and social skills, as compared to the non-
enrolled children. Based on results to date, the belief is as more 
children are enrolled in the Imagination Library at the earliest 
possible opportunity (ideally at birth), the abilities gained from 
participating in the program, already apparent in their 2007 findings, 
will be ever more noticeable. (Source: Impact of Tennessee's 
Imagination Library on Pre-K and Kindergarten Students from a Fall 2007 
Survey of Teachers Administered by the Tennessee Board of Regents.)
    For as little as $30/year per child, we could be making remarkable 
progress in engaging our families to better prepare our children to be 
ready to learn and be successful in school.
    <bullet> CEO (Career Exploration Opportunities) has grown this year 
to 8 different school districts and 12 school sites across the State 
and has served nearly 400 students (predominantly rural youth) since 
coming under the umbrella of CIS of Alaska in 2006.

    Communities In Schools of Alaska is focused on the priorities of 
the Federal and State Government: Education, Literacy, Graduation, and 
Career Readiness. CIS of Alaska is making a difference.
                iv. how the federal government can help
    Our dream, our call to action, is to formulate support to implement 
the CIS model and provide a ``drop-out prevention specialist'' in every 
school in Alaska; whereas, children's needs can be met to help keep 
them in school and teachers are free to teach and children are present, 
in a viable State to learn, are motivated to stay in school through 
graduation, and are ready to pursue the immense career opportunities 
Alaska has to offer them.
    CIS brokers existing services and resources, saving valuable 
dollars while improving efficiencies of delivery of services to 
children and youth. While we do not yet have numbers for the present 
year, during the 2007/2008 year, in just five sites, our minimum 
leveraged services and resources estimated $1,476,459. In-kind 
contributions in revenue from other sources (last year) were 
approximately $882,000. The amount of dollars for support is very small 
when compared to the successful outcomes it provides and the resources 
we are able to leverage!
    Support by the Federal (and State) Government will allow us to 
expand our existing sites and offer the opportunity for many more 
communities, especially rural communities, the ability to experience 
the positive outcomes we can provide for youth.
    We have a program that has proven success in preventing dropouts. 
For every dollar invested, through building collaboration, brokering 
services and leveraging community assets, CIS of Alaska adds value to 
build return on investment.
    Dollar for dollar, CIS of Alaska offers the right investment in our 
children's future. We look forward to partnering with you, doing what 
we do best; connecting the dots, coordinating and leveraging existing 
resources to keep youth in school and prepare them to succeed in life.

    Senator Murkowski. Thank you, Tom. Appreciate your 
leadership there.
    Well, we are scheduled to wrap things up, believe it or 
not, at noon, and it's almost a quarter of, and we haven't even 
gotten to the discussion. I'm prepared to stay here all 
afternoon. I don't know about the rest of you. I don't know, 
Carol, how long we have the building for, but for those of you 
who were going to stick to a schedule, you can move on out when 
you need to. I would like to go over our time, if that is 
acceptable with our panelists here. I apologize that we ran 
late, but I didn't want to cut any of you off. I think the 
information that we're gathering here today is important, and I 
appreciate the opportunity to listen to you.
    I'd like to note that we have with us this morning Senator 
Bettye Davis, who has been, long, a leader in education policy 
in the Legislature. I think I also saw Peggy Wilson in the 
back, Representative Wilson, from Wrangell. I'd invite both of 
you to join me up here at the dais, if you'd like. You get a 
better view of what's going on. If you wanted an opportunity to 
ask any questions, I'm certainly eager to have my colleagues up 
here. I don't know whether Representative Seaton is here also. 
He was--I know he was at the summit yesterday. Again, I'll 
extend that offer. If you're comfortable in your chairs--I 
don't see any takers, but thank you for being here.
    [Laughter.]
    I've got tons of questions that I want to ask, and I'm just 
not even certain where we would begin. I think what I'm going 
to do is direct a question to you, Dr. Smink. I know that your 
schedule doesn't necessarily allow you to be with us all 
afternoon, so after you field my question, if you need to sign 
off, we certainly understand that. It's a question that I will 
make available to the rest of you, as well.
    You've recommended to the State that we review, at the 
State level, certain policies that may inadvertently be pushing 
our students out of schools. Can you identify any specific 
policies that you feel may actually be counterproductive? Are 
there counterproductive policies that we need to change at the 
Federal level--for instance, within the NCLB statutes? We 
mentioned some of the successes, and you always want to 
highlight the successes, but, on the other hand, if we have 
policies in place that are not helping us, are not helping our 
students, we need to look to eliminate them. Can you identify 
anything in that area?
    Mr. Smink. Well, there are a few. One of the areas is in 
the area of accountability. One of the areas of most difficulty 
for all of us is to have some universal accounting. Now, 
hopefully, what Secretary Spellings did a few weeks ago will 
help us put it in the proper direction. However, within that 
announcement, she did offer some variability for additional 
years, whether it be the summer or whether it be an additional 
1 year, or a case could be made for--by any State--for adding, 
not only the fifth year, perhaps the sixth year. If that's 
allowable--and I'm not so sure whether it should or shouldn't 
be--it almost puts us back to where we were, years ago, where 
you had this waiver going away from a 4-year graduation rate. 
We also know that some youngsters will not graduate in 4 years; 
they may need the summer, they may need the fifth year. That's 
going to be a tough decision for us for the foreseeable future.
    Another area, particularly at the State level, is the 
notion of accountability among the LEAs, among the local 
education agencies. Even if there were a Federal statute, and 
even if there were a State statute, local school districts may 
not have the resources for proper accounting. That's very 
difficult, and particularly in the area of expulsions or 
suspensions or even attendance and tardy. Now, they're very 
critical issues that a State may have a regulation on, or a 
local school board may have a regulation on, and they tend to, 
quote, ``push kids out of school.''
    The area that probably bothers local folks more than 
anything are the different variables on grading. There may be 
some local provisions that, if you make a 60, or whatever 
grading policies there is, you're going to fail that course. 
That's very difficult to get universal use, whether it be in a 
State or even at the Federal Government.
    These are just among some of the very issues that are very 
critical to local administrators on, How do they put together 
the plan that has some accountability with equal standards, not 
only across each State, but across even every district as--How 
do they maneuver that?
    There was one other area that I think Dr. Cashen and I 
talked about. I'm going to let him share it with you for a 
moment, because we think it fits into this category also.
    Mr. Cashen. Are we down here, Jay? Is this----
    Mr. Smink. Well, it's the notion of zero tolerances. This 
has been an issue of, How does the school handle zero 
tolerance? Whether it comes out of Federal legislation or State 
legislation or local policies, where is that defining notion 
between, When do you expel or suspend a student on the notion 
of either drugs or weapons? I appreciate the notion of zero 
tolerance; but, if you do ask a student to leave school, 
suspended or expulsion, what do you do for them? That's an 
issue that is extremely important, because if you do nothing 
for that youngster, that person is clearly going to be a 
dropout and clearly going to get in the law enforcement and 
every other social agency for the rest of their life.
    I'm not suggesting that we don't have a zero tolerance 
policy, but what I'm suggesting, that, when that student is 
asked to leave school, that there be some provision for their 
continued education once they leave the official educational 
environment.
    There's some that local school folks, as well as State 
agencies are wrestling with on a continual time.
    The other area, particularly--and this is at the Federal 
level and at the State level--is the area of students with 
disabilities. The Federal agencies--and you well know this--
define ``students with disabilities'' in 13 different 
categories, and the dropout rates are rather significant, but 
they're not universal among all 13 categories. Some students 
need more assistance to stay in school than others.
    What we've learned from this--students with disabilities, 
and particularly from the Office--what's called OSEP, the 
Office of Special Education Programs, at the Federal level, 
their package of--and their group of centers, of which there 
are approximately 50 different technical education centers with 
different responsibilities, from dropout prevention to all 
aspects that serve students with disabilities--that's a 
wonderful model. One of the things that we can probably take 
some learnings from is to look how the OSEP, Office of Special 
Education Programs, and U.S. Department of Education, has 
packaged this array of technical assistance centers to serve 
students with disabilities. Perhaps we need something similar 
to that with our regular students, because if we don't serve 
the regular students, they're going to be dropping out, too. I 
think that's a model we may want to take a look at.
    Senator Murkowski. Let me ask you, Commissioner LeDoux, Are 
there any State policies or any policies that we have that you 
feel are pushing our kids out, that are counterproductive?
    Mr. LeDoux. Well, most policies are based on the local-
control school district. I think, particularly with discipline 
and maintaining safe environments, even some academic 
attendance policies can be used to invite students to leave. 
There is no typical student anymore. They don't look a certain 
way, a certain ethnicity or language. Successful schools are 
able to wrap the program around the needs of the child. When 
they don't do that, when they look at the student, and they 
apply the discipline without looking to the needs of the 
student, then you could lose them.
    To treat all children the same is to treat them unfairly. I 
think anytime we use any policy or procedure without looking at 
the individual needs of the student, we essentially dis-invite 
them.
    On the other hand, some things can't be allowed in the 
regular school. You can't tolerate harassment and violence 
against other students. There are alternatives for those 
students, that can allow them to be successful. They don't have 
to be thrown away, because, again, there are no throw-away 
students.
    I think that, as long as we're flexible, we look at the 
individual needs of students, and we hold them accountable for 
their actions--they go together--they can be successful.
    Senator Murkowski. Let me ask about the--just, the 
situation with the silos. There were several of you that--I 
know, Dr. Holloway, you certainly mentioned it, and--just, a 
recognition that in order to deal with the student as a whole 
person, and education as kind of the full spectrum. It's not 
something that--you have elementary, middle school, high 
school, college, vocational education, that there has to be a 
continuity there, there has to be an alignment, and our need to 
kind of break out of these silos in order to better address the 
problems that we're facing.
    Are we making progress? I'm going to pose it to you, Dr. 
Holloway, kind of speaking from the earlier years, and then--
and you, President Hamilton, because you've got the other end 
of that spectrum. What can we be doing better to deal with the 
fact that we have a regime or a structure that has typically 
not allowed for a continuation or better alignment is--
``alignment'' is the terms that you used.
    Dr. Holloway.
    Ms. Holloway. Well, I think the last 2 days were a good 
start, where we put so many different people together to talk 
with one another. I think we're going to have to do something 
more systemic, and that is to formalize some group of folks, P 
through 20, and begin the conversation. One of the pieces of 
research that we looked at really cautioned us, in terms of how 
to do that. It could become a very productive group, but it 
could be, also, a place just where people come and gnaw on the 
same issues over and over again. The recommendations are pretty 
strong that you need to start looking at policy and that you 
need to look at financial structures across those silos. When 
you do that, these kinds of conversations will help to break 
down some of those barriers.
    The other thing is that you need to look at the alignment 
of what we expect young people to know and be able to do. There 
is this huge gap between what young people know and can do when 
they leave high school and when they enter the workforce or 
whether they enter the postsecondary programs. All we need to 
do is look at the developmental courses. Sixty percent of our 
youngsters who enter college here take developmental courses, 
which means they were not prepared to take college courses. We 
can fix that through working together on the alignment. What is 
it that we are not preparing them to know and be able to do? 
Only through conversations with postsecondary people who teach 
those courses and secondary people who teach those courses are 
we going to be able to close that gap.
    Mr. Hamilton. Well, Shirley is absolutely right. It's one 
of the reasons that I've said I always have difficulty with 
this metric that says K through 16, K through 20, or whatever. 
Unless every piece of it is involved in every piece of it--this 
is why it's not a relay race. Everybody's got to be pulling 
together across the entire board.
    Let me just mention one thing, because so often we actually 
define a little fork in the road and we start talking about 
voc-tech. Let me pick on the Zach story for a moment, because I 
don't want this misunderstood.
    Here's my problem with the Zach story that you'll recall. 
To be accepted as an apprentice in the pipefitters union, Zach 
had to have a math resume that's about one math class short of 
what is required to enter as an engineering major at the 
university.
    My point here is this--because I celebrate Zach and his 
accomplishments, and I don't say that Zach should have come to 
the university--what I say is, if we don't understand this, we 
make voc-tech seem somehow to be less of a scholastic 
achievement. Fact: If Zach were not a good student, he would 
not be in the union.
    Voc-tech is not an alternative to scholastic achievement, 
it's another outcome of scholastic achievement.
    I tell people all the time--this is an important thing to 
understand--77 percent of the jobs in America do not require a 
4-year degree. Well, why would a college president tell you 
that? It's because a huge percentage of the 77 percent, about 
two-thirds of them, according to a national figure, whose name 
I can't recall at the moment--about two-thirds of those jobs 
not requiring a 4-year degree require some postsecondary 
education. Much of it is union. We work very closely with the 
union. But, I'll tell you, it isn't just going to college. We 
have a course at the university--of course, understand, we do 
embrace the community-college mission here; we're all one here. 
OK? We have a course that's called ``Math for the Trades.'' OK? 
These are individuals who have graduated from high school, who 
do not currently have the math skills necessary to enter into 
the trades. All of us, at every level--at the 4-year college 
level, at the community college level, at the union 
apprenticeship level--need the same level, or very, very 
closely the same level, of academic achievement. It's just a 
very important thing.
    Always, we make that, ``Well, you can go to the university, 
you can go to voc-tech.'' Well, if you trace it back down the 
pipeline, the skills are going to be very, very similar. There 
are some people who don't want to get a 4-year degree, but 
that--see, here's the horrible phrase. We've got to get this 
out of our vocabulary. ``College isn't for everyone.'' Stop it. 
We just need to stop that, dead. Because--forget about the word 
``college.'' It scares people sometimes and--postsecondary 
education is for nearly anyone. I mean, I'll just tell you, 
unless your goal in life is to be the head fry guy at 
McDonald's you're going to take some postsecondary education, 
to include, if, God bless you, you take--unions are a very, 
very technical, very difficult position, and I think we have 
missed, in America, this, kind of, generational gap. It was 
only one generation ago. Alaska is full of them, of great, 
vibrant individuals who came up here, got a tremendous job, 
made a good paycheck, absolutely fabulous achievement. But, 
their child can't do it with the same academic skill set that 
their parent was able to do it. We're miss--``Aw, come on, you 
know, Dad did a great job and, you know, college isn't for 
everyone.'' I'll guarantee you, Zach made a choice, because he 
had a choice. If he went into the pipefitters apprenticeship 
program--that is a smart young man with a whole lot of math 
background who could have done anything he wanted. And he did.
    Senator Murkowski. You raise an excellent point here about 
the need for rigor within the academic curriculum. If we kind 
of let our kids go down a track and say, ``Well, you're not 
meant for college''--and I agree with you, we need to rephrase 
that--it's not to suggest, then, that you can have a career in 
the trades and blow off, basically, your academic credentials. 
You've got to have those skill sets. And talking with those 
that are bringing together these in the apprenticeship 
programs, you do have the ability to kind of pick and choose 
between some young people that are able to make it because of 
the background that they have received in school, and then 
others, they just don't have what it takes to make it through. 
If we're letting them believe that, ``Well, if you're not on 
the college track, that you can go and get a job building our 
gas line,'' that's not being fair to them, because they--and 
this is where I think we need to make sure that our young 
people understand that, when you make that decision 6 days 
before completing your 10th-grade year, what that means to you 
as an individual and your options, moving forward. I'm not so 
sure that we're being as honest and as open as we need to be 
with them.
    Carl.
    Mr. Rose. Senator, I want to go back a little ways to your 
first question that you asked of Dr. Smink.
    How many of us would entrust our 16-year-olds to make life-
changing decisions? We have a mandatory-attendance law that 
says you have to be in school until you're 16. What is the 
message that that sends? They are prepared now to face the 
world, at age 16? I think we need to re-look at that. That's 
one of those inadvertent laws that pretty much give people the 
option to say, ``At age 16, I can make a choice.'' Many of them 
will make a bad choice.
    Two additional years of school could be the difference 
between whether they graduate or not. If it's not mandatory--
you know, right now we don't have the wherewithal to enforce 
truancy laws at 16. When you say ``16,'' you say, ``It's OK.'' 
The State says, ``It's OK for you to leave school.'' I don't 
think it's OK. I think we need to take a look at that.
    Another issue that we touched on is this collaboration 
across the spectrum. P through 20, for example. There's a lot 
of turf here, there's a lot of governance issues, there are 
going to be finance issues, there are going to be a lot of 
things that people say why you can't. The issue right now is, 
Why should we be looking at some sort of an effort that would 
coordinate?
    If you looked it up--at some sort of a council that would 
provide some kind of oversight, and you take some of the most 
influential people in your State and talk about what kids need 
from the very beginning through their entire career, to take a 
look at the gaps that may be there, and to make recommendations 
to school boards or the Board of Regents or whoever the 
governing bodies may be, I think there's some value there, 
because right now when we talk about silos, we operate 
independently, and what we need to do is take a look at--I 
mean, we're not here to operate our systems independently, 
we're actually here for the students that we serve.
    So often when you take a look at the statutes that we have 
to comply with, it's very easy for people to become distracted. 
We start to look at our work and some of the pressures that we 
face and the financial commitments that are made, and all of a 
sudden we're not thinking about kids anymore, we're thinking 
about our individual jobs, what we need to do to comply inside 
of our silos, and the people who really are not served are the 
students that we're all designed to serve.
    I think we need to consider--if we can't do this for 
ourselves, we should be working toward some sort of an 
overseeing council that would bring these issues to the 
appropriate decisionmaking bodies so we can deal with them.
    Last, one of the comments that came up, for young people, 
the lack of reinforcement of the options that are available to 
them, coming not just from schools, but from their parents and 
when you take kids who come from families or communities that 
are socially and economically challenged, they don't get the 
same kind of reinforcement that kids who come from educated 
parents, middle-class families, get.
    All of us have to take a look at what kind of options are 
available, because I do believe, even if you're a fry cook at 
McDonald's, you will receive some instruction on quality 
control.
    [Laughter.]
    All of us are going to receive some additional instruction, 
in whatever job that you take.
    I would encourage us to take a look at these things. Some 
of the things that we say and do in statutes--nobody intends 
for kids to leave school at 16. Well, why would you have a 
statute that said it was OK?
    Senator Murkowski. It's a message that is sent. When you 
talk about, just, the whole issue of relevance--``Why should 
I--why should I be--why should I stay in school? I've hit 16, 
you know, I've passed the high school exit exam, I've got other 
things that are distracting me, I'm not challenged''--we need 
to really look at the relevancy aspect of it.
    In this Wall Street Journal article that I mentioned 
earlier, the reason the article struck me was because it was 
entitled ``Mayors Go Door to Door,'' personally encouraging 
students to stay in the game for their own good and for the 
sake of the city. The U.S. Conference of Mayors was focusing on 
what's going on with the dropout rate throughout the United 
States. It was mayors in Houston, in Texas, Atlanta, Milwaukee, 
and Kansas City. I mean, they're literally going to the 
students' homes and doing a one-on-one intervention.
    You talk about, well, how can we be that community support, 
how can we make sure that, when you're making a decision, that 
you think, at 16 or 17, that you've had enough--how can we be 
intervening, how can we get these counselors in the school to 
do this intervention that we need to do?
    That's one aspect of the spectrum. My focus in just about 
everything that I do, whether it's healthcare or education, 
it's all about prevention, and it goes back to what we're doing 
early on, when you've got toddlers, when you've got kids that 
are, in 5th-grade, de-selecting their career choices. Let's 
talk a little bit about this issue of relevance and how we are 
better connecting with our young people.
    Throwing it out to you guys. Recognizing that we're well 
over our time limit already.
    Commissioner.
    Mr. LeDoux. Well, I would say--some have said that the new 
three R's are relevance, rigor, and relationships in schools. A 
lot of times, as we said before, kids leave school for a number 
of personal or family reasons, but many times the playground 
for them to explore their interests has gotten very small in 
school. There's not very many electives, there's very few 
career educational opportunities for them. The arts have been 
decreased in many areas so that the resources can move toward 
remediation so that they can meet the test score--because 
they're judged on their test score, not on the quality of what 
kids learn and what they're able to actually do. They're not 
completely coherent.
    The education program has to be relevant to the young 
people. They have to see that it has meaning with regard to 
where they're going and what they want to do. They don't know 
what they want to do, usually. They find that out through 
experiences, by talking to people, by having a relevant program 
for them to engage in. As I said earlier, many schools still 
award credit based on minimum competency, not really what they 
can do and how they can apply it. Some of the movements in 
standards-based education are demanding that kids perform; and 
if they can perform, they don't have to sit in the seat that 
long.
    I think we also need a very rigorous program that will 
demand excellence from students. We heard from the university 
earlier that they're very concerned that the entering freshmen 
do not have the math skills to pick the professions that they 
need. America and Alaska are losing our scientists and our 
mathematicians and our engineers, because we've actually 
never--until the study that was being carried out by Avant-
Garde, we really haven't looked at what we expect our high 
school students to look like when they graduate and what the 
college wants them to look like. We're now actually aligning 
those. We need the rigor. Young people can tell the difference 
between something that is--where they're held accountable and 
where they're not.
    I also would say that schools have to develop relationships 
to kids. Kids have to feel a part of something bigger. They'll 
pay any price to belong or be connected, and schools have to be 
places where kids can explore their talents, where they feel 
safe, where they're connected. This is where counselors are 
important, and teachers who actually take the time to work with 
kids.
    I might point out, though, that all three of these areas of 
modern school--rigor, relevance, and relationships--are 
severely challenged in rural Alaska. We have teachers that are 
responsible for teaching multiple-discipline classes in a 
single school site. While they work hard and they do a great 
job, kids would benefit from a teacher who has a major in math 
or science or history or social studies.
    Another area is the relevance. For many Alaska Native 
children, the curriculum is not related to how they learn or 
their knowledge base or their indigenous way of looking how 
information is passed on, so it's hard for them to connect with 
the relevance, and it's hard for them to have the playground, 
if you will, to explore their interests. They don't get an 
opportunity.
    Relationships are severely compromised sometimes because we 
have so many teachers coming and going in rural Alaska, that, 
just when the young people and their parents start developing 
meaningful relationships, the teacher leaves and another 
teacher comes in and they have to develop new relationships.
    As Alaska, we must find a way to increase our relevance, 
rigor, and relationships in all of our schools, particularly--
--
    Senator Murkowski. Let me ask you, Tina and Elizabeth--I 
mean, Tina, you spoke about literally feeling invisible. When 
you're invisible in a school, there is no relationship, and it 
makes you wonder or question the relevance of your being there. 
Elizabeth, you mentioned that, with other things going on, it 
just didn't feel like you needed to be there, so the relevance 
was lacking. So, how--if you care to comment on that aspect of 
it.
    Tina.
    Ms. Michels-Hansen. I'm just taking some notes here as 
other people are speaking. In a couple of things that come to 
mind is, we prepare ourselves, at CITC, right about this time 
of year, to see an influx of students come into the Anchorage 
area. I mean, it's been in the news, we've all heard about it. 
We've all either known somebody or heard of somebody who has 
moved into town, for a variety of reasons. I can tell you that 
one of the challenges with--when working with our students and 
their families, to help them keep the notion of education as 
central in their lives, and that it's just as valuable as their 
personal security is, they are--when you look at, you know, 
Maslow's hierarchy of needs, they are functioning right now at 
the basic level of survival. A lot of people have made the 
choice to move based on economics. If they are simply focused 
on--I shouldn't say ``simply,'' but if their primary focus, on 
a daily basis, is consumed and just, ``Where am I going to 
stay? Where's my next paycheck going to come from? How can I 
afford to keep the lights on and the heat on, let alone feed my 
child? '' you know, the idea of going to school and 
participating actively is really low in their list of 
priorities. That's the reality that we face, not just in Nome 
or Kwethluk or Anchorage or, you know, Klawock. It's across the 
entire State. It's a tragedy that's happening to our people.
    Another thing that I think we need to add, that I really 
don't hear much mention to, and we absolutely cannot turn a 
blind eye to it, is that we do have those high-functioning 
students out there. We have wonderful Alaska Native students 
who are participating in high-level math classes, pre-calculus. 
They're looking at trade, they're looking at high advanced 
biology classes. It's through small partnerships, like ANSEP at 
UAA, that we're able to build that. But, they have the sense of 
community, they know that it takes multiple people, multiple 
entities, and tons and tons of energy to make education 
relevant to our students.
    There's a story, though, that--and I'll make it very 
brief--that I want to keep in the back of your minds. The 
notion of prejudice is still very much alive, and it's very 
much alive not just for our Native students, but for our Hmong 
students, our African-American students. We lack, as a State, 
as far as our education system is concerned, in my personal 
opinion, a strong sense of valuing diversity. Our teachers are 
ill-prepared, when they come into the schools, to have a good, 
solid background in multicultural training and education, 
understanding. They have to complete a couple of credits. Well, 
that doesn't make it thorough, and it doesn't make it personal 
for them.
    We had a young girl--her parents called us the other day 
and said, ``You know, my daughter's not in your class, but I 
really could use your help.'' This girl was enrolled in a pre-
calculus class, and her test scores proved that that's where 
she belonged. She's a very motivated individual. She was on the 
right track for accomplishing the goals that she wanted in 
life. She entered into her classroom on day one, there were 
eight students in that class. The teacher looked at her, 
recognized she's the only person of color in the room, only 
minority within the room, pulled her out into the hallway and 
said, ``I'm sorry, but there must be some mistake. You can't be 
in here.'' What message does that send to that child, to her 
peers, to her parents, to her larger community, if our 
teachers, our professional educators, do not understand and do 
not accept diversity? Yet, they are persisting with the notions 
of prejudice.
    I didn't know what prejudice was until I came to college, 
because I grew up in a small-knit community, where everybody 
knew that I was part Inupiat, even though I didn't look like 
it. We were all related. Well, I came here, and the answer was, 
``How could you be Native? You're too white to be Native. 
You're too gussuk.'' It's not the color of your skin, it's the 
values that you hold inside, it's the relevance of things in 
life that make you who you are. We need to, not just as 
schools, but as every single stakeholder involved in education, 
prioritize the diversity, prioritize the diverse needs, and 
wrap around together to raise our kids up.
    Mr. Smink. Senator, may I add to the question about 
relationships?
    Senator Murkowski. Oh, I'm looking for you, Jay.
    [Laughter.]
    Yes, go ahead.
    Mr. Smink. OK.
    If you recall, near the end of my verbal comments and in 
the written testimony, we highlighted the value of home school 
liaison, graduation coaches, career counselors, etc. That was 
in direct response to the need for relationships that students 
who drop out tend not to have. These were solutions and 
strategies that we're seeing across the Nation.
    Let me reinforce that with one other notion, and that is, 
there is currently, in numerous States, the mandate for having 
an individual graduation plan which every--for example, South 
Carolina is just one of several States that are doing this--and 
every 8th-grade student must build, before they enter 9th 
grade, an individual graduation plan that says, ``I will select 
one of these 16 career clusters, and it will be my guideline 
for my course selections from grades 9 through 12.''
    Now, more importantly there, they are beginning to not only 
look at career technical education, that individual graduation 
plan must be discussed and signed by the student, the 
counselor, and a parent, or both parents. That's building a 
relationship between all three that is important. In some 
cases, they'll even invite in a business entity that may serve 
as an intern opportunity later in the high school career.
    There are even some school districts--for example, St. 
Paul, Minnesota--that has carried this notion of a 4-year 
graduation plan to 6 years, where the student will build not 
only the 4-year graduation plan for high school, but look 
beyond high school for the next 2 years, whether it be a 
community college or the first 2 years of a 4-year college. I 
think this speaks to relevancy in a little bit different way, 
but it reinforces the notion also of collaboration.
    Thank you.
    Senator Murkowski. Yes, I appreciate that input.
    Elizabeth, would that have made a difference for you? 
You're just about getting through 10th grade, if you had had 
some kind of a plan----
    Ms. Winkler. I believe that if I did have a plan, similar 
to what Dr. Smink was talking about, that I would have been 
more focused and understand that education is important. My 
father went to college, my mom was a civilian in the Air Force, 
but there wasn't very much talk of how important education was 
and what it could or couldn't do for you. I had a lot of 
misunderstandings about that as I was growing up, and simply 
didn't care.
    Where I come from--I'm around a lot of troubled youth that 
don't know where they're going in life, what they want to do, 
or how are they going to get there. Plans like that would, I 
believe, would really help, a lot of youth, a lot.
    Senator Murkowski. Dr. Holloway.
    Ms. Holloway. Well, I'd like to address the commissioner's 
``rigor,'' because, as you may recall in our written testimony, 
we stepped on probably something that would be one of those 
holy grails, Commissioner LeDoux. We suggested that we might 
look at national standards for reading, writing, and math. The 
reason is that we have every State spending lots and lots of 
money developing standards, developing assessments, and each 
State decides how good is good enough. Is there really a 
difference in how well we want a student to read in Kaktovik or 
the student in Biloxi? I mean, I really think, you know, who is 
benefiting from all of this are the testing companies. They're 
making out like bandits. That's money that could be spent on 
all of the things that we're talking about here, in terms of 
school improvement. I know the local control argument, but I'm 
only talking about those essential skills that every student 
needs in order to be a successful learner.
    Senator Murkowski. Let me ask a question, probably to you, 
Greg or Mike, in talking about the career training--the career 
and technical education aspect of it and the barriers, I think, 
that we have effective career training opportunities. You've 
mentioned--several people have mentioned Carl Perkins and the 
fact that, in many cases, people aren't even bothering, because 
it's just as difficult as it is, and it's basically costing you 
more to apply for it than you actually are able to receive. 
What other barriers do we have out there, when it comes to the 
career and technical education?
    I'd also like you to comment--Lamont Albertson, from The 
People's Learning Center, in his testimony, written testimony 
that he'd submitted, had suggested to me that expanding 
regional training centers would be a big part of addressing the 
high school dropout rate in some parts of rural Alaska. Can you 
speak to that as a suggestion, as well?
    Mr. Andrews. Thank you.
    In terms of the, let's say, barriers for career and 
technical education, things have changed over the years now. 
There is a blur between academic and career and technical 
education training. That's why I say it needs to be integrated 
back into the high schools, because more and more--there's more 
and more need for students to understand technology and science 
and math and other areas as it applies to work, and students 
are eager to learn that.
    It also takes more dollars to do that, because you need 
modern equipment, you need instructors who are up to date with 
industry standards and also academic standards. There needs to 
be a real strong commitment from the State or from the local 
education community. Let's say, for example, out in Mat-Su, 
where they bonded and created a state-of-the-art career and 
technical education high school. It's fabulous. I think we need 
one in every community, if we could, in the State, but that 
would take an awful lot of money and a lot of resources.
    We need more instructors--and that's why partnerships are 
working, because they're bringing in folks from industry to 
work with students after school over in the classroom, and just 
more and more of that effort.
    In terms of Perkins--and I'm no expert in Perkins; we've 
operated a few Perkins grants, etc; they're well-intended. 
Years ago, you could do a lot more with them, now they're very, 
very restrictive, and they're such an administrative burden and 
a reporting burden that that's why I'm hearing smaller school 
districts are opting out or joining with other school districts 
to try to get something that's meaningful and sustainable for 
schools, particularly in rural Alaska. I've been in former 
vocational education shops in rural Alaska that are now 
warehouses or offices. So, we need to sort of look at that.
    The other issue of expanding regional training centers in 
my view--people need a place to learn these new skills closer 
to home, so we have learned over many years of working with 
regional learning centers, that it's more cost-effective, it's 
more relevant for local folks to learn in their region, and you 
can do very good, intensive work, and--what you need is 
something that follows up behind that, like a job or continuing 
education, connection to a degree program with a university, 
such as with health, out at Yuut, etc.
    Each one of those, from my experience--and I've worked with 
most of them for a long period of time--is that they all are 
sort of different animals, they're different entities 
themselves. Some have great partnerships with school districts, 
some, based on the nature of their funding, may not necessarily 
have a great relationship with the school district, or there 
may be other, let's say, turf barriers or--particularly 
fighting for resources, because it is so tough to put together 
a building that's open and available for people, to keep the 
lights on and--there also are not any standards, that I know 
of, and I've been encouraging the Alaska Workforce Investment 
Board and the Department of Labor to look at this, that there 
needs to be some standards to say, What really is a regional 
learning center, what is a regional training center? Because 
there are some things that you have to have in a learning 
environment to make sure students are getting the information 
well enough to apply outside of school.
    I think that regional learning centers are becoming more 
and more relevant to the State, but I think that we still have 
difficulty defining them, and we don't have standards across 
them. I would encourage each one of them to be a center of 
excellence; for instance, where they could do construction 
truck driving and pipeline welding, or they could do health or 
other areas, so people from around the State, particularly 
rural students looking for those challenges, would go there.
    We also would like to point out that--in my trips to 
Galena, Mount Edgecombe, Sitka, and Chugach school districts--
we have fabulous statewide high school programs out there that 
maybe people don't know enough about. These students are high 
achievers, they do really well in those settings, and they 
choose to go to these places to learn. I'm just amazed, every 
time I stop by and talk to those students--high quality. So, 
they know what they want.
    Senator Murkowski. Yes, they are good.
    Greg, do you want to add----
    Mr. Cashen. Senator Murkowski, I was just going to mention, 
in a followup to Mike's discussion on regional training 
centers, the Department of Labor has been meeting with the 
regional training centers for about the last year and a half as 
part of our AGIA training plan, and there are strategic 
elements within the training plan that do address regional 
training programs and regional training centers. The one thing 
that we need, of course, is additional funding. That was part 
of our appropriation request last special session, to fund our 
AGIA training plan, which regional training centers were a part 
of.
    I agree with Mike, we need to ensure that we don't have 
redundant programs somewhat throughout the State, and more of 
the centers-of-excellence model, focusing on certain programs 
that each school can conduct efficiently, like diesel mechanics 
or commercial drivers licenses or welding or electrical work, 
carpentry, etc. But, we are working with Mr. Albertson and 
Yuut, as well as SAVEC and Alaska Technical Center and Galena 
and AVTEC, as well. Thank you.
    Senator Murkowski. We are well over our time here today, 
but I want to make sure that everybody feels like they've had 
an opportunity to say that one thing that's just been burning 
inside you and I haven't asked you the question or I skipped 
over you. Tom hasn't had an opportunity on the hot seat at all 
to talk about some of the wrap-around services. You don't have 
to add anything as, kind of, your final wrap-up, but I give you 
this opportunity.
    Tom, I'll start with you first to see if you've got any.
    Mr. Morgan. Thank you, Senator. Time is such a valuable 
commodity, I'm sitting here, and I'm thinking, ``Gee, what 
could I possibly say that would add to what has already been 
put forward.'' I'd be remiss if I didn't also acknowledge and 
say thank you to Senator Bettye Davis for all that she has done 
for this State and certainly for education. Senator, thank you 
for that.
    I'd also be remiss if I didn't acknowledge that a couple of 
hardworking volunteers are making time to be here today, and 
that's a couple of my board members, Bobby Olsen and Sue 
Hennessy.
    Seated directly behind me is the superintendent from Mat-
Su, Dr. George Troxel, and Lucy Hope, the director of student 
support services, one of our affiliate sites. They get it. 
Maybe that's the glue I was talking about. They get what 
Communities in Schools can do.
    I'm actually emboldened by the comments today, because I 
walked in here thinking, ``OK, we just came off a 2-day 
education summit. What else can we say to build upon that? '' 
I'm thinking, you know, and I'm getting raspy-voiced because 
we've been saying a lot over the last 2 days, and a lot of good 
things, but I really believe more strongly now--and Dr. Smink 
has said it, too--Communities in Schools, agencies like ours, 
models like ours, they work. As the two folks here have said, 
we can't allow people to drop through the cracks, we can't 
allow invisible students there. We have the resources at our 
fingertips to bring to bear and help these folks. We can do 
that. We can't rely, and we should not rely, just on the 
education system to make that happen. They're busy doing a lot 
of other things that we've asked them to do. As a taxpayer, 
that's what we're asking that they do.
    We can do more with less with the existing resources. Give 
us an opportunity to do that. Today is one of those 
opportunities.
    Thank you.
    Senator Murkowski. Who else wants to add their final 
thoughts into the mix?
    President----
    Mr. Smink. Senator----
    Senator Murkowski [continuing]. Hamilton.
    Mr. Smink [continuing]. Senator, whenever you're finished 
there, I'd like to add one example of some of the things that 
we've been doing. You can go on with your other guests there 
and save me for later, whatever your timing is.
    Senator Murkowski. Dr. Hamilton.
    Mr. Hamilton. Just one quick note, that we didn't mention 
that is a real obstacle in dealing with all of these issues 
that we've discussed, is this notion of equity. I mean, there 
are circumstances that exist in Alaska that are extraordinarily 
difficult to overcome. Larry mentioned the importance of having 
a teacher with a degree in the discipline taught. That would 
quite literally result, in several cases of Alaska, of having 
more teachers than students. Clearly, it's not going to ever be 
done.
    I think maybe one of the biggest ones, and maybe there is a 
Federal piece of this, it's this huge and growing bandwidth 
disparity. In Alaska, the famous ``last mile'' is 500 
kilometers long. Until we can get connected and be able to 
maybe distribute or redistribute existing materials, existing 
experts, and really take advantage of what bandwidth can 
ultimately do, that gap will just simply continue to grow. 
Maybe it's possible to do something in this extraordinary 
circumstance. We have to modify some existing E-Rate things and 
the like. I mean, for instance, the university can't use E-
Rate. I understand that. I understand why that's a good one-
size-fits-all. When the last mile is 500 kilometers long, maybe 
we ought to take another look at that. We could reach people in 
existing bandwidth that we're not allowed to in this.
    Senator Murkowski. It's an excellent point, one that I've 
had an opportunity, speaking with folks up north at Ilisagvik 
College, recognizing what that could do for them and their 
ability to provide for greater levels of communication and 
teaching.
    Let's go to Dr. Smink, and then we'll come back to you, Dr. 
Holloway.
    Mr. Smink. Thank you, Senator.
    We completed, 2 years ago--the National Dropout Prevention 
Center, in collaboration with Communities in Schools 
headquarters--we completed a year-long significant study on the 
risk factors that we know are found with students and with 
families, that--in fact, there were 25 of those risk factors of 
why youngsters drop out of school. The good news, we can define 
those, and we know that. We can design intervention programs to 
address those. And we do that, also.
    Let me share with you an experience that I had yesterday 
illustrating the point that community involvement and 
collaboration is extremely important.
    Knowing that information, I was in the meeting yesterday 
with hospital administrators, and we posed the problem to them, 
as, ``How can you be a better collaborator with educators on 
addressing this issue of dropouts? How can you make people more 
aware of the issue? How can you gain parental support, etc.? '' 
Again, the question was addressed to hospital administrators. 
Now, what I want to share with you is some of their ideas, 
which reinforces the notion that collaboration, beyond the 
school walls with just school staff, is important.
    They offered--what an opportunity for a new mother, usually 
in a hospital, to provide that new mother with a package of 
materials that would help that mother and parent be better.
    For example, we know kids drop out of school because of 
nutrition. What a wonderful time to give them some information 
about nutrition, that new mother, and what they need to do with 
the baby.
    We know that kids drop out of school because of drug abuse 
and because of shaken-baby syndrome and others. What a 
wonderful opportunity to give that new mother some information 
about, ``Please stay off drugs, as a mother.''
    Also, we know it's important that a youngster be read to, 
even before they get to first or second grade. Literally being 
read to during the first 36 months of their life. What an 
opportunity to tell that mother about the value of that, and 
give that mother some reading materials.
    I could go on with health prevention. I could on with ways 
that a mother--a new mother, or a father, could give support to 
that youngster.
    What I'm trying to illustrate is that community 
collaboration for awareness and increasing the level of 
education, value in education, is important.
    Furthermore, the administrators reminded me of a school, 
that I was familiar with, where the superintendent of a county 
school district sends one of their staff-persons to every new 
mother and gives a mother a package of information, much like I 
just said, including a certificate for a seat in the graduating 
class 18 years down the line. Doesn't that send a very powerful 
message to that mother? That illustrates the notion of 
community collaboration with groups that are not normally in 
our array of relationships as educators.
    I simply close with that to let you know that, yes, kids do 
drop out of school, but they drop into the community, and the 
community has to be a part of jointly understanding it, but 
also jointly putting together interventions that work with our 
youngsters who are struggling to stay in school.
    Again, I'm going to close by just thanking you for the 
opportunity to be with you today, and I welcome being with you 
more as you pursue this particular committee or other 
activities at the Federal level or at the State of Alaska 
level.
    Thank you very much.
    Senator Murkowski. Thank you, Dr. Smink, and we look 
forward to working with you. Both my office, most certainly, 
and, I'm sure, many who are in the room here will be seeking 
your advice and counsel.
    I think it's a great reminder--you're dropping out of 
school, but you're dropping into the community. Talk about 
responsibility. That's a keeper that we can use repeatedly.
    Dr. Holloway.
    Ms. Holloway. Well, I want to thank President Hamilton for 
bringing the technology issue up, because many of the 
innovations that we're a part of really are using technology to 
make it happen. It's really critical to some of the exciting 
things that we're able to do. One of them has to do with the 
virtual high school and how, through a virtual high school 
program, you can have them drop back in.
    The virtual high school doesn't have to be done by the 
school, it can be done in a community center, it can be done in 
the Boys and Girls Club, it can be done in lots of places. We 
have lots of examples of bringing young people back in to 
prepare themselves for work or additional training.
    So, I think that this piece is so critical. Our teacher 
initiative, our Alaska Native Teacher Initiative, is all being 
delivered by distance. Having the high-quality technology is 
critical to the success of that program.
    So, thank you very much. It's been a wonderful day. I've 
learned a lot from all of you, and some wonderful ideas that I 
hope we can continue to talk about in our P-20 council.
    If I may, Senator Murkowski, I'd like to introduce Don 
Shackelford. He's sitting behind me. He's my colleague in 
Avant-Garde, and does a lot of work. We're just pleased to have 
been part of this.
    Senator Murkowski. Well, thank you, we appreciate it.
    Welcome to you, Dr. Shackelford.
    Commissioner.
    Mr. LeDoux. Thank you, Senator Murkowski.
    I just want to say thank you to all the many wonderful 
educators, teachers, and principals, who are heroes every day 
across Alaska. Many kids are graduating because of superhuman 
efforts in time and compassion and hard work.
    While, many times, when we focus on what needs to be done--
and we should, we should always go looking for the ones who are 
lost--but, we have so many wonderful assets in Alaska that are 
producing outstanding graduates who are successful all over the 
country, who are leading--I believe you're a graduate of an 
Alaska institution, as am I and many in this room, and I am 
proud to be an Alaskan educator. I think we are up to the 
challenge.
    When those people came by, the last 2 days, to try to build 
a plan, they left behind their interests, the organizations 
they worked for, they rolled up their sleeves and were 
committed to, not only respond to the challenges that we see 
right now, but to look to the future to see the challenges that 
our kids are going to have to face, and to predict what we're 
going to do. They paid their own way there, they put themselves 
up. It reflects incredible interest in the kids and the success 
of Alaska.
    As we talk about all the challenges, I just want to 
recognize that we are where we are because really great people 
are working hard all across Alaska--not just teachers; 
communities, politicians, leaders throughout the State. I'm 
proud to be an Alaskan, and I'm proud to be an educator.
    Senator Murkowski. Well, we thank you all. It was 
wonderful.
    Yesterday, I got off the airplane and went over to the 
Dena'ina center just as you all were breaking, and I kind of 
figured I would be looking at some draggin' individuals after 2 
days of a real intense conference. What I saw were smiles and a 
level of energy and enthusiasm and, you know, ``We've got work 
to do, but we're going out there and we're going to make it 
happen.'' I think that's certainly a reflection on those of you 
who kind of led the agenda with a positive outlook as to how we 
confront our challenges and view them as opportunities. These 
kids that we're all working for, this is what should be getting 
us all up in the morning and getting us energized.
    I think it's so important for us to recognize that it's not 
just the teachers, the administrators, those within the 
schools. Each and every one of us has responsibility for the 
children that we encounter, whether it's somebody's kid that 
you know at work, somebody in your church, the families that we 
have around us, or the kids that we have around us. We should 
all be looking to see what we can do to provide for that level 
of encouragement, to make sure that no child feels like they 
are invisible within their school or within their community. To 
just accept responsibility for my own children is not 
sufficient, it's not right. That's what we're all doing here 
together.
    Now, I didn't want to do any closings here, but I wanted to 
make sure that anybody that had a final opportunity to speak up 
has their final chance.
    Mr. Morgan. Yes. Senator, I have an alibi. I learned that 
in the Army ranks--thank you, General Hamilton--that when you 
forget something, you just say, ``I have an alibi.'' So, I have 
one.
    [Laughter.]
    Dr. Smink reminded me about hospitals and other groups and 
roles that can be played. One of the programs we got involved 
in, going statewide here, and hopefully we can go statewide 
with it, is the Dolly Parton Imagination Library Program. It's 
one of those programs that doesn't try to be more than it is. 
It says that putting books in the hands of children at an early 
age, birth to 5, is a good thing. If we do that, that's when 
they're sponges, they're going to really learn, and it has all 
kinds of add-on types of pluses.
    We started pilot programs in Nome and also Juneau, 
Fairbanks, and just--in Juneau, for instance, Bartlett Memorial 
Hospital actually has signed on, and they foot the bill, sign 
up every child born that wishes--their parents wish--to be 
enrolled in the Imagination Library Program from day one of 
their birth to age 5.
    There are other agencies standing by, ready to do that. 
Lucy, I mentioned earlier, is working with a hospital out in 
Mat-Su. It's just a matter of having enough time in the days.
    Again, it's another way that other entities, other 
agencies, other resources can come to bear to help in the 
overall process, and that is to provide good opportunities for 
our youth.
    Again, thank you for the opportunity to be here.
    Senator Murkowski. Thank you.
    I want to thank you all. You have overextended. We greatly 
appreciate that. I appreciate you taking your time on a 
Saturday. I think we all recognize the importance of what it is 
that we are doing, the work that we have in front of us.
    We are going to be working, back in Washington, DC, as we 
go into a new Congress, to try to focus on this dropout piece 
and how we can better address it. We need your input, we need 
your help. So, on this Saturday afternoon, I'm giving you all 
assignments. You've got homework. I need you to work with us as 
you develop some of the ideas, at the very local level, at the 
State level, within all aspects of what it is that we do. Let's 
really be partnering on this. Let's not just talk about 
breaking down the silos, let's be working together.
    When I extended the invitation, to our legislators that are 
here, to be part of this--I mean, we've got to kind of put 
aside everybody's hats and titles and areas of jurisdiction if 
we're really going to be providing for a full alignment for 
these kids. They don't care whether it's a Federal issue or a 
State or whether it's something that happens within the private 
community. All they know is whether or not they are feeling 
loved and respected and feel like they have a sense of self-
worth and something that they can contribute. So, it's our job 
to kind of put it all together. Let's be really working on 
this. Help us with this, back East, and we will help you with 
it here in the North. So, we'll keep working.
    I appreciate, so much, the passion that you all clearly 
have for our greatest resource, which are our kids. So, we'll 
be working together.
    And, with that, we stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

   Prepared Statement of LaMont Albertson, Executive Director, Yuut 
           Elitnaurviat--People's Learning Center, Bethel, AK
    Here's basically what worked for us in Aniak in years gone by and 
what will work throughout rural Alaska. Note that I do not distinguish 
between native and white students. If the Caucasian students in urban 
areas were exposed to the same stultifying NCLB curriculum as our rural 
high school students, the dropout ratio would be no different, 
regardless of race. There is a fundamental inequality of educational 
opportunity in rural Alaska as contrasted with what exists in urban 
Alaskan communities.
    Depending on the parameters of your research, it can be argued that 
the rural/urban effort by the State is equal but even that argument is 
reduced quickly to a comparison of apples and oranges to the informed 
observer.
    The most critical element in keeping our rural students in school 
through high school graduation is an appropriate curriculum which 
should include a broad swath of vocational, hands-on type courses open 
to both female and male students. Those courses should be available to 
the academically oriented student as well as those interested in 
focusing on the vocational crafts. And those vocational crafts should 
not be just for the construction trades. They should include broad 
health career and home trade training as well.
    Second, principals need to be conditioned to expect students to 
stay in school and not buy into this growing tendency on the part of 
rural educators to accept a high dropout rate as being an acceptable 
norm. Principals, school district personnel, and rural university 
campus staffs need to work in concert with their community and tribal 
councils to establish common goals fashioned to discourage student 
dropout. The role of the individual principal should not be 
underestimated in its influence on whether students stay in school or 
choose to dropout.
    Counselors should be used extensively to channel our students to an 
appropriate career choice. School districts should have full-time 
activity coordinators planning robust activities such as basketball, 
wrestling, X-country skiing, NYO, academic rodeos or even outside the 
school competitive engagements in subsistence activities. Students will 
not dropout when the show at school surpasses anything in town or the 
region for entertainment.
    To summarize, (1) curriculums have to be broadened both in their 
offerings and to whom they are open to, (2) principals, regional 
educational leaders and community leaders expectations have to be 
changed from the current acceptance of our dropout rates; principals 
should be working with families of/and potential drops on an individual 
basis (3) full-time counselors and activity coordinators need to be 
used to make our total school programs enticing, irresistible.
    These changes will cost money and require a recommitment, perhaps a 
rechanneling and configuration of the allocation of resources. But if 
reducing the dropout rate is our goal, these suggestions are proven. 
They have worked in the past and will still work if we will but put our 
resources where our stated intentions are. It has to be emphasized that 
funding to school districts has to be increased to appropriately 
broaden the curriculum.
    If broad, wholesale curriculum changes cannot be made in individual 
community schools, then we need to seriously consider using our new 
Rural Training Centers (RTCs) as vocational magnet schools. These 
institutions could actually prepare our students for the world of work 
and at the same time in concert with their respective school districts 
and our rural University campuses, address academic and developmental 
education needs.
    They could provide the necessary counseling and, most importantly, 
RTC's could be operated in conjunction with State of Alaska, DOL JOBS 
centers.
     Prepared Statement of Steve Atwater, Ph.D., President, Alaska 
                  Association of School Administrators
    Chairwoman Murkowski, as president of the Alaska Association of 
School Administrators (AASA), I respectfully submit this written 
testimony in response to your hearing on what the Federal Government 
can do to improve the high school graduation rate and postsecondary 
success in Alaska and nationwide. I feel that it is fair to state that 
all of Alaska's school districts are working hard to improve their 
graduation rates and are devoting more attention than ever before to 
help their students have success after leaving school. Thank you for 
considering this testimony; I know that Federal support plays a 
significant role in helping our districts' improvement efforts.
    Recent research on why students are not graduating from high school 
found that students are likely to stay in school when they feel that 
they are a part of the school community, understand that what they are 
learning is relevant and are challenged intellectually.\1\ I use these 
three elements as the basis for the following recommendations for how 
Federal support can improve graduation rates and student success after 
school.
---------------------------------------------------------------------------
    \1\ Stanley, K.R. and Plucker, J.A. (2008). Improving High School 
Graduation Rates. Education Policy Brief, Center for Evaluation & 
Education Policy, 7 (6), 1-11.
---------------------------------------------------------------------------
                     establishing school community
    Working to help students feel that they are a part of a school 
community includes a strong parental presence in the school and 
providing students with a variety of learning opportunities. While the 
engagement of parents in the schooling process is a local concern, I 
feel that Federal support of early childhood education can help to 
ensure that students are exposed to a comprehensive curriculum. For the 
past several years, the Lower Kuskokwim School District (LKSD) has 
studied their incoming kindergarten students' school readiness skills 
and then used this data to predict their future academic success. The 
district has learned that many of their students who enter school with 
low skills are never able to catch up and are by default, in jeopardy 
of not graduating. This situation is of course, not unique to LKSD; it 
exists in many of Alaska's school districts where there is a high level 
of poverty. Schools with students who fall into this category are 
forced into the predicament of offering this group a seemingly endless 
array of interventions, e.g., 2 hours/day of reading instruction. The 
downside of this is that school for these young children lacks much of 
what is important to early learning. In sum, when teaching the basics 
consumes the school day, there is little or no time for instruction in 
the arts. As a way to help avoid this scenario, the Federal Government 
can work to improve student readiness for school by increasing the 
funding for Head Start programs and by requiring that Head Start align 
its learning goals with those of the local school district. With more 
funding, Head Start can recruit a more qualified staff and offer more 
training opportunities for its employees. An improved Head Start 
Program would better prepare more of Alaska's and the country's 
impoverished children for school. This would help schools to avoid the 
limitations of the catch-up conundrum and in turn, contribute to 
establishing a positive school community that is an important part of 
helping students to stay in school.

    Recommendation 1: Support early childhood learning through 
increased funding for Head Start and/or other grants for preschool.
                           relevant learning
    While I know that all of AASA's members embrace the need for 
schools to be held accountable, I also know that few agree that the 
current practice of determining school quality on an annual test in 
math and language arts is appropriate. Due to the pressure for positive 
test results, many high schools are limiting course offerings in 
content areas with a real-life application, e.g., Career and Technical 
Education (CTE), to instead focus on language arts and math. The 
consequence of this approach is that students may deem school that is 
lacking in these courses to be irrelevant to their lives. It is ironic 
then, that a school's well-intentioned effort to make AYP may 
indirectly contribute to a lower graduation rate. A solution for how to 
maintain school accountability and also improve graduation rates is to 
allow and then encourage States to redefine their accountability plans 
to include assessments that test the application of work readiness 
skills. Alaska's Career Ready Certificate is an example of one such 
assessment that would serve this purpose. This broadening of academic 
focus could well help students to maintain their interest in school. A 
State's accountability plan with a tiered assessment system that 
measures academic basic skills for elementary students and applied 
skills for secondary students would cause schools to expand their 
curriculum offerings and thus help to address this oft-cited problem of 
school not being connected to real life.

    Recommendation 2: With the reauthorization of NCLB, allow States, 
as part of their accountability plan, to include an assessment of work 
readiness skills.

    Schools across Alaska are at varying stages of offering Career and 
Technical Education (CTE). As we plan for how best to prepare our 
students for a highly technical world of the future, it is imperative 
that we do more in the area of CTE. The Federal Government can help 
districts to expand their offerings and in some cases rethink what CTE 
can be, by increasing the Carl Perkins funding and relaxing some of the 
Act's compliance requirements. At present, most of the small districts 
in Alaska qualify for such a small amount of Perkins funds, that their 
impact is minimal.

    Recommendation 3: Increase Carl Perkins funds to help schools 
provide applied learning opportunities.
                         intellectual challenge
    When examining traits of the Kenai Peninsula Borough School 
District's dropouts, the district's administration was surprised to 
discover that many of this group scored at the proficient or advanced 
level on the State's required assessments. The cited research found 
this to be common among many of the Nation's dropouts. One can infer 
that these capable students are dropping out because they are 
disenfranchised with school and not because school is academically too 
difficult. The traditional way of accommodating such students is to 
offer an alternative or optional program places an emphasis on 
collaboration and projects. The Federal Government can help districts 
establish such programs through grants that provide the needed start-up 
money. Federal support should also be made available to support 
innovative programs that are helping students graduate and to then go 
on to college. Project Grad is one such program that deserves Federal 
money; it is having success with Kenai Peninsula Borough School 
District's students.

    Recommendation 4: Offer Federal support for innovative alternative 
programs that follow a rigorous curriculum.

    For the past several years all of us in education have heard that 
our high school graduates are not prepared for postsecondary schooling 
or for the world of work. Many of the remedies for this problem include 
implementing national standards with high quality assessments and 
making work readiness training a mandatory part of high school. 
Although these proposed solutions would likely raise the level of 
academic achievement and lead to more success for the entering 
workforce, they may not help the students who are at risk of not 
graduating. I believe that a way to both increase graduation rates and 
ensure greater postsecondary success is for schools to employ a more 
strategic use of technology. While the use of technology for school 
administration has blossomed in the past 10 years, I don't believe that 
the technological component of instruction has followed suit. That is, 
much of the use of this medium is little more than an electronic 
transfer of written information and not, as is needed in the world of 
work, a way to creatively solve problems. The Federal Government, with 
private industry as a partner, should offer schools a clear roadmap and 
support for how to train staff so that they are better able to teach 
problem solving with technology skills. With Federal guidance and 
continued strong fiscal support through the Schools and Libraries 
Program and other Federal funds, schools can realize this needed 
instructional improvement.

    Recommendation 5: Ensure that the Schools and Libraries Program 
funding is not reduced and provide grant monies for training teachers 
in how to provide instruction that utilizes innovative problem solving.

    In closing, I want to thank you for your past and on-going 
commitment to improving the education of our Nation's students. The 
members of the Alaska Association of School Administrators welcome the 
opportunity to work with you in pursuit of the goals of increasing 
graduation rates and improving postsecondary success.
       Prepared Statement of Diane Barrans, Executive Director, 
              Alaska Commission on Postsecondary Education
    Thank you for this opportunity to provide input relative to what 
the Federal Government can do to improve high school graduation rates 
and postsecondary success in Alaska.
    As you are aware, the Alaska Commission on Postsecondary Education 
(ACPE) is Alaska's State higher education agency, charged with 
increasing Alaskans' access to the benefits of higher education. To 
meet that mission, ACPE provides our State's citizens with 
AlaskAdvantage Programs, a suite of programs and services that provide:

    <bullet> Outreach to underserved populations, and early awareness 
of and preparation for higher education;
    <bullet> Financial aid for postsecondary education and training;
    <bullet> Advocacy for Alaska colleges and postsecondary career 
education opportunities; and
    <bullet> Education consumer protection through institutional 
authorization and consumer complaint investigation.

    The Alaska Student Loan Corporation (ASLC), a public corporation 
and instrumentality of the State of Alaska, finances these core 
programs and services which comprise the AlaskAdvantage Programs. By 
leveraging the receipts and income of this State enterprise agency in 
this way, Alaskans benefit from ACPE's services and programs without 
appropriations from the State General Fund.
    Through participation in the Federal Family Education Loan Program 
(FFELP), ASLC is able to further leverage its programs with Federal 
lender payments to offer Alaska's students the lowest cost financial 
aid packages in the Nation. In the 7 years since joining FFELP in 2001, 
ASLC has provided Alaska borrowers with over $21 million in cumulative 
education loan cost savings. Additionally, program economies of scale 
leveraged through FFELP participation allow ASLC to fund the 
AlaskAdvantage Education Grant program, which annually provides over 
500 needy Alaska students with grants of up to $2,000.
    Along with financial aid, ACPE offers outreach and early awareness 
programs and services intended to increase Alaskans' awareness of the 
importance of academic preparation and financial planning to ensure 
both access and success in postsecondary education. ACPE seeks to 
provide every State resident with informational tools to understand 
that postsecondary education is vitally important and possible for all 
Alaskans--regardless of their economic or social status.
    Most recently, when Alaska was faced with the loss of its Career 
Information System (AKCIS), ACPE was able to leverage ASLC resources to 
make this vital tool available to all Alaskans at no charge, including 
all teachers, counselors, and student mentors in Alaska. AKCIS is an 
interactive, Alaska-centric Web-based tool that ``connects the dots'' 
between academic preparation, higher education, and career success.
    There remains, however, much more to be done. Alaska has the lowest 
college-going rate among its youth of any State in the Nation; a high-
school dropout rate of 48 percent, and the second highest unemployment 
rate in the Nation among its high-school dropouts. Of even greater 
concern, the fastest growing population segments in Alaska are those 
with the lowest family income, lowest graduation and highest 
unemployment rates. Unless we take efficient, effective, and timely 
action, the demands on Alaska's social service and public facilities 
will take a tremendous toll on our State support infrastructure, 
especially during this time of nationwide economic retraction.
    To address this issue, ACPE commissioned a study by the Institute 
for Higher Education Policy (IHEP), and identified a three-pronged, 
cost-efficient strategy leveraging existing programs to create new 
partnerships and expand program reach. However, erosion of partnerships 
with Federal programs puts these opportunities at risk.
    The most important thing the Federal Government can do to improve 
high school graduation rates and postsecondary success in Alaska is to 
thoughtfully support state-focused programs such as FFELP that leverage 
Federal/non-Federal partnerships in ways that expand our joint reach 
without expanding our individual costs. Legislation and programs that 
recognize the value-added services of non-profit/state agency FFELP 
participation provide clear positives for our shared State citizen 
customers, allowing us to customize Federal program benefits to make 
them Alaska-centric and specific to our Alaska students' unique needs.
    I urge Congress to develop and support State-Federal partnerships 
which are inherently state-centric and flexible to ensure knowledge of 
local cultures and issues inform the design and delivery of services, 
but which are also accountable for demonstrating both efficiencies and 
effectiveness. State-Federal partnerships leverage the efficiency of 
national initiatives and apply that national agenda and model in ways 
that increase effectiveness by adapting delivery to the specific needs 
of each State's varied and diverse target populations. Specifically, 
Congress should provide assistance, relative to the current liquidity 
crisis, for state-based FFELP lenders, such as ASLC, that are committed 
to originating and servicing customers' loans throughout their 
lifecycle. This form of commitment to the students and borrowers we 
serve means that we may not sell these loans under the U.S. Department 
of Education's purchase program or any other.
    On behalf of the members and staff of the Alaska Commission on 
Postsecondary Education, I offer our thanks to Senator Murkowski for 
her efforts to address this critical State and national challenge.
       Prepared Statement of Debbie Bogart, Executive Director, 
                          Anchorage's Promise
    We believe that the issues surrounding High School Graduation Rates 
and Postsecondary Success in Alaska and Nationwide can not be 
successfully identified or addressed without first understanding the 
historical influences, cultural diversity and economic differences that 
impact the State of Alaska. These differences are deeply embedded 
within our communities and impacted by the services that our young 
people must receive in order to affect their ability to successfully 
engage socially, emotionally and academically.
    Children and youth who attend school hungry, without adequate 
health care, or the support of a caring adult are significantly more 
at-risk of failure. Research completed by America's Promise Alliance, 
Every Child, Every Promise, shows a strong correlation between children 
who experience what the Alliance calls the ``Five Promises'' and their 
ability to become successful adults. These Five Promises are caring 
adults, safe places, a healthy start, effective education, and 
opportunities to help others. Research shows that the more support 
youth have, both inside and outside the classroom, the more likely they 
are to stay in school. ``We must invest in the whole child, and that 
means finding solutions that involve the family, the school, and the 
community.'' (Grad Nation Guidebook to Help Communities Tackle The 
Dropout Crisis, 2008.)
    Investing in the whole child and providing support inside and 
outside the classroom requires that as a state Alaskans be allocated 
fiscal support, given dedicated staff time and guidance in strategic 
planning to develop a detailed understanding of why our students are 
dropping out. This includes building an even stronger alliance among 
educators, community-based program services, and postsecondary 
education to convey to our communities that the dropout crisis is a 
real and significant problem, one that affects the whole community, but 
it is solvable with sufficient community effort and foresight and is 
dramatically impacted through the support youth receive both inside and 
outside the classroom.
    The Alliance for Excellent Education reports that:

    <bullet> Approximately 4,100 students did not graduate from 
Alaska's high schools in 2007.
    <bullet> If Alaska's high schools graduated all students ready for 
college, the State would save almost $672 thousand a year in community 
college remediation costs and lost earnings.
    <bullet> The lost lifetime earnings in Alaska for that class of 
dropouts alone are more than $1.1 billion.
    <bullet> Alaska would save more than $57.2 million in health care 
costs over the lifetimes of each class of dropouts had they earned 
their diplomas.
    <bullet> Alaska's economy would see a combination of crime-related 
savings and additional revenue of about $19 million each year if the 
male high school graduation rate increased by just 5 percent. (February 
2008)

    Research is strong, to meet the needs of our young people, we can 
no longer work independently to address the issues that are surmounting 
and rapidly growing beyond the point of being out of control. As a 
nation and as a state, we must work together to identify and address 
the needs of our young people. We must work together to provide strong 
supports both inside and outside the classroom.
    Our ability to identify solutions and build successful partnerships 
between schools and community services can be accomplished through 
strong alliances, and with an adoption of a collective mission, one 
that is directed towards addressing the needs of the whole child.
    As an organization whose mission is to build on the collective 
power of local and State partners to align services for youth people, 
fulfilling the Five Promises, we are recommending that through Federal 
support, the following three focus areas could impact the lives of 
Alaska's young people and make a substantial difference in improving 
high school graduation rates and postsecondary success. These 
recommendations are substantiated through national research and through 
the collaborative work that our organization has been involved in 
locally and across the State of Alaska.
    Addressing the current level of Medicaid and SCHIP funding that 
Alaska receives. Moving forward not only in adopting new legislation, 
but increasing funding that would provide additional support to our 
State, providing medical coverage for children who desperately need 
health care. Currently, Alaska has approximately 18,000 children who 
are uninsured and another 22,227 who receive services through the State 
Children's Health Insurance Program (Denali KidCare). Across the 
Nation, 47 million Americans lack health insurance, 9 million are 
children. (Center on Budget and Policy, 2008). While healthcare 
coverage is a nationwide issue, it is an issue that impacts the success 
of each young person, and their ability to thrive and remain healthy. 
Without preventative care and health care coverage, Alaska's youth are 
at risk of failure physically, mentally and emotionally.
    Uninsured children are much less likely to receive treatment for 
easily curable conditions that can affect long-term health as well as 
performance in school.
    ``From 2006 to 2007, the number of America's children that live in 
poverty grew by nearly half a million. Indeed in 2007, the child 
poverty rate reached a level, 18 percent, not seen in this country for 
more than a decade. Furthermore, the number of children who live just 
above the poverty line (between 100 percent and 125 percent of the 
Federal Poverty Level) also grew by about 100,000 children from 2006 to 
2007. All told, last year more than 13.3 million children in America 
were living in poverty with an additional 4.3 million living just above 
the poverty line.'' (First Focus, 2008).
    Within the State of Alaska, 182,788 children, 11 percent, live in 
poor families with an average income of $21,200. Thirty-seven percent 
(21,484) of Alaskan children under the age of 6 live in low-income 
families and thirteen percent (7,712) live in poor families. Fifty-
three percent (29,464) of low-income families and seventy-eight percent 
of poor families are headed by single parents. Seventy-three percent 
(6,322) of children whose parents do not have a high school degree live 
in low-income families, while 36 percent are among poor families. 
(National Center for Children in Poverty, 2008)
    Current legislation and levels of funding both at the Federal level 
and within our State must be addressed. Additionally, access to health 
care, expansion of provider services, reimbursement of costs to the 
provider and out-of-pocket expenses expected by caregivers must become 
transparent and fluid to allow for greater coverage and access to 
health care for Alaska's children.
    Increasing the number of safe places our children and youth can 
access before and after school, during vacations and holidays. 
Addressing and solving issues that limited the amount of time local 
schools are open and available for community use, especially for 
children and youth. Every school day, when the last bell rings students 
are released back into the community. A far greater number of students 
are returning to homes without parent supervision, exploring unsafe 
places and engaging in activities that are poor choices.
    Research provided through the National Institute on Out-of-School 
Time, David J. Shernoff and Deborah Lowe Vandell State, ``We found that 
there were significant differences in the use of time and the quality 
of experience when students were at the programs compared to when they 
were elsewhere after school. While attending the programs, program 
youth reported spending a higher percentage of time in organized 
sports, academic and arts enrichment activities, and completing 
homework than when they were elsewhere. Students in other settings 
reported spending a good deal of time watching TV and eating or 
snacking after school. Students in programs rarely reported engaging in 
these activities. Students in other settings also reported being alone 
or in ``self-care'' a substantial percentage of the time. Not once did 
a student report being alone when at a program. (Youth Engagement and 
Quality of Experience in Afterschool Programs, Fall 2008). Engaging 
students in quality programs and services during the out-of-school time 
can have an even greater impact on the level of success socially as 
well as academically.
    In Alaska there are 633 licensed providers with 17,189 slots 
available for children birth to age 12. (Child Care Connection, 2008). 
Unfortunately, annual fees for full time infant/toddler care are 
$9,480, an increase from $1,780 since 2005. (Alaska Department of 
Public Assistance; Child Care Assistance, 2008) In comparison, the 
annual cost of college tuition for a full-time resident student in 
Alaska is $4,530 (University of Alaska Anchorage Web site, 2008). For a 
family of four with an annual income of $21,200, the cost of licensed 
day care will most likely require a caregiver or parent to stay at 
home, use an extended family member for support or even rely on an 
older sibling to provide care before and after school so that one 
parent family members can work when children are not in school.
    Afterschool programs provided by Campfire, Boys and Girls Clubs, 
21st Century Community Learning Centers, and faith-based community 
partners have increased the number of quality programs and services 
available for many of our school age children. However, there is still 
a great need for more options that are affordable and provide quality 
care. Through the support of local education, corporate, nonprofit and 
government partners we can address this need and provide integrated 
support and opportunities for our youth to succeed.
    In 1953, with the help of Michigan State University, a model we in 
Alaska and across the Nation fondly called ``Community schools'' 
quickly became the focal point for delivering a wide range of 
neighborhood services. Well coordinated and community active models 
evolved, that included providing opportunity for the entire community, 
not just the school and its after-hours recreation programs, to became 
a part of providing services for children, youth and families. This 
model was first brought to the attention of the Mott Foundation through 
a local educator, an individual who saw a need, at a time when--
economically--support for social programs, recreational services and 
extended education opportunities were not provided or even thought of. 
Often called the ``Founder of Community Education,'' Frank Manley was 
devoted to improving the quality of life for young people and adults 
through academic and recreational programs in schools.
    As an early change agent, Mr. Manley's work has continued to impact 
communities and citizen involvement. Utilizing public schools as a hub, 
community schools bring together many partners to offer a range of 
supports and opportunities to children, youth, families and 
communities--before, during and after school, 7 days a week. These 
partners work to achieve these results:

    <bullet> Children are ready to learn when they enter school and 
every day thereafter.
    <bullet> All students learn and achieve to high standards.
    <bullet> Young people are well prepared for adult roles in the 
workplace, as parents and as citizens.
    <bullet> Families and neighborhoods are safe, supportive and 
engaged.
    <bullet> Parents and community members are involved with the school 
and their own life-long learning.

    This past year, a Federal Act provided a limited number of grants 
to local partnerships, composed of local school districts and 
community-based organizations, nonprofit organizations, and other 
public/private entities, for purposes of coordinating at least three 
services at a school site, providing an exciting opportunity for those 
communities who received funding. Through expanded fiscal support, 
matched by both Federal and State dollars, communities across Alaska 
can work together to develop full service community schools that 
provide early childhood programs; literacy/reading programs for youth 
and families; parenting education activities; community service/service 
learning; job training/career counseling services; nutrition services; 
primary health and dental care; and mental health preventive and 
treatment services.
    Supporting legislation and increasing funding within No Child Left 
Behind increases meaningful opportunities for elementary, middle 
school, high school and college-age youth that enables them to link and 
partner within their communities through service-learning and community 
volunteer opportunities. Service-learning is a philosophy, a pedagogy, 
and a model for community development that is used as an instructional 
strategy to meet learning goals and content standards. It is a strategy 
that can be adopted within the classroom and in community-based 
programs such as Campfire, Boys and Girls Clubs, Communities In School 
and through the 21st Century Community Learning Center programs. August 
25, 2008--The National Youth Leadership Council released service-
learning standards that came from a nationwide effort involving input 
from key stakeholder groups, including teachers, service-learning 
specialists, policymakers, administrators, and students. They are based 
on a body of research from the service-learning, education and youth 
development fields. They offer educators, schools, and community 
organizations a guide to ensure that service-learning can achieve the 
academic and civic engagement outcomes that this powerful teaching 
method promises. The K-12 Service-Learning Standards for Quality 
Practice include eight standards that ensure high-quality service-
learning experiences for all involved--teachers, students and include; 
meaningful service, link to curriculum, reflection, diversity, youth 
voice, partnerships, progress monitoring and duration and intensity.
    Identify and define actions within language that can be interpreted 
and understood by all who are involved. The result of this will enable 
each community to rally around the issues that impact student success 
and will develop an understanding of the dimensions of the dropout 
challenges in our State. To develop an effective plan, one that will 
combat the high school dropout rates and prepare youth for advanced 
learning in and after high school requires strong partnerships, those 
that can make a lasting change.
    For example, the Five Promises are the framework that align with 
the 40 Development Assets and provide a common language that often 
connects with organizational goals and mission statements found in most 
organizations that provide services for children and youth. Safe 
places, caring adults, healthy future, effective education and 
opportunities to serve are easily understood and can be aligned 
collaboratively to build coalitions and partnerships.
    We can turn the trend if we remember that our communities are 
complex and diverse in social and economic representation, inclusive of 
different languages and level of education. Improving High School 
Graduation Rates and Postsecondary Success in Alaska and Nationwide 
requires the involvement of those who care about young people and are 
committed to helping make a lasting change.
    Daily in our work with community partners, youth, educators and 
families, Anchorage's Promise understands the value of working within a 
collaborative environment to strengthen the power of the Five Promises 
for Alaska's children. Through the involvement and commitment of 
community partners we collectively provide opportunity each year for 
over 30,000 youth to become engaged in volunteer service and leadership 
opportunities that have enriched their own life and have provided 
valuable results within their own communities.
    Annually, through the support of community partners, our 
organization has worked to provide an opportunity for the Five Promises 
to come alive during an event called KidsDay. A time when children are 
valued by all, are given an opportunity to explore and learn about 
positive choices and are engaged with at least one caring adult in 
exploring creative and fun activities. On this day as a community, 
Anchorage comes together to wrap support and services around children 
and young people. We believe valuing our children within our homes, 
community and schools is essential in building a foundation within 
which our young people can thrive and succeed as they grow and become 
mature, productive and caring adults.
    ``We must invest in the whole child, and that means finding 
solutions that involve the family, the school, and the community.'' 
(Grad Nation Guidebook to Help Communities Tackle The Dropout Crisis, 
2008.)
    As a nation, and as a state that values children, within our 
communities and in our homes we must work together to identify ways 
that we can improve, intensify, expand or significantly integrate 
existing efforts to provide the support that youth must have, both 
inside and outside the classroom that will encourage each student to 
stay in school and succeed in high school and postsecondary education.
                       about anchorage 's promise
    Anchorage's Promise, an affiliate organization of America's 
Promise, is a part of a national alliance made up of nonprofit groups, 
corporations, community leaders, charitable foundations, faith-based 
organizations and individuals. Through increasing awareness, advocating 
for children and engaging in local initiatives, we use the strength of 
our partnerships and our association with America's Promise, to more 
effectively and strategically bring the power of the Five Promises to 
Alaska's children--enabling them to have the resources they need to 
lead happier, healthier, more productive lives and build a stronger 
future. Founded in 2003, Anchorage's Promise has emerged as the largest 
and most effective mobilizer of youth-led activities in Alaska. 
Annually, Anchorage's Promise with support from partners touched the 
lives of 30,000 young people and their families throughout the State of 
Alaska.
       Prepared Statement of the Cook Inlet Tribal Council, Inc.
                           executive summary
    1. Through the reauthorization process of No Child Left Behind 
(NCLB), Congress has the opportunity and responsibility to expand upon 
existing models that lead to increased Alaska Native, American Indian, 
and overall student achievement.
    2. The Alaska Native Educational Equity, Support, and Assistance 
Act (NCLB, Title VII, Part C) addresses the holistic educational needs 
of Alaska's first peoples, throughout the continuum from early 
childhood to postsecondary education. Cook Inlet Tribal Council (CITC) 
has discerned through examination of Alaska's statewide Adequate Yearly 
Progress data that when Alaska Native students are thriving in school, 
all students are thriving.
    3. Through the funding provided by Alaska Native Educational 
Equity, Support, and Assistance Act, within the framework of NCLB, CITC 
demonstrates that a successful educational program integrates the 
following core elements:

    <bullet> Rigorous curricula and high academic expectations,
    <bullet> Innovative public-private partnerships,
    <bullet> Positive youth development,
    <bullet> Family/community involvement in education, and
    <bullet> Culturally responsive practices.
Alaska's Vision of Success for its Native Students
    In 2006, First Alaskans Institute (FAI) interviewed 45 Alaska 
Native leaders, legislators, state officials, school district staff, 
and community members to produce a report on Alaska Native Student 
Vitality that reflects the perspectives of Alaska's diverse educational 
stakeholders. In this report, FAI defined a successful Native student 
as ``one who can set and achieve goals because he knows his own worth 
and value, understands his responsibility to his community, and is 
prepared to pursue whatever life path he chooses.'' CITC exhorts 
Congress to reflect upon this vision of success for students across the 
Nation as it reauthorizes NCLB and charts the future of education in 
America.
                             the challenge
    The data is unassailable: far too many of our youth are dropping 
out of school, and even more youth leave our K-12 educational system 
ill-equipped to make meaningful life choices regarding their 
postsecondary education opportunities, their future careers, and their 
personal well-being. As Senator Murkowski noted on her Web site, this 
``limit[s] Alaska's ability to develop its economy and limit[s] our 
Nation's ability to compete on the world stage.''
    Congress has already articulated the challenge and set forward some 
of the key ingredients needed for achieving success, as follows:

    NCLB, TITLE VII, PART C, SEC. 7302. FINDINGS.
    Congress finds and declares the following:

    1. The attainment of educational success is critical to the 
betterment of the conditions, long-term well-being, and preservation of 
the culture of Alaska Natives.
    2. It is the policy of the Federal Government to encourage the 
maximum participation by Alaska Natives in the planning and the 
management of Alaska Native education programs.
    3. Alaska Native children enter and exit school with serious 
educational handicaps.
    4. The educational achievement of Alaska Native children is far 
below national norms. Native performance on standardized tests is low, 
Native student dropout rates are high, and Natives are significantly 
underrepresented among holders of baccalaureate degrees in the State of 
Alaska. As a result, Native students are being denied their opportunity 
to become full participants in society by grade school and high school 
educations that are condemning an entire generation to an underclass 
status and a life of limited choices.
    5. The programs authorized in this part, combined with expanded 
Head Start, infant learning, and early childhood education programs, 
and parent education programs, are essential if educational handicaps 
are to be overcome.
    6. The sheer magnitude of the geographic barriers to be overcome in 
delivering educational services in rural Alaska and Alaska villages 
should be addressed through the development and implementation of 
innovative, model programs in a variety of areas.
    7. Native children should be afforded the opportunity to begin 
their formal education on a par with their non-Native peers. The 
Federal Government should lend support to efforts developed by and 
undertaken within the Alaska Native community to improve educational 
opportunity for all students.
                         meeting the challenge
    CITC is a tribal social service nonprofit organization in 
Anchorage, AK that works in partnership with the community to provide 
opportunities for Native people to fulfill their endless potential in 
four core areas: K-12 education; workforce development and employment; 
child welfare and family services; and recovery from addictions.
    While CITC recognizes the tumultuous history of Native education in 
Alaska, and the residual apprehension or mistrust of schools that it 
may engender in our people, we also want to emphasize that education is 
a traditional value that our Native community holds in high regard; we 
know that education is the key to our people's success both now and 
into the future. CITC is partnering with the U.S. Department of 
Education, the Anchorage School District, our students and families, 
and our community to ensure that our Native students receive a quality 
education that prepares and empowers them to set and achieve their life 
goals.
    At CITC we believe that in order to achieve the desired academic 
outcomes and goals of NCLB, our schools must provide all students with 
educational opportunities that holistically strengthen and support 
youth as our most valued resources to be nurtured and developed--rather 
than using the dominant, deficit-based framework of viewing our 
students and their achievement as problems to be solved. While all of 
CITC's educational services target dropout prevention, we directly 
address this challenge through the concept of developing lifelong 
cultural, social, emotional, and academic success in our students.
    CITC respectfully submits these comments through the lens of our 
educational services, which we have found to be effective for Native 
students and, by extrapolation and as demonstrated by research, 
effective for all students.
    CITC provides strengths-based, core content classes and supportive 
services to over 1,000 K-12 Native students and their families across 
the Anchorage School District. Our external evaluations indicate that 
the longer students are involved in CITC's educational services, the 
better their performance in school. ``Among the [Alaska Native/American 
Indian] students in [CITC's educational services], less absences, 
higher GPA, higher Standardized Base Assessment test scores in reading 
and writing, and greater rates of graduation were related to more 
frequent participation in the program . . . With regard to changes in 
actual SBA test scores, students in the [CITC] Program improved 
markedly in their reading and math test scores, and these improvements 
were substantially greater for CITC than for non-CITC [Native] 
students.'' (Excerpts September 22, 2007 letter from CITC external 
evaluator, Spero M. Manson, Ph.D; Professor and Head of American Indian 
and Alaska Native Programs; School of Medicine; University of Colorado 
Denver.)
    CITC recommends that all early childhood, K-12, and postsecondary 
educational systems be firmly rooted in and accountable to the 
following core concepts:

    <bullet> Innovative Public-Private Partnerships
    <bullet> Rigorous Curricula and High Expectations of Students
    <bullet> Positive Youth Development
    <bullet> Family and Community Involvement in Education
    <bullet> Culturally Responsive Practices in the Classroom
Innovative Public-Private Partnerships
    The education of our youth is a shared responsibility that extends 
beyond our school systems' purview; every community member has a role 
to play in contributing to the success of our youth. Now more than 
ever, we as a community must ensure that we are effectively leveraging 
our resources and aligning our educational and social services to best 
meet the needs of our people. Through CITC's unique partnership with 
the Anchorage School District (ASD), we have created a successful model 
for widespread community collaboration in Native education that can be 
replicated across Alaska and nationwide. This collaborative 
relationship is designed to produce positive educational and social 
outcomes for youth while being mutually beneficial to all parties 
involved.
    With funding from the U.S. Department of Education (ED), CITC 
supplements the educational services offered within ASD by providing 
teams of CITC staff working in 10 ASD public schools. These schools are 
identified by ASD and CITC based upon high numbers of Native student 
enrollment and Native student achievement. CITC works with ASD 
leadership to establish a ``school within a school'' model for Native 
students in each location.
    The CITC education teams are composed of:

    <bullet> Certified Teachers are ``highly qualified'' per NCLB, and 
teach core content classes (in Language Arts, Mathematics, Science, and 
Physical Education) for Native students in ASD. These teachers are 
trained in Native traditions and learning styles, and they integrate 
Native culture into the content and the methodology of their classes.
    <bullet> Assistant Teachers provide individualized instruction and 
tutoring, homework assistance, small group instruction, after school 
activities, family activities and communication, curricula development, 
field trip coordination, and other associated educational duties. The 
Assistant Teacher position is a stepping stone for aspiring teachers to 
develop their classroom skills within a supportive environment.
    <bullet> Family Advocates serve as a culturally responsive bridge 
of ongoing communication between home and school, helping families to 
advocate for their child's needs. They also refer students and families 
to other community resources.
    <bullet> Academic Counselors assist students to stay on track for 
graduation from high school through individualized education, career, 
and life planning.

    Overall, ED provides funding for CITC to hire 51 full-time 
educational professionals to ensure that Native students' academic and 
social-emotional needs are met within the 10 ASD schools in which CITC 
has a presence. While CITC currently receives competitive grant funding 
from the ED Office of Indian Education and the ED Office of Safe and 
Drug-free Schools, the majority of CITC's educational funding (76 
percent) is awarded through the Alaska Native Educational Equity Act. 
CITC relies on this funding stream to serve our students. We cannot 
overstate the importance of this funding to both CITC and to the entire 
State of Alaska.
    Beyond our foundational tripartite partnership amongst CITC, ASD, 
and ED, CITC cultivates numerous other partnerships that contribute to 
student success, such as:

    <bullet> Within CITC, all departments collaborate to provide wrap-
around services and opportunities for students and their families in 
employment and training, recovery, and child/family welfare;
    <bullet> CITC partners with the University of Alaska Anchorage's 
highly lauded Alaska Native Science and Engineering Program (ANSEP) to 
provide ongoing high-end math and science tutoring to CITC youth, and 
to smooth the pathway for Native students to pursue postsecondary 
education and careers in science, technology, engineering, and math;
    <bullet> CITC works with the Alaska Native Heritage Center to 
provide cultural trainings for staff and special events for students 
and/or the community at large;
    <bullet> CITC students produce multimedia public service 
announcements and documentaries for public events and other social 
service entities, including: Covenant House's Candlelight Vigil for 
Homeless Youth, Alaska Native/American Indian Heritage Month, Anchorage 
Youth Court, Alaska Native/American Indian Aids Awareness, among 
others;
    <bullet> CITC students work with Koahnic Broadcast Corporation to 
produce public radio pieces for distribution nationwide through 
National Native News; CITC students produce a live, weekly radio show 
on the University of Alaska Anchorage's radio station, KRUA; and CITC 
staff members regularly serve as featured guest panelists on the 
nationally syndicated Native America Calling; and
    <bullet> CITC's educational services partners with numerous other 
individuals and social service organizations across Alaska and the 
Nation to ensure that we are collectively identifying, responding to, 
and meeting the needs of our youth and their families.

    In addition to our ongoing outreach and sharing within the 
Anchorage community, over the past year CITC has been invited and/or 
selected to present our innovative educational partnerships at the 
following local and national educational events:

    <bullet> Bilingual Multicultural Education and Equity Conference in 
Anchorage, AK;
    <bullet> Office of Indian Education Partnerships for Indian 
Education: Students--Schools--Family--Community Annual Conference in 
Rapid City, SD;
    <bullet> Office of Indian Education Annual Grantee Meeting in 
Washington, DC;
    <bullet> National Indian Education Association Annual Conference in 
Seattle, WA; and
    <bullet> White House Compassion in Action Roundtable in Washington, 
DC.
Rigorous Curricula and High Expectations of Students
    Educational leaders set the tone within schools, and teachers set 
the tone within classrooms for expectations regarding student 
achievement. All educators must fully believe and embrace the core 
concept that all students can learn; however, unintentional biases and/
or cultural misunderstandings can lead to low expectations for student 
achievement, especially for Native students. When students feel 
respected and supported in the classroom, they are willing and capable 
of rising to and exceeding the academic expectations that are set for 
them. As a result, educators must intentionally examine and re-think 
the common and inaccurate presupposition that Native students will not 
fare as well in class as their non-Native counterparts because that's 
what the data has tended to demonstrate.
    Academic rigor is key not only to our students' performance on 
standardized tests for Adequate Yearly Progress, but also to their 
ability to become critical thinkers and contributing members of their 
communities. All of CITC's core content classes follow established 
curricula and meet or exceed district and State standards. CITC is 
proud to offer both basic and advanced math, science, and language arts 
classes, and we strive to cultivate intellectual curiosity and 
commitment to citizenship within a global context in all our students.
Positive Youth Development
    Often referred to as ``soft skills,'' positive youth development 
and the social-emotional learning that it brings about are the 
foundational skills for students' success in school and in life. The 
Search Institute is a leader in advocating for the power of positive 
youth development and its impact on student achievement and well-being. 
The Search Institute created a research-based framework of 
developmental assets, which are ``positive factors in young people, 
families, communities, schools, and other settings that have been found 
to be important in promoting young people's healthy development. Search 
Institute's framework organizes 40 assets into eight categories: 
support, empowerment, boundaries and expectations, constructive use of 
time, commitment to learning, positive values, social competencies, and 
positive identity'' (http://www.search-institute.org/research/insights-
evidence). More information about developmental assets is available at 
www.search-institute.org/assets.
    In their October 2003 publication Insights & Evidence--Promoting 
Healthy Children, Youth, and Communities, the Search Institute stated 
``New studies suggest that developmental assets play a significant role 
in students' academic achievement across a wide range of students. In 
fact, developmental assets appear to have as much or more influence on 
student achievement as other demographic factors and school reform 
strategies. Thus, building developmental assets has great promise as a 
strategy for boosting student achievement.'' (Quoted words are bolded 
by CITC.)
    CITC builds positive youth development through developmental assets 
into all of its educational services. CITC education staff engages in 
regular professional development focused on positive youth development. 
Staff implements positive youth development strategies in our classes, 
and they inspire our students to create cultural analogies about 
positive youth development. Student analogies include the feathers on 
an eagle representing the developmental assets and the strengths 
students need to soar to success; the fibers of a basket representing a 
community uniting to support youth; and traditional subsistence fishing 
as a metaphor for the community identifying the inherent abilities and 
assets of students. CITC staff have participated in and presented at 
numerous Search Institute national conferences, sharing our culturally 
based approaches to utilizing the developmental assets framework as a 
means for improving student achievement and enhancing family 
involvement in education.
    CITC is grateful to the Association of Alaska School Boards for 
their exemplary work in creating the assets-based publication Helping 
Kids Succeed--Alaskan Style. Also funded by the Alaska Native 
Educational Equity Act, AASB's Alaska Initiative for Community 
Engagement (Alaska ICE) has provided all Alaskans with information, 
tools and assistance to work together and engage in the shared 
responsibility of preparing Alaska's children and youth for the future. 
CITC's educational services have been enriched by the work that Alaska 
ICE has done to incorporate place-based and culture-based knowledge 
into the Search Institute's developmental assets framework, making it 
readily accessible and relevant to our Native students and families.
    CITC also commends ASD for recognizing the critical need for 
accountability to positive youth development by adopting district-wide 
Social-Emotional Learning Standards and Benchmarks. ASD defines Social 
and Emotional Learning (SEL) as ``the process through which we learn to 
recognize and manage emotions, care about others, make good decisions, 
behave ethically and responsibly, develop positive relationships, and 
avoid negative behaviors. It is the process through which students 
enhance their ability to integrate thinking, feeling, and behaving in 
order to achieve important life tasks. Within the school setting, SEL 
can best be accomplished through a layered approach of skills lessons, 
infusion into the curricula and classroom practices, and an environment 
of safety, respect, and caring which models SEL values.'' (http://
wwvv.asdk12.org/depts/SDFS/SEL/SEL_Standards.pdf) CITC uses ASD SEL 
standards in all of our classes.
Family and Community Involvement in Education
    As research indicates, family involvement in education is a strong 
predictor for student success in school. CITC recognizes that parents 
and family members are our young people's first and most important 
teachers--we need our families to help us with our educational 
services. When educators hear the term ``family involvement,'' they 
often think of the activities that can be done to involve parents in 
the school rather than involving schools with families. Throughout the 
school year, CITC provides meaningful outreach from the schools and 
opportunity for family involvement in our educational services:

    <bullet> Each CITC school has a full-time Family Advocate dedicated 
to ensuring individualized opportunities for family involvement to the 
degree the family is able;
    <bullet> Families receive regular communication (phone calls, home 
visits, mailings) from Family Advocates--and are able to call our staff 
anytime;
    <bullet> Families are welcome in CITC classes to share their 
knowledge and experiences with students, and can just visit the 
classroom whenever they like;
    <bullet> Families are encouraged to attend field trips and special 
events with students;
    <bullet> Families are invited to monthly CITC cultural and academic 
family gatherings, trainings, potlucks, guest speakers, and pow wows;
    <bullet> CITC welcomes family input and feedback from our families 
about our educational services at any time, and holds family focus 
groups twice yearly to learn how to improve our services; and
    <bullet> CITC encourages and assists (through transportation 
services and incentives) families to attend important school events, 
such as registration and parent-teacher conferences.
Culturally Responsive Practices in the Classroom
    Nationwide research as well as the Alaska Native/American Indian 
community have identified the need for improved cultural competence as 
a primary means to mitigating and alleviating the academic 
underachievement of Native students. CITC classes actively integrate 
Native culture in curricula, our classroom expectations are grounded in 
traditional Native values, and our teaching methodology reflects Native 
ways of teaching and learning. We provide students with a cultural 
sense of belonging within our core content classes.
    CITC helps to resolve issues in cross-cultural education documented 
by the Alaska Native Education Study: A Statewide Study of Alaska 
Native Values and Opinions Regarding Education in Alaska (First 
Alaskan's Foundation, 2001). Key findings in the report are as follows:

    <bullet>  Barriers to Native students' academic success in Alaska 
(Section 1, p. 3-4):

        <bullet>  Curriculum, learning materials and teaching styles do 
        not relate to Native culture.
        <bullet>  Ignorance of Native culture among teachers and other 
        school staff.

    <bullet> Role of Language and Culture (Section 1, p. 4): Currently, 
``classroom education is generally inconsistent with Native culture and 
a rural lifestyle. To close the divide between Western education and 
Alaska Native culture, experts and parents alike suggest that `Native 
ways of knowing' will improve Native student's success.''
    <bullet> Improving Education for Alaska Native Children (Section 4, 
p. 19): Alaska Natives value education and want schools to be more 
relevant for Alaska Native students, as illustrated by their ranking of 
the following contributing factors: (1) parent involvement, (2) better 
teachers, (3) more Native teachers, (4) Native culture classes, (5) 
increased academic challenges, and (6) communication with teachers.

    The Northwest Regional Laboratory (February 2003) study, A Review 
of the Research Literature on the Influences of Culturally Based 
Education on the Academic Performance of Native American Students, 
supports the role of family and culture in education and includes the 
following findings:

    <bullet> Introduction (Section 1, p. 4): Jerome Bruner (a pioneer 
in cognitive development) states that ``. . . culture shapes mind . . . 
it provides us with the tool kit by which we construct not only our 
worlds but our very conceptions of ourselves and our powers'' (Bruner, 
1991).
    <bullet> Definitions of Culturally Based Education Interventions 
(Section 2, p. 7): Culturally based education programs have six 
critical elements:

    1. Recognition and use of Native American languages.
    2. Pedagogy that stresses traditional cultural characteristics, and 
adult-child interactions.
    3. Pedagogy in which teaching strategies are congruent with the 
traditional culture and ways of knowing and learning.
    4. Curriculum that is based on traditional culture and that 
recognizes the importance of Native spirituality.
    5. Strong Native community participation (including parents, elders 
and other community resources) in educating children and in the 
planning and operation of school activities.
    6. Knowledge and practice of the social and political mores of the 
community.

    These key Native education studies combined with findings from 
CITC's education programs, inform the building blocks for CITC's 
academic enhancement and drop-out prevention efforts.
                      recommendations to congress
    Echoing Alaska's vision of success for its Native students, CITC 
and its Native community want Native students and all students to set 
and achieve goals because they know their own worth and value, 
understand their responsibility to his community, and are prepared to 
pursue whatever life path they choose. In order to do so, CITC submits 
the following recommendations:
    First and foremost, CITC exhorts the U.S. Senate Health, Education, 
Labor, and Pensions Committee and Congress at large to continue to 
support and to further strengthen the Alaska Native Educational Equity 
Act language within NCLB. The funds provided through NCLB Title VII, 
Part C are important to CITC and to all of Alaska. Alaska's educational 
system perpetually faces funding challenges, which are compounded by 
the increasing energy crisis that Alaska faces. Approximately 80 
percent of Alaska's communities are remote/rural and lie off of the 
``road system,'' meaning that they rely upon petroleum products for 
heating, electricity, and transportation--as a result, many rural 
school districts are struggling to keep their doors open. These funds 
allow for an intentional focus on educational innovation and excellence 
beyond the operating costs of schools; they fill the gaps in Alaska's 
educational systems, with 54 current grantees providing critical 
educational services ranging from early childhood through postsecondary 
education. If these funds were continued and increased, Alaska could 
experience even greater student success and achievement. We remind 
Congress of the importance of the purpose of this funding through 
Congress' own language:

    NCLB, TITLE VII, PART C, SEC. 7303. PURPOSES.
    The purposes of this part are as follows:

    1. To recognize the unique educational needs of Alaska Natives.
    2. To authorize the development of supplemental educational 
programs to benefit Alaska Natives.
    3. To supplement existing programs and authorities in the area of 
education to further the purposes of this part.
    4. To provide direction and guidance to appropriate Federal, State 
and local agencies to focus resources, including resources made 
available under this part, on meeting the educational needs of Alaska 
Natives.

    Second, CITC also recommends that Congress increase the support of 
and direct accountability to the aforementioned key areas of 
educational systems (Innovative Public-Private Partnerships, Rigorous 
Curricula and High Expectations of Students, Positive Youth 
Development, Family and Community Involvement in Education, and 
Culturally Responsive Practices in the Classroom), requiring 
educational systems nationwide to demonstrate their proficiency in 
these areas as part of their NCLB reporting requirements. This broad-
ranging accountability is also essential at the State, district, 
school, and classroom levels to ensure that teachers are utilizing 
individualized, culturally relevant, differentiated instruction and 
multiple forms of assessment to more accurately gauge and support 
holistic student achievement.
      Prepared Statement of Beverly Patkotak Grinage, President, 
                     Ilisagvik College, Barrow, AK
    Today, Native American college graduation rates are the lowest of 
any racial or ethnic group in America. As president of the only Alaska 
Native-controlled College in Alaska, and the only recognized tribal 
college in the State, I would like to provide the committee with a 
rural Alaska Native perspective on this issue. Everyone involved in 
education in Alaska is numbingly familiar with the dismal educational 
statistics of rural Alaska, especially among Alaska Natives.
    ``. . . the Education Department data show that Native American 
students are less likely than other students to be enrolled in or to 
graduate from college,'' (inside
highered.com/news/2005/08/26/indian).
    The same report shows Native Americans with a Bachelor's degree 
comprising the lowest of all ethnic or racial groups at 15 percent, as 
compared to the national average of 45 percent. Native American faculty 
members make up less than 1 percent of the total in higher education 
facilities.
    Alaska Natives and Native Americans are being left behind. One of 
the ways to improve postsecondary success in Native Americans both in 
Alaska and nationwide is through tribal colleges. According to Paul 
Boyer, in Native American Colleges, ``Research, site visits, 
accreditation reports, and government audits all confirm their 
effectiveness. . . . Their impacts are real. . . . More than any single 
institution, they are changing lives and offering real hope for Native 
American communities.'' A 2007 report from the Institute for Higher 
Education Policy supported these findings about tribal colleges by 
stating, ``They are the driving force for economic and social 
development in Native American communities.''
    Dr. Gerald Gipp stated that with over 27,000 students enrolled 
today in 36 tribal colleges across the United States and one in Canada, 
other tribal nations have shown great interest in joining this 
movement. (Tribal College Journal, Fall/Winter issue 2005). In 2006, 
Ilisagvik College took great pride in achieving recognition by the 
Bureau of Indian Affairs as the only tribally controlled college in 
Alaska.
    Nearly 40 years after the first tribal college was established, the 
challenges faced by Native American communities continue to be immense.
    The challenges faced by the Inupiat of the North Slope and 
Ilisagvik College are nearly identical to those faced by Native 
Americans through the country. And the forces that gave rise to tribal 
colleges throughout the United States are identical to that which 
created Ilisagvik College. Local leaders saw the need for a regional 
postsecondary institution where the emphasis was on culturally 
appropriate instructional programs that would strengthen Inupiat 
language, culture, values and traditions.
    ``The precursors to Ilisagvik College--Inupiat University, the 
North Slope Higher Education Center, the Arctic Sivunmun Ilisagvik 
College--and Ilisagvik College were all created to serve the residents 
of the North Slope Borough who did not have access to the higher 
education provided by the University of Alaska and others like it.'' 
(Dr. Edna MacLean, former Ilisagvik College president). She said the 
hope was that Inupiaq people would come to the college for 
geographical, linguistic and cultural reasons, as well as the fact that 
they simply did not have ready access to the State university system in 
Alaska.
    Long-time Inupiaq leader Oliver Leavitt stated in a December 2006 
meeting that Ilisagvik was created for the 70 percent of Inupiat who 
could not leave home for a variety of reasons to get a college 
education. Leavitt was on the NSB Assembly when it approved the 
creation of Ilisagvik in 1995.
    Former Mayor George N. Ahmaogak, Sr. explained that he fostered the 
establishment of the college because it was his moral responsibility to 
do so. He also felt compassion for people who desperately needed the 
training and education Ilisagvik could provide in order to obtain 
employment near to their homes and culture.
    TCU's were patterned after the community college model, because 
they most closely matched the needs of tribal members. This does not 
mean that the TCU's look and act like mainstream (non-Indian) community 
colleges. Their first loyalty is to their tribal members and nations. 
They pass on Native culture and values, and their mission is to rebuild 
tribal nations and create stronger nations. (Boyer). Boyer went on to 
say that in many ways, TCU's do follow the model of community colleges. 
Like community colleges, TCU's also have a policy of open admission; 
they provide jobs training; they are local, thus providing easy access; 
their programs are relevant to the workforce needs of local employers; 
and many provide basic skills upgrades in their missions. (Capturing 
the Dream).
    Like other tribal colleges, Ilisagvik provides a wide range of 
support services to its students. These services range from tutoring, 
student advocates who contact every student regularly, pre-college math 
and English courses, student transport services, a full-time cultural 
resources specialist and a dorm parent. This approach is supported by 
research from other tribal colleges. ``Success often depends on the 
institution's ability and commitment to provide access to those who 
aspire to enter college; provide financial, social, and academic 
support while the students are enrolled; and help provide opportunities 
to those who have finished their degrees,'' (Institute for Higher 
Education Policy, 2007).
    Tribal Colleges and Universities are the most poorly funded 
institutions of higher education in the country. But despite this, 
tribal colleges create community-based miracles every day. They also 
developed their own data system for maintaining accountability to 
Federal agencies, their communities, and their students. Although 
Alaska Natives and Native Americans lag far behind all other ethnic 
minorities in college graduation rates, tribal colleges currently serve 
27,000 students whose presence in an institute of higher education is 
the best hope to change the current dismal statistics.
    The most critical issue facing us is the need to secure full 
funding for our operations. Establishing forward funding is also a 
priority. Tribal colleges are the ONLY schools funded by the Department 
of Interior that are not forward funded, and this means that our 
institutions must endure extensive funding delays each fiscal year due 
to the often late congressional passage of the appropriations bill and 
a very slow administrative process. Even if we were funded immediately 
at the start of the fiscal year, we still would not receive funding 
until a month or more after the school year begins. We are asking for a 
one-time investment of only about $45-$50 million. This would have an 
impact for years to come, and would be tremendously beneficial to all 
tribal colleges and Native Americans.
    We need support for remedial/developmental education programs, 
student support services, high school/college bridge programs, 
facilities, and preservation/revitalization of Native Language 
programs. In all of these areas and more, we need programs specifically 
funded and designed for Tribal Colleges. This country as a whole cannot 
move ahead unless all its members move ahead also. And without support 
for these programs, our residents are definitely being left behind.
    We also need your commitment to work with the Tribal Colleges and 
AIHEC in re-writing and implementing the Executive Order on Tribal 
Colleges and Universities.&
    We need funding and assistance with our distance delivery education 
technology. Distant delivery education technology is a major avenue for 
bringing education to even the remotest of sites in a cost-efficient 
manner. We have seven outlying villages on the North Slope that depend 
on this technology and some go without Internet access for up to 4 
months at a time. This disruption in service greatly hampers our 
ability to educate and train our people.
    The need for local Alaska Native teachers is reaching a desperate 
level. This is a problem we are currently working on without support 
from the Federal or State governments. Out of the 196 certified 
teachers employed in our schools on the North Slope, only three (3) are 
Inupiaq. Our children need teachers who understand them and their lives 
and culture. They need teachers who will be there year after year, 
integrated into the very fabric of the community and not teachers who 
come and go on a yearly basis. If our children are to succeed in life, 
they must start this success in the very earliest years of their 
education. We need Alaska Native teachers instructing Alaska Native 
students.
    Tribal Colleges are an integral part of the Nation's higher 
education system and have demonstrated marked success in educating 
Native Americans. With Ilisagvik College achieving Tribal College 
status, Alaskan Natives are now being served by a tribal college as 
well. Tribal colleges have been consistently under-funded. This means 
their financial soundness remains tenuous at best. Although new 
colleges achieve tribal college recognition from time to time, as 
Ilisagvik did in 2006, appropriations do not recognize this expansion 
with additional funds. Thus appropriations for the existing colleges 
become more and more stretched to meet an ever-expanding roster of 
tribal colleges. There is a need for a major infusion of operating 
funds for all these institutions, including Ilisagvik.
    We are the best hope for the future of Native Americans in this 
Nation. We need more than your moral support and good intentions. We 
need your financial support in an ongoing, steady and immediate fashion 
so that we can continue to serve one of the most underserved ethnic 
groups in our Nation today.
 Prepared Statement of Denise Greene-Wilkinson, Board Member, National 
               Association of Secondary School Principals
    Chairwoman Murkowski and members of the committee, thank you for 
the opportunity to share recommendations regarding high school 
improvement and postsecondary success. My name is Denise Greene-
Wilkinson, and I am the principal of Polaris K-12 School in Anchorage, 
AK, where I have served for 14 years. Today, I am appearing on behalf 
of the National Association of Secondary School Principals, where I 
serve as a member of the NASSP Board of Directors, as well as, a member 
of the Alaska Association of Secondary School Principals. In existence 
since 1916, NASSP is the national voice for middle level and high 
school principals, assistant principals, and aspiring school leaders 
from across the United States and more than 45 countries around the 
world. Our mission is to promote excellence in middle level and high 
school leadership.
                 improving high school graduation rates
    Many reports have been issued in the past few years that reveal 
deep problems with the achievement levels of U.S. high school students 
as well as low graduation and college attendance rates for low-income 
and minority students. More often than not, these low rates can be 
traced back to the large numbers of students entering high school 
reading below grade level. In addition, the vast majority of high 
schools have a climate of anonymity where little focus is placed on 
identifying the personal learning needs of individual students and 
using such information to foster improved teaching and learning.
    Improving education for all students is paramount to strengthening 
our democracy and preparing our Nation to compete in today's global 
marketplace. To that end, it is quite necessary for the Federal 
Government to play an ongoing active and supportive role in improving 
the Nation's schools by encouraging reform and providing adequate 
resources to supplement improvement efforts at the State and local 
levels. The role of the Federal Government in education should be one 
of partnership with the States and local school districts to improve 
the overall quality of the Nation's schools and to ensure equal 
opportunity for all students.
    Congress has an opportunity right now to provide middle level and 
high schools with the resources they need to ensure that every student 
graduates with the skills necessary for success in postsecondary 
education and the workforce. Positive proposals to amend current law 
include the Striving Readers Act, the Graduation Promise Act, and the 
Success in the Middle Act.
                            striving readers
    NASSP urges Congress to authorize and expand the Striving Readers 
program for students in grades 4-12. This vital program will help 
ensure that the 6-8 million students reading below grade level receive 
the literacy interventions they need to earn a high school diploma.
    Nationwide, 29 percent of eighth-grade students read ``below 
basic'' on the National Assessment of Educational Progress. These 
students, who are in the bottom quarter of achievement, are 20 times 
more likely to drop out than students at the top. That should come as 
no surprise. Low literacy prevents students from succeeding in high 
school in all subjects. And the National Center for Education 
Statistics found that 53 percent of undergraduates require a remedial 
reading or writing course. In addition, the National Association of 
Manufacturers reported that businesses spend more than $60 billion each 
year on remedial reading, writing, and mathematics for new employees.
    The Striving Readers Act (S. 958) would create a formula grant 
program for States based on poverty levels according to the U.S. 
Census. States would develop statewide literacy plans, and districts 
applying for the grants would use funds to create schoolwide adolescent 
literacy plans that met the needs of all students, including students 
with special needs and English language learners; provide professional 
development for teachers in core academic subjects; train school 
leaders to administer adolescent literacy plans; and collect, analyze, 
and report literacy data.
    The goals of Striving Readers are very much in line with Creating a 
Culture of Literacy: a Guide for Middle and High School Principals, 
which NASSP released in 2005. This guide was written for principals to 
use as they team with staff members to improve their students' literacy 
skills by assessing student strengths and weaknesses, identifying 
professional development needs, employing effective literacy strategies 
across all content areas, and establishing intervention programs.
    Senator Jeff Sessions (R-AL) and Senator Patty Murray (D-WA) have 
been true leaders in adolescent literacy, and NASSP would like to thank 
them for their hard work in ensuring that the Striving Readers program 
has a permanent place in the Elementary and Secondary Education Act.
                        graduation promise fund
    NASSP is a national leader in high school reform and in 2004, 
created a framework upon which to improve our Nation's high schools 
called Breaking Ranks II: Strategies for Leading High School Reform. 
The handbook offers successful research-based practices, real-life 
examples of high schools at various stages of reform, a step-by-step 
approach to lead change, obstacles to avoid, and resources from which 
to draw. NASSP offers Breaking Ranks for all high school principals, 
regardless of school size, geographical location, or where they are in 
the school improvement process.
    High schools have historically been the forgotten stepchild of 
school reform efforts and, for far too long, have not received an 
adequate share of funding and other resources from the Federal 
Government. But successful high school reform requires real strategies 
and significant resources for implementing systemic improvement and 
raising individual student and schoolwide performance levels. This is 
why NASSP supports the Graduation Promise Act (S. 1185), which would 
support the development of statewide systems of differentiated high 
school improvement that focuses research and evidence-based 
intervention on the lowest performing high schools, and improves the 
capacity of the high schools to decrease dropout rates and increase 
student achievement. The bill would also provide competitive grants to 
States to identify statewide obstacles hindering students from 
graduating, and provide incentives for States to increase graduation 
rates.
                       success in the middle act
    Although much attention has been focused on high school reform, 
NASSP urges Congress to also address the more than 2,000 middle level 
schools that feed into the Nation's ``dropout factories''--those high 
schools graduating fewer than 60 percent of their students. High school 
reform will never succeed in a vacuum, and many of these middle level 
schools are in need of the same comprehensive whole-school reform that 
is offered to high schools under the Graduation Promise Act.
    The future success of ESEA rests largely on the shoulders of middle 
level leaders, teachers, and students. Students in grades 5 through 8 
represent 57 percent (14 million) of the Nation's annual test takers 
under ESEA, but middle level schools are not receiving adequate Federal 
funding and support to help these students succeed. We recognize that 
the majority of districts choose to funnel their title I funds into 
early childhood and elementary programs, and while we fully support 
continuing the drive to help students succeed in these grades, the 
needs of struggling students in our lowest-performing middle schools 
must not be ignored. If title I funds were distributed on the basis of 
student populations, middle level schools (representing 23 percent of 
the Nation's student population) would receive approximately $2.92 
billion of the current title I allocation. Yet, of the $12.7 billion 
appropriated in fiscal year 2005 for title I, only 10 percent is 
allocated to middle schools.
    Therefore, I strongly urge the committee to support the Success in 
the Middle Act (S. 2227), which was introduced last year by President-
Elect Barack Obama. Under the bill, States are required to implement a 
middle school improvement plan that describes what students are 
required to know and do to successfully complete the middle grades and 
make the transition to succeed in an academically rigorous high school. 
School districts would receive grants to help them invest in proven 
intervention strategies, including professional development and 
coaching for school leaders, teachers, and other school personnel; and 
student supports such as personal academic plans, intensive reading and 
math interventions, and extended learning time.
    NASSP believes the comprehensive middle level policy articulated in 
S. 2227 is necessary to address the realities that only 11 percent of 
eighth-grade students are on track to succeed in first-year college 
English, algebra, biology and social science courses (ACT, 2007), fewer 
than one-third can read and write proficiently, and only 30 percent 
perform at the proficient level in math (NAEP, 2005). Enacting the 
Success in the Middle Act hand-in-hand with the Graduation Promise Act 
would strengthen ESEA by providing the support necessary to turn around 
our Nation's lowest-performing middle and high schools and give our 
struggling students the help they need from pre-school through 
graduation.
                            graduation rates
    As you know, the U.S. Department of Education released final title 
I regulations on October 28 that would require all States to report a 
national uniform graduation rate that defines the ``4-year adjusted 
cohort graduation rate'' as the number of students who graduate in 4 
years with a regular high school diploma divided by the number of 
students who form the adjusted cohort for that graduating class. The 
regulations would allow States to propose an extended-year adjusted 
cohort graduation rate that includes students who graduate in 4 years 
or more with a regular high school diploma. Any States that choose to 
report an extended-year graduation rate would be required to submit to 
the department a description of how it will use an extended-year rate 
along with its 4-year rate to determine whether its schools and 
districts make adequate yearly progress.
    NASSP has long advocated for a uniform formula to counter the 
confusion and inconsistencies in current graduation-rate calculations 
that make it impossible to compare State performance and blur any views 
of a nationwide graduation rate. However, we do have concerns that 
States may not choose to report an extended-year graduation rate or 
include the extended-year rate in the accountability system. Because 
not all students enter the 9th grade reading and writing at grade 
level, NASSP recommends that the graduation rate be extended to within 
at least 5 years of entering high school. We also feel very strongly 
that identified special-needs students who complete high school with a 
state-approved exit document should have until age 21, inclusive, to be 
counted as graduates as defined by the Individuals with Disabilities 
Education Act.
    Designating a 4-year timeframe within which students must exit and 
graduate from high school goes against what we know about student 
learning, especially for English language learners, and timelines 
designated by IDEA. In fact, we should be moving in the opposite 
direction by allowing students additional time to graduate if they 
require it without penalizing the school, or less time if they have 
reached proficiency.
    Student performance should be measured by mastery of subject 
competency rather than by seat time. States that have implemented end-
of-course assessments are on the right track and should be encouraged 
to continue these efforts. And ESEA should reward students who graduate 
in fewer than 4 years--which could encourage excellence--rather than 
simply acknowledge minimum proficiency, and the recognition of high-
performing students could help schools that are nearing the target of 
100 percent proficiency.
    Ultimately, individualized and personalized instruction for each 
student must be our goal. NASSP has been a leader in advocating for 
such positive reform strategies through its practitioner-focused 
publications Breaking Ranks II: Strategies for Leading High School 
Reform and Breaking Ranks in the Middle: Strategies for Leading Middle 
Level Reform.
            preparing all students for postsecondary success
    In 2009, the NASSP Board of Directors will consider a position 
statement expressing our support for challenging graduation 
requirements and providing recommendations for Federal, State, and 
local policymakers to help schools ensure that all students meet those 
high standards.
    The national conversation about graduation and dropout rates has 
all but ignored the individuals who obtain their high school diplomas 
but are not prepared to succeed in postsecondary education or the 
workforce. Those students are the near dropouts who earned enough 
credits to graduate, but have backgrounds similar to the 1.2 million 
students whom high schools ``lose'' annually. Data from the National 
Education Longitudinal Study indicates that only 21 percent of 
graduates from the lowest-income families are adequately prepared for 
postsecondary education, compared to 54 percent of graduates from 
middle- and high-income families.
    In the absence of national standards--which NASSP supports--many 
States are already taking the initiative to improve academic content 
standards and raise graduation requirements for all students. The 
American Diploma Project, launched by the nonprofit education reform 
organization Achieve, helps States align their standards ``with the 
real-world expectations of employers and postsecondary faculty in the 
increasingly competitive global marketplace.'' Since 2005, 22 States 
have aligned their high school standards to meet those goals and an 
additional 10 States plan to do so by the end of the 2008-2009 school 
year.
    But raising academic standards alone is not enough to ensure that 
all students, especially low-income and minority students, will 
graduate from high school and succeed in postsecondary education and 
the workforce. Supports must be in place to help schools ensure that 
all students achieve this goal.
    NASSP recommends the Federal Government offer incentives for States 
and districts to develop graduation requirements that allow students to 
choose from multiple pathways to graduation, including career and 
technical education courses that are aligned with higher standards, 
Advanced Placement and International Baccalaureate programs, dual-
enrollment programs, and early college high schools. The Federal 
Government should also ensure that students have access to academic 
supports that will help them stay on track toward graduation. These 
supports could include counseling services that provide information and 
assistance about the requirements for high school graduation, college 
admission, and career success; targeted and tiered interventions for 
middle level and high school students who are falling behind; online 
learning opportunities; extended learning; job shadowing, internships, 
and community service; and in-school and community-based social 
supports, such as counselors, social workers, and mental health 
services.
    Madame Chairwoman, this concludes my formal remarks. As the 
committee and Congress move forward on the reauthorization of ESEA, 
NASSP stands ready to work with you to ensure that all students 
graduate from high school with the skills to help them succeed in 
postsecondary education and the workplace.
    Thank you again for this opportunity.
                                 ______
                                 
                         Alaska Pacific University,
                                       Anchorage, AK 99508,
                                                  October 30, 2008.
U.S. Senate,
Health, Education, Labor, and Pensions Committee.
    Dear Members of the Committee: I am very pleased that the committee 
is holding a field hearing here in Anchorage on November 15 on the 
important subject of improving High School Graduation and Postsecondary 
Success for Alaska students as well as all our Nation's students.
    I have prepared a list of recommendations that University of Alaska 
President Mark Hamilton may include in his presentation, and I would 
like them entered into the record of the hearing as well.
    Dr. Douglas M. North, President of Alaska Pacific University, 
submits the following list of recommendations for improving High School 
Graduation and Postsecondary Success for Alaska students as well as all 
our Nation's students:

    1. Reduce class sizes allowing for more individualized attention.
    2. De-emphasize standardized testing and use tests primarily as a 
diagnostic exercise to determine the learning needs of the individual 
student.
    3. Emphasize stand-and-deliver forms of education where the 
students have to present work they have done to their peers as well as 
the teacher.
    4. Increase project-based education and other creative teaching 
strategies to engage and enhance student curiosity and learning.
    5. Reverse the ethic, especially among school-age males, that it is 
not cool to be smart or achieve academically.
    6. Increase both challenge and support of students through more 
positively oriented individual conferences with teachers.
    7. Measure school success in part by how many students want to, and 
love to, go to their schools.

    Thank you very much for allowing me the opportunity to share these 
recommendations that have come from my 42 years as a postsecondary 
educator.
            With sincere good wishes,
                                      Dr. Douglas M. North,
                              President, Alaska Pacific University.
                                 ______
                                 
                                   Best Beginnings,
                                       Anchorage, AK 99501,
                                                  November 5, 2008.

Hon. Lisa Murkowski,
Health, Education, Labor, and Pensions Committee,
U.S. Senate,
Washington, DC 20510.

Subject:  Improving High School Graduation Rates and Postsecondary 
Success in Alaska and Nationwide--What can the Federal Government Do?

    Dear Senator Murkowski: Best Beginnings is a public-private 
partnership that emerged from growing concern among Alaskans that we 
aren't doing nearly enough to prepare children for school and life. 
Best Beginnings is mobilizing existing resources and organizations to 
build a statewide early learning system that Alaska so desperately 
needs. One of our most important roles is to engage, convene, and 
mobilize the myriad organizations with an interest in early learning. 
Best Beginnings is pursuing solutions to meet this challenge. Our 
efforts are in three areas.
    Because parents are a child's first and most important teachers, 
Best Beginnings promotes early learning and literacy, family literacy, 
and education at home.
    Because so many young children spend time in care away from home, 
Best Beginnings is a catalyst for making high quality child care and 
early learning programs affordable and accessible for all families that 
want them.
    And because preparing children to succeed in school has such 
important implications for the whole State, Best Beginnings is 
promoting a cultural shift in Alaskans' attitudes. We will know this 
cultural shift has taken root when Alaskans insist on the investments 
to finance and sustain early learning.
                              the problem
    Alaska's children are being left behind. Too many Alaska children--
about 40 percent--enter school unprepared to succeed. When children are 
not prepared for school, they rarely catch up later. Children who start 
school unprepared are less likely to finish high school, go to college, 
have the skills to get good jobs, and contribute to a thriving economy.
    Lack of readiness contributes to low scores on standardized tests, 
poor performance on high school graduation qualifying exams, and high 
school dropout rates that are among the highest in the Nation.
    Studies have shown that when infants and young children are given 
appropriate, positive learning experiences, they develop the skills and 
knowledge needed to succeed in school. A child's readiness for school 
is a strong indicator of how he or she will fare in life, generally. 
For this reason, economists say that investments in early learning 
yield huge returns to society as a whole. Quality early learning 
results in productive citizens, healthy families, and greater 
contributions to society.
    We know what success will look like:

    <bullet> Parents and extended families are fully engaged in 
children's learning right from birth;
    <bullet> Built-in incentives for more and better programs and 
services;
    <bullet> Appropriate pay for early childhood professionals;
    <bullet> An early childhood infrastructure built on established 
standards; and
    <bullet> High quality early learning programs that are affordable 
and accessible to all Alaskans who want them.
   public investment in early learning integral to economic recovery
    Early education should be an integral component of America's 
economic recovery. Indeed, the current economic challenge makes public 
investment in early education even more critical. As a nation, we 
cannot afford to pass up the dividends that accrue from investing in 
high quality early education.
    Decades of research on high-quality voluntary early childhood 
education have shown that a Federal investment in the early years now--
not when we're in the black--would yield the following short- and long-
term benefits:

    <bullet> More 3- and 4-year-old children--still in the most 
critical stage of brain development in their lives--can attend programs 
that prepare them for school and for life;
    <bullet> Family pocketbooks receive much-needed relief;
    <bullet> States see a reduction in costly expenses for special 
education, remediation, criminal justice, and social services; and
    <bullet> Our future workforce gains the foundational skills they 
will need to compete in the 21st century global economy.

    Ensuring that children enter school ready to learn and succeed is 
fundamentally sound fiscal policy. Human capital is as important as any 
other form of capital we invest in as a society. To assure a strong 
economy, it is imperative to increase support for proven human capital 
strategies as much because of our current financial crisis as despite 
it.
             specific steps the federal government can take
    <bullet> Reauthorization of the Elementary and Secondary Education 
Act (ESEA)/NCLB should include Pre-K in sections that provide Federal 
funding for school and teacher training. Congress should:

        <bullet>  Create a Federal incentive grant program to support 
        and improve State Pre-K programs;
        <bullet>  Include high-quality Pre-K programs as an allowable 
        instructional intervention available to States and local 
        education agencies identified for improvement in title I;
        <bullet>  Include Pre-K teachers in academic training and 
        professional development; and
        <bullet>  Help States include Pre-K in their longitudinal data 
        systems designed to measure students' progress from Pre-K 
        through college.

    <bullet> Head Start and Child Care.--The 2007 reauthorization of 
Head Start adapted this landmark education program to serve the present 
needs of low-income children. As the Department of Health and Human 
Services prepares to implement the refurbished Head Start law, we 
recommend:

        <bullet>  The departments of Education and Health and Human 
        Services share in responsibility to oversee coordination 
        between Federal and State programs that support Pre-K and child 
        care;
        <bullet>  Congress provide new funds for Head Start and the 
        Child Care and Development Block Grant to compensate for years 
        of underfunding; and
        <bullet>  Provide funding for State Advisory Councils, as 
        envisioned under the 2007 reauthorization.

    <bullet> Rural Needs.--To ensure that every child has access to 
high-quality early learning experiences, we recommend Congress provide 
funding to support the growth of quality programs in rural areas, 
including home visiting programs.
    Thank you for your attention to these vitally important issues.
            Sincerely,
                                              Abbe Hensley,
                                                Executive Director.

    [Whereupon, at 2:42 p.m., the hearing was adjourned.]


                                   

      

</pre></body></html>
